APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Entry in the Supreme Court of Ohio
(April 27, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeals
Eleventh Appellate District Lake
County, Ohio
(February 4, 2021) . . . . . . . . . . . . App. 2
Appendix C Judgment Entry in the Court of
Appeals Eleventh District State of
Ohio County of Lake
(December 21, 2020) . . . . . . . . . . App. 22
Appendix D Order Granting Motion to Enforce
Settlement Agreement and for Civil
Contempt in the Court of Common
Pleas Lake County, Ohio
(November 7, 2019). . . . . . . . . . . App. 24
Appendix E First
Amended
Complaint for
Declaratory Judgment, Mandamus,
and Other Relief in the Court of
Common Pleas Lake County, Ohio
(July 2, 2004) . . . . . . . . . . . . . . . App. 44
Appendix F Order Certifying Class Action on
Count One of the First Amended
Complaint in Case No. 04-CV-001080
in the Court of Common Pleas Lake
County, Ohio
(June 9, 2016) . . . . . . . . . . . . . . . App. 60

ii
Appendix G Opinion in the Supreme Court of Ohio
(September 14, 2011) . . . . . . . . . App. 66
Appendix H Order and Final Judgment in the
Court of Common Pleas Lake County,
Ohio
(October 24, 2016) . . . . . . . . . . . . App. 97
Appendix I Defendants’ Motion to Enforce
Settlement and for Civil Contempt in
the Court of Common Pleas Lake
County, Ohio
(May 29, 2018) . . . . . . . . . . . . . App. 107
Exhibit A, Stipulation of Settlement in
the Court of Common Pleas Lake
County, Ohio
(May 27, 2016) . . . . . . . . . . . . . App. 127
Exhibit B, Order and Final Judgment
in the Court of Common Pleas Lake
County, Ohio
(October 24, 2016) . . . . . . . . . . . App. 149
Exhibit C, Affidavit of Cynthia K.
Frazzini in the Court of Common
Pleas Lake County, Ohio
(May 29, 2018) . . . . . . . . . . . . . App. 161
Frazzini Exhibit A, Complaint for
Declaratory Judgment, Mandamus
and Other Relief in the Court of
Common Pleas Erie County, Ohio
(January 31, 2018) . . . . . . . . . . App. 164

iii
Frazzini Exhibit B, Letters Between
Murray & Murray and Brickler & Eckler
(March 22, 2018) . . . . . . . . . . . . App. 180
Frazzini Exhibit C, Defendants’
Motion to Dismiss for Lack of
Jurisdiction or, in the Alternative, for
Transfer of Venue in the Court of
Common Pleas, Erie County, Ohio
(April 3, 2018) . . . . . . . . . . . . . . App. 191
Frazzini Exhibit D, Response to
Defendants’ Motion to Dismiss for
Lack of Jurisdiction or, in the
Alternative, for Transfer of Venue in
the Court of Common Pleas Erie
County, Ohio
(May 3, 2018) . . . . . . . . . . . . . . App. 202
Frazzini Exhibit E, Defendants’ Reply
Memorandum in Support of Their
Motion To Dismiss for Lack of
Jurisdiction or, in the Alternative, for
Transfer of Venue in the Court of
Common Pleas, Erie County, Ohio
(May 25, 2018) . . . . . . . . . . . . . App. 222
Frazzini Exhibit F, Defendants’
Motion to Stay, in the Alternative in
the Court of Common Pleas, Erie
County, Ohio
(May 25, 2018) . . . . . . . . . . . . . App. 235

iv
Frazzini Exhibit G, Acknowledgment
in the Lake County Court of Common
Pleas
(December 8, 2016) . . . . . . . . . . App. 242
Appendix J Complaint for Declaratory Judgment,
Mandamus and Other Relief in the
Court of Common Pleas Erie County,
Ohio
(January 31, 2018) . . . . . . . . . . App. 245

App. 1

APPENDIX A
The Supreme Court of Ohio
Case No. 2021-0162
[Filed April 27, 2021]
_____________________________________________
State ex rel. Robert Merrill, Trustee, et al.,
)
Homer S. Taft, et al.,
)
)
v.
)
)
State of Ohio, Deptartment of Natural
)
Resources, et al., National Wildlife Federation, )
et al., George Sortino
)
_____________________________________________)
ENTRY
Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Lake County Court of Appeals; No. 2019-L-164)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

App. 2

APPENDIX B
IN THE COURT OF APPEALS
ELEVENTH APPELLATE DISTRICT
LAKE COUNTY, OHIO
CASE NO. 2019-L-164
[Filed February 4, 2021]
_______________________________________
STATE ex rel. ROBERT MERRILL,
)
TRUSTEE, et al.,
)
)
Plaintiffs-Appellees,
)
)
HOMER S. TAFT, et al.,
)
)
Intervening Plaintiffs)
Appellees,
)
)
- vs )
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Defendants-Appellees,
)
)
NATIONAL WILDLIFE FEDERATION, )
et al.,
)
)
Intervening Defendants)
Appellees,
)
)

App. 3
GEORGE SORTINO,

)
)
Appellant.
)
_______________________________________)
OPINION
Civil Appeal from the Lake County Court of Common
Pleas, Case No. 04 CV 001080.
Judgment: Affirmed.
James F. Lang, Fritz E. Berckmueller, and Lindsey E.
Sacher, Calfee, Halter & Griswold, L.L.P., The Calfee
Building, 1405 East Sixth Street, Cleveland, OH 44114
(For Plaintiffs-Appellees).
Homer S. Taft, 20220 Center Ridge Road, Suite 300,
P.O. Box 16216, Rocky River, OH 44116 (Intervening
Plaintiff-Appellee).
L. Scot Duncan, 1530 Willow Drive, Sandusky, OH
44870 (Intervening Plaintiff-Appellee and for
Intervening Plaintiff-Appellee Darla Duncan).
Dave Yost, Ohio Attorney General, State Office Tower,
30 East Broad Street, 16th Floor, Columbus, OH
43215; Anne Marie Sferra and Daniel C. Gibson,
Bricker & Eckler, LLP, 100 South Third Street,
Columbus, OH 43215 (For Defendants-Appellees).
Neil S. Kagan, 213 West Liberty Street, Suite 200, Ann
Arbor, Ml 48104; Peter A. Precario, 2 Miranova Place,
Suite 500, Columbus, OH 43215 (For Intervening
Defendants-Appellees).

App. 4
Dennis E. Murray, Sr., Margaret M. Murray and
Donna J. Evans, Murray & Murray Co., LPA, 111 East
Shoreline Drive, Sandusky, OH 44870 (For Appellant).
TIMOTHY P. CANNON, P.J.
{¶1} Appellant, George Sortino (“Sortino”), appeals
from the judgment entry entered in the Lake County
Court of Common Pleas granting appellees’ motion to
enforce a settlement agreement and for civil contempt.
Sortino’s argument is that the settlement agreement
entered into during a class action proceeding, which
was not appealed, is defective. Therefore, he argues
that he is not bound as a class member by the
agreement’s prohibition on bringing future actions
against appellees related to the class action and that he
is free to proceed with a separate class action suit filed
in Erie County. We affirm the judgment.
{¶2} The facts and circumstances leading to the
present appeal began with the filing of a class action
suit in 2004 by a class of plaintiffs comprised of all
littoral property owners along Lake Erie’s Ohio coast
(the “Merrill Class”). Sortino was, at all relevant times,
a littoral property owner along Lake Erie’s Ohio coast;
however, the parties dispute whether Sortino was
aware of the class action suit prior to settlement. The
suit sought mandamus and declaratory relief, as well
as the return of funds collected for submerged land
lease payments. For a complete factual history of the
case, see State ex rel. Merrill v. Ohio Dept. of Natural
Resources, 130 Ohio St.3d 30, 2011-Ohio-4612.
{¶3} After remand from the Ohio Supreme Court,
the trial court issued an order to brief class issues and

App. 5
ultimately issued an order extending class certification
under Civ.R. 23(B)(2). That decision was affirmed by
this court in State ex rel. Merrill v. Ohio Dept. of
Natural Resources, 11th Dist. Lake No. 2012-L-113,
2014-Ohio-1343, appeal not accepted, 140 Ohio St.3d
1416, 2014-Ohio-3785.
{¶4} A motion for preliminary approval of the class
action settlement, approval of notice to class members,
and scheduling of settlement hearing–along with
stipulations–was filed on May 27, 2016. Individual
notice was given to the 683 class members entitled to
refunds. The remaining class members did not receive
individual notification, but notice was published in
local newspapers in each of the affected counties with
instructions on how to file claims–as approved by the
trial court. A website was also established to submit
claims and receive information on the settlement. At
the status hearing conducted on June 14, 2016, the
trial court concluded that it had subject matter
jurisdiction over the matter and scheduled a settlement
hearing.
{¶5} On September 1, 2016, the trial court issued
a journal entry reflecting that nearly 100 identical
letters had been received objecting to the preliminary
approval of the class action settlement. Thereafter,
counsel for the putative class filed a motion for final
approval of the class action settlement, and the trial
court held a settlement approval hearing on October
21, 2016.
{¶6} The order and final judgment approving the
settlement in the class action was filed on October 24,
2016, and a notice of final appealable order was issued

App. 6
on October 26, 2016. The notice was sent by regular
mail to all represented parties, including counsel for
the Merrill Class. The settlement provided for
compensatory damages and attorney’s fees, but it did
not specifically grant any equitable relief. The
agreement also stated that the Lake County Court of
Common Pleas retained exclusive jurisdiction over the
matter. The order and final judgment were not
appealed.
{¶7} On January 31, 2018, Sortino brought suit
against appellees in the Erie County Court of Common
Pleas (the “Erie Action”) seeking to separately litigate
the claims that were settled in the previous class action
in Lake County in 2016. He brought the claim on behalf
of “Sortino and the putative members of the Merrill
class who did not receive individualized notice of the
settlement, as required under Civ.R. 23(B)(3).” On May
29, 2018, appellees filed a motion to enforce the
settlement and for civil contempt in Lake County. The
Erie Action was eventually stayed on September 19,
2018, pending the resolution of appellees’ Lake County
motion to enforce and for contempt.
{¶8} A hearing on the motion was held on August
17, 2018, and the trial court granted appellees’ motion
to enforce the settlement and for civil contempt on
November 7, 2019, which was stayed pending the
present appeal. The trial court considered the merits of
Sortino’s challenges to the class action and held, in
pertinent part, as follows:
Initially [Sortino] argues that Merrill could only
be properly filed in the Court of Claims, because
it has exclusive jurisdiction over claims seeking

App. 7
money damages against the state of Ohio. * * *
Because this court lacked subject matter
jurisdiction to hear the case, its judgment in the
matter is void. While acknowledging that
judgments rendered by courts lacking either
subject matter or personal jurisdiction are void,
the court does not believe this is a serious
argument. The Merrill parties were not seeking
an award of damages. Instead, they were
seeking injunctive and declaratory relief,
remedies which are clearly within this court’s
power to grant.
***
Second, Sortino claims that because money was
awarded, Class Two had to be certified under
Civ. R. 23(B)(3) instead of (B)(2). * * * The court
believes this assertion is simply not true. The
court acknowledges that the Supreme Court has
held that “individualized monetary claims
belong in Rule 23(b)(3).” * * * And it is also true
that “[i]n the context of a class action
predominantly for money damages we have held
that absence of notice and opt out [rights]
violates due process;” * * * But it has not laid
down a blanket rule that money can never be
awarded to a Civ.R. 23(B)(2) class. * * * To the
contrary, “holding that no monetary relief could
be recovered in a (B)(2) class flies in the face of
long established circuit-court precedent.” * * *
The heart of Sortino’s argument, however, seems
to be that the settlement dramatically changed
the claims asserted by, and the relief provided

App. 8
to, class members. He argues that if the case
had not settled, “the Merrill court would have
been required to issue a declaration on the
question of an unconstitutional taking, and
ODNR would have been compelled to seek out
each property owner to settle or to commence
appropriation proceedings * * * .” * * * Instead of
approving the settlement under Civ.R. 23(B)(2),
the court should have held a hearing to carefully
consider whether it should be recertified under
Civ.R. 23(B)(3). If it had been so recertified, he
claims that individual notification of the
settlement and the right to opt out would have
been mandatory. * * * The court finds that this
argument has some appeal on its face, but
ultimately fails. Initially, the court notes that
classes certified under Civ.R. 23(B)(2) are
mandatory. Members are not afforded a right to
opt out, nor even necessarily afforded notice of
the action. * * * A (B)(3) class, on the other
hand, is not mandatory, and “class members are
entitled to receive ‘the best notice that is
practicable under the circumstances’ and to
withdraw from the class at their option.” * * *
To begin, the court finds that Sortino’s entire
argument is based on the false assumption that
if the Merrill parties had not settled, this court
would have found in favor of the plaintiffs on
Count Two and issued a mandamus requiring
the state to either agree to individual
settlements with class members or to initiate
land appropriation proceedings with them.
While that may have happened, it is far from a

App. 9
certainty. And if it had not, none of the class
members would have received any compensation
for their taking claim. In fact, that uncertainty
was a major factor driving the parties’ decision
to settle the case.
As to recertifying the class, the court notes that
it addressed and approved both how class
members would be notified of the settlement and
the fact that they would not have opt-out rights
at the hearing it conducted on June 14, 2016.
Therefore, contrary to Sortino’s claim, it
considered and specifically found that
certification under Civ.R. 23(B)(2) was
appropriate, despite the fact that the settlement
included a proposed monetary payment on the
Count Two claims.
Furthermore, assuming arguendo that the court
had decided to recertify this under Civ.R.
23(B)(3), Sortino’s assertion that individualized
notice would have been required is wrong.
Instead, he would have been entitled to receive
only “the best notice that is practicable under
the circumstances.” * * * Given the fact that the
Count Two class was variously estimated to
include somewhere between 12,000 to 15,500
members, the expense of individualized notice
could have easily fully exhausted any funds
remaining after the Count One class members
were reimbursed. Under those circumstances,
individualized notice would not have been
practicable, and it is highly unlikely this court
would have ordered it.

App. 10
Most importantly, however, Sortino argues that
certification was improper under Civ.R. 23(B)(2)
because the settlement provided Count Two
class members with no injunctive relief. Instead,
monetary relief not only predominated the
settlement, it was the sole relief granted by the
court. And that relief was individualized
depending on a set of factors unique to each
class member. As a result, certification under
Civ.R. 23(B)(3) was mandatory.
The court again disagrees. As just noted,
certification under Civ.R. (B)(2) is only
impermissible when money damages are
exclusively or predominantly the final relief
sought by the plaintiffs. * * * “[M]oney damages
predominate when they are not incidental to
declaratory and injunctive relief, i.e., when the
damages do not ‘flow directly from liability to
the class as a whole on the claims forming the
basis of the injunctive or declaratory relief.’”
***
Further, it was not improper to maintain the
class under Civ.R. 23(B)(2) even though class
members received separate amounts of
compensation, because that compensation was
not based on circumstances unique to each class
member. Instead, it was capable of computation
by objective standards, was not dependent on
intangible, subjective differences of each class
member’s circumstances, did not require
additional hearings on the merits, neither
introduced new or substantial legal or factual

App. 11
issues, nor entailed complex individualized
determinations. * * * As a result, class
certification was appropriate under Civ.R.
23(B)(2), and Sortino’s arguments are, again,
without merit. * * *
As a class member, he is deemed to have “fully,
finally, and forever released, waived, discharged,
and dismissed each and every” one of the claims
he now brings in his Erie County lawsuit.
Therefore, he is forever enjoined from
prosecuting those claims, pursuant to this
court’s final order. And this court has the
authority to enforce that order against him.
{¶9} Sortino filed a timely notice of appeal and
raises four assignments of error for review. Appellees
have raised one cross-assignment of error for review.
We begin with the cross-assignment of error, which
states:
The trial court erred in even considering the
merits of Sortino’s impermissible collateral
attack on the Final Judgment approving the
Settlement.
{¶10} Appellees’ cross-assignment of error
challenges the trial court’s consideration of the merits
of Sortino’s arguments for not being bound by the
Merrill Class settlement agreement. Appellees claim
that Sortino’s Erie Action is an impermissible collateral
attack on the settlement in Merrill. Appellees argue
that, as a class member in that case, Sortino is
precluded by the doctrines of res judicata and waiver
from challenging the settlement.

App. 12
{¶11} When challenged on direct appeal, “’[t]he
determination of whether a settlement is fair, adequate
and reasonable is committed to the sound discretion of
the trial court and will not be disturbed on appeal in
the absence of some demonstration that the trial court
abused its discretion.”’ West v. Carfax, Inc., 11th Dist.
Trumbull No. 2008-T-0045, 2009-Ohio-6857, ¶11,
quoting In re Kroger Co. Shareholders Litigation, 70
Ohio App.3d 52, 68 (1st Dist.1990). However, when the
challenge is collateral rather than direct, “the
appropriate collateral review involves an examination
of procedural due process and nothing more. As long as
procedural safeguards are established by the law and
employed, absent class members’ objections to the
determinations of the certifying court may be properly
remedied on appeal within the forum state’s judicial
system and to the United States Supreme Court.” Fine
v. Am. Online, Inc., 139 Ohio App.3d 133, 140 (9th
Dist.2000) (emphasis sic), citing Epstein v. MCA, Inc.,
179 F.3d 641, 648 (9th Cir.1999).
{¶12} Civ.R. 23 establishes the procedures and
requirements for certifying, litigating, and settling
class actions in Ohio. As reflected in the record, the
judgment entry subject to appeal, and the procedural
history, the trial court in Merrill complied with the
requirements contained in Civ.R. 23. The trial court
ordered briefings and conducted hearings to determine
the proper class certification, jurisdiction, and fairness
of the settlement. The classification issue was also
appealed and affirmed by this court. To the extent
Sortino disagrees with the conclusions of the court in
Merrill, his remedy would have been to appeal those
rulings directly.

App. 13
{¶13} The trial court’s judgment entry addressing
the merits of Sortino’s attacks on the Merrill class
action proceedings provided a thorough analysis of the
process; however, it also addressed the merits of the
arguments made by Sortino as discussed below. To the
extent the trial court’s entry addressed matters outside
of an examination of procedural due process, appellees’
cross-assignment of error has merit.
{¶14} Sortino’s first assignment of error states:
[1.] The trial court committed prejudicial error
in determining that the court had subject matter
jurisdiction, as opposed to the Court of Claims,
in order to approve a settlement in which the
State of Ohio paid monetary funds to a large
number of Class Members to settle the claim
asserting an unconstitutional taking of their
property, based merely upon the fact that the
parties were not seeking damages in their
Amended Complaint.
{¶15} “‘A determination as to whether the trial
court has subject-matter jurisdiction * * * is a question
of law reviewed de novo.”’ In re Smith, 11th Dist.
Portage No. 2014-P-0056, 2015-Ohio-5522, ¶13, quoting
JP Morgan Chase Banks v. Ritchey, 11th Dist. Lake
No. 2014-L-089, 2015-Ohio-1606, ¶16. “Because
subject-matter jurisdiction goes to the power of the
court to adjudicate the merits of a case, it can never be
waived and may be challenged at any time.” Pratts v.
Hurley, 102 Ohio St.3d 81, 2004-Ohio-1980, ¶11
(citations omitted). “If a court possesses subject-matter
jurisdiction, any error in the invocation or exercise of
jurisdiction over a particular case causes a judgment to

App. 14
be voidable rather than void.” Bank of Am., N.A. v.
Kuchta, 141 Ohio St.3d 75, 2014-Ohio-4275, ¶19, citing
Pratts, supra, at ¶12.
{¶16} A void judgment is considered a legal nullity
that can be collaterally attacked. Larney v. Vlahos,
11th Dist. Trumbull No. 2015-T-0103, 2016-Ohio-1371,
¶6, citing Clark v. Wilson, 11th Dist. Trumbull No.
2000-T-0063, 2000 WL 1050524, *2 (July 28, 2000). In
contrast, a voidable judgment must be challenged
through a “direct attack on the merits.” Id.
{¶17} The court of claims has exclusive jurisdiction
over civil actions against the state for money damages
that sound in law. R.C. 2743.02 and 2743.03. This
relationship was discussed in GLA Water Mgt. Co. v.
Univ. of Toledo, 196 Ohio App.3d 290, 2011-Ohio-5034
(6th Dist.):
Section 16, Article I of the Ohio Constitution
provides that “[s]uits may be brought against
the state, in such courts and in such manner, as
may be provided by law.” In the Court of Claims
Act, the General Assembly provided the
framework for bringing such suits. R.C.
2743.02(A)(1) provides:
“The state hereby waives its immunity from
liability * * * and consents to be sued, and
have its liability determined, in the court of
claims created in this chapter in accordance
with the same rules of law applicable to suits
between private parties * * *”
R.C. 2743.03(A) creates the court of claims and
defines its jurisdiction, stating:

App. 15
“(1) * * * The court of claims is a court of
record and has exclusive, original jurisdiction
of all civil actions against the state permitted
by the waiver of immunity contained in
section 2743.02 of the Revised Code***.
“(2) If the claimant in a civil action as
described in division (A)(1) of this section
also files a claim for a declaratory judgment,
injunctive relief, or other equitable relief
against the state that arises out of the same
circumstances that gave rise to the civil
action described in division (A)(1) of this
section, the court of claims has exclusive,
original jurisdiction to hear and determine
that claim in that civil action.”
Id. at ¶19-23.
{¶18} R.C. 2743.03(A)(2) proceeds to state: “This
division does not affect, and shall not be construed as
affecting, the original jurisdiction of another court of
this state to hear and determine a civil action in which
the sole relief that the claimant seeks against the state
is a declaratory judgment, injunctive relief, or other
equitable relief.” (Emphasis added). “‘A suit that seeks
the return of specific funds wrongfully collected or held
by the state is brought in equity.”’ Borchers v. Grand
Lake St. Marys State Park, Ct. of Cl. No.
2005-05485-AD, 2005Ohio-6115, ¶10, quoting Santos v.
Ohio Bur. of Workers’ Comp., 101 Ohio St.3d 74,
2004-Ohio-28, syllabus. (Emphasis added.)
{¶19} In the matter sub judice, Sortino initially
argues that because the settlement in Merrill contained

App. 16
an award of damages for an unconstitutional taking of
property and attorney fees, it was no longer within the
jurisdiction of the common pleas court and was
required to be removed to the court of claims. Appellees
dispute that the payments made in accordance with the
settlement were damages and also dispute that any
admission of a taking was part of the settlement. The
settlement agreement supports appellees’
interpretation.
{¶20} R.C. 2743.03(A)(2) specifically reserves
original jurisdiction to the common pleas court for civil
suits seeking equitable relief. The statute, as well as all
relevant case law submitted by the parties, references
the remedies sought rather than the ultimate
disposition. Sortino states in his brief, “There is no
question that the Lake County Court of Common Pleas
had jurisdiction over [the] claims. The Merrill Plaintiffs
sought (1) a declaratory judgment; (2) an order
instructing ODNR to institute appropriation
proceedings; and (3) the return of submerged land lease
payments that were illegally collected by ODNR.” The
fact that the parties agreed to enter into a settlement
rather than litigate the claims does not change the fact
that the suit was brought seeking equitable relief, and
Sortino points to no case law establishing that a court
is divested of subject-matter jurisdiction after seeking
the equitable remedies allowing the common pleas
court to exercise jurisdiction.
{¶21} Sortino’s first assignment of error is without
merit.
{¶22} Sortino’s second and third assignments of
error state:

App. 17
[2.] The trial court committed prejudicial error
when it approved the settlement of the parties
which provided relief to the class members in
the form of monetary damages, but did not
provide those class members with any individual
notice nor any right to opt out, as required under
Civ.R. 23(B)(3) and the overarching protection of
jurisdictional due process.
[3.] The trial court committed prejudicial error
when it held that class member, Sortino, and all
other of his similarly situated class members,
who did not receive notice and were not afforded
the right to opt out of the settlement, were
bound by the terms of the settlement and that
they were forever barred from any rights to
individually pursue any claim against the State
of Ohio for the claims that were settled in favor
of the State of Ohio in this action.
{¶23} Sortino’s second and third assignments of
error challenge the certification of the class under
Civ.R. 23(B)(2), the subsequent notification
requirements, and the binding nature of the settlement
without an opt-out option. He argues that the class
should have been recertified under Civ.R. 23(B)(3),
which requires additional notice and opt-out
alternatives, once a monetary award was included in
the settlement. While Sortino argues that the Civ.R.
23(B)(2) certification and binding nature of the
settlement violate his right to substantive due process,
these challenges relate to the procedures and
determinations made by the trial court in the Merrill
class action settlement, which was not appealed.

App. 18
Therefore, as discussed above, a review of Sortino’s
second and third assignments of error are reviewable
in the present appeal only to the extent of insuring
procedural due process.
{¶24} “Certification under Civ.R. 23(B)(2) depends
upon what type of relief is primarily sought, so where
the injunctive relief is merely incidental to the primary
claim for money damages, Civ.R. 23(B)(2) certification
is inappropriate.” Wilson v. Brush Wellman, Inc., 103
Ohio St.3d 538, 2004-Ohio-5847, ¶17 (emphasis added).
Again, “[a] suit that seeks the return of specific funds
wrongfully collected or held by the state is brought in
equity.” Borchers, supra, at ¶10, citing Santos, supra,
at the syllabus (emphasis added).
{¶25} This court, in Asset Acceptance LLC v.
Caszatt, 11th Dist. Lake No. 2009-L-090,
2010-Ohio-1449, discussed the Ohio Supreme Court’s
approach where the relief sought is disputed:
As the Supreme Court of Ohio stated, “[d]isputes
over whether the action is primarily for
injunctive or declaratory relief rather than a
monetary award neither promote the disposition
of the case on the merits nor represent a useful
expenditure of energy. Therefore, they should be
avoided. If the Rule 23(a) prerequisites have
been met and injunctive or declaratory relief has
been requested, the action usually should be
allowed to proceed under subdivision (b)(2). * * *
The court has the power under subdivision
(c)(4)(A), which permits an action to be brought
under Rule 23 ‘with respect to particular issues,’
to confine the class action aspects of a case to

App. 19
those issues pertaining to the injunction and to
allow damage issues to be tried separately.”
Id. at ¶71, quoting Hamilton v. Ohio Sav. Bank, 82
Ohio St.3d 67, 87 (1998) (quotation omitted).
{¶26} Hamilton is analogous to the matter sub
judice. There, mortgagors brought a class action
against the mortgagee bank, challenging the bank’s
method for calculating interest on mortgage loans.
After the court of common pleas denied certification,
the Eighth District Court of Appeals affirmed as to
subclasses with retired mortgage loans and reversed as
to subclasses with outstanding mortgage loans. The
Ohio Supreme Court held that class certification under
Civ.R. 23(B)(2) should have been granted with respect
to all subclasses, stating:
[W]e disagree that subclasses two and four seek
primarily money damages. Their primary object
is to terminate Ohio Savings’ alleged practice of
overcharging interest and/or misamortizing its
loans. Without such relief, they would achieve
only the recoupment of overpaid interest to date.
The fact that money damages are also sought in
addition to injunctive relief does not defeat
certification under Civ.R. 23(B)(2).
Hamilton, supra, at 86-87, citing 5 Moore, Federal
Practice, Section 23.43[3][a], at 23-196 to 23-197 (3d
Ed.1997).
{¶27} Sortino admits the initial determination to
certify the class under Civ.R. 23(B)(2) was correct. He
provides no case law or justification supporting the
principal that a trial court must reconsider its

App. 20
certification for a second time based on the terms of a
settlement. Here, the trial court ordered the parties to
submit briefs on the issue of class certification. It
considered the certification issue and concluded–based
oh the relief sought by the Merrill Class in their
complaint–that certification under Civ.R. 23(B)(2) was
appropriate. We find no error or defect in the procedure
used by the trial court in reaching that conclusion.
Therefore, the alternative means of providing notice
and requirement to allow class members to opt-out is
inapplicable to the present matter, and the Civ.R.
23(B)(2) certification was procedurally sufficient.
Because the certification under Civ.R. 23(B)(2) was
sufficient, Sortino is bound by the terms of the
settlement and prohibited from bringing future actions
against appellees based on the settled claims.
{¶28} Sortino’s second and third assignments of
error are without merit.
{¶29} Sortino’s fourth assignment of error states:
[4.} The trial court committed prejudicial error
when it found Sortino in contempt of court for
prosecuting the claims that he asserted in the
case filed in Erie County Court of Common
Pleas, because Sortino had not released those
claims due to the defective notice provisions in
the Merrill settlement.
{¶30} Sortino’s fourth assignment of error
challenges the trial court’s finding that, as a result of
him being included in the Merrill class, he was bound
by the terms of the settlement agreement and therefore
in contempt for filing the Erie Action.

App. 21
{¶31} Once again, the class certification and
determination of class members in the Merrill case was
not appealed. Further, Sortino admits that he was a
member of the class in Merrill. His only challenge is to
the determination of class designation under Civ.R. 23
for purposes of the appropriate notice requirements,
which are not reviewable outside of direct appeal. As
discussed above, the trial court correctly determined
that Sortino was a member of the Civ.R. 23(B)(2)
certified Merrill class. Therefore, he was bound by the
prohibition against bringing future actions, and he was
in contempt of the settlement agreement by filing the
Erie Action.
{¶32} Sortino’s fourth assignment of error is
without merit.
{¶33} The judgment of the Lake County Court of
Common Pleas is affirmed.
THOMAS R. WRIGHT, J.,
MATI LYNCH, J.,
concur.

App. 22

APPENDIX C
IN THE COURT OF APPEALS
ELEVENTH DISTRICT
STATE OF OHIO

)
)SS.
COUNTY OF LAKE )
CASE NO. 2019-L-164
[Filed: December 21, 2020]
_______________________________________
STATE ex rel. ROBERT MERRILL,
)
TRUSTEE, et al.,
)
)
Plaintiffs-Appellees,
)
)
HOMER S. TAFT, et al.,
)
)
Intervening Plaintiffs)
Appellees,
)
)
- vs )
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Defendants-Appellees,
)
)

App. 23
NATIONAL WILDLIFE FEDERATION, )
et al.,
)
)
Intervening Defendants)
Appellees,
)
)
GEORGE SORTINO,
)
)
Appellant.
)
_______________________________________)
JUDGMENT ENTRY
For the reasons stated in the opinion of this court,
appellant’s assignments of error are without merit. It
is the judgment and order of this court that the
judgment of the Lake County Court of Common Pleas
is affirmed.
Costs to be taxed against appellant.
/s/ Judge Cannon
PRESIDING JUDGE TIMOTHY P. CANNON
THOMAS R. WRIGHT, J.,
MATT LYNCH, J.,
concur.

App. 24

APPENDIX D
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
CASE NO. 04CV001080
[Filed November 7, 2019]
____________________________________
STATE OF OHIO EX REL.,
)
MERRILL, TRUSTEE, et al.
)
)
Plaintiffs
)
)
vs.
)
)
OHIO STATE DEPARTMENT OF )
NATURAL RESOURCES, et al.
)
)
Defendants
)
____________________________________)
JUDGE EUGENE A. LUCCI
ORDER GRANTING MOTION
TO ENFORCE SETTLEMENT
AGREEMENT AND FOR
CIVIL CONTEMPT
{¶1} The court has considered the defendant’s motion
to enforce settlement and for civil contempt, filed May
29, 2018, George Sortino’s response to motion to
enforce settlement, filed June 11, 2018, the defendants’
reply memorandum in support of its motion to enforce

App. 25
settlement and for civil contempt, filed June 29, 2018,
Plaintiff George Sortino’s sur-reply to ODNR’s motion
to enforce settlement and for civil contempt, filed July
26, 2018, and the oral arguments of the parties at the
motion hearing conducted on-the-record on August 17,
2018. For the following reasons, the court finds that the
defendants’ motion to enforce the settlement and for
civil contempt is well-taken and ought to be granted.
{¶2} This matter first came before the court in May,
2004 as a putative class action. An amended complaint
seeking declaratory judgment, mandamus, and other
relief on behalf of an estimated 15,500 littoral owners
of real property abutting Lake Erie’s southern
shoreline within Lucas, Ottawa, Sandusky, Erie,
Lorain, Cuyahoga, Lake, and Ashtabula counties was
filed on July 2, 2004. It alleged that the State of Ohio,
through the Ohio Department of Natural Resources
(ODNR), had asserted trust ownership rights to the
area of land along the shoreline up to the ordinary high
water mark as determined by the U.S. Army Corps of
Engineers in 1985. In fact, ODNR compelled some
property owners to enter into submerged land leases
based on that claim. The plaintiffs disputed ODNR’s
authority to assert such rights without first acquiring
the land in question through land appropriation
proceedings.
{¶3} The complaint contained three counts. Count
One requested a declaratory judgment defining the
boundary of the southern shore of Lake Erie in Ohio.
Counts Two and Three dealt with constitutional

App. 26
takings issues, and were held in abeyance pending the
outcome of Count One.1
{¶4} On June 9, 2006, following a joint stipulation by
the parties, the court entered an order certifying a class
action pursuant to Civ.R. 23(B)(2) upon several issues
of law common to Count One. The class was defined as
consisting of “all persons, as defined in R.C.
1506.01(D), excepting the State of Ohio and any state
agency as defined in R.C. 1.60, who are owners of
littoral property bordering Lake Erie (including
Sandusky Bay and other estuaries previously
determined to be a part of Lake Erie under Ohio law)
within the territorial boundaries of the State of Ohio.”2
Class members were informed of the pending complaint
primarily by publication of notices in local newspapers.
Following extensive briefing, this court determined
that the boundary of the lake was not the ordinary high
water mark, as asserted by the state. Instead, “the law
of Ohio is that the proper definition of the boundary
line for the public trust territory of Lake Erie is the
water’s edge, wherever that moveable boundary may be
at any given time ***.”3

1

See Merrill v. Ohio, 11th Dist. No. 2008-L-008, 2009-Ohio- 4256,
¶ 9.
2

Case No. 04CV001080, State of Ohio ex rel., Merrill Trustee v.
Ohio State Department of Natural Resources, Order Certifying
Class Action on Count One of the First Amended Complaint, filed
June 9, 2006, p. 2.
3

Id., Order Granting Plaintiffs’ and Intervening Plaintiffs’ Motion
for Partial Summary Judgment in Part, filed December 11, 2007,
¶ 243.

App. 27
{¶5} This decision was appealed, and the issue was
litigated up to the Ohio Supreme Court. That court
held that the landward boundary of Lake Erie “extends
to the natural shoreline, the line at which the water
usually stands when free from disturbing causes,” and
the matter was remanded back to this court for further
proceedings on the remaining claims.4 Neither the
Eleventh District Court of Appeals nor the Supreme
Court took issue with this court’s definition of the class,
or the appropriateness of the class’s certification under
Civ.R. 23(B)(2).
{¶6} Following further extensive briefing by the
parties, this court filed a judgment clarifying the
Supreme Court’s definition of the lake’s natural
shoreline by determining the meaning of “when free
from disturbing causes,” and granting additional relief
on Count One of the amended complaint. Specifically,
the court ordered ODNR to return all submerged land
lease fees it collected between 1998 and the date of the
court’s order.5 The court further noted that Count Two
of the amended complaint was a mandamus action for
a purported unconstitutional taking of private
property. It found that the question could be
adjudicated on a class-wide basis with the same

4

The State ex rel. Merrill, Trustee v. Ohio Dept. of Natural
Resources, 130 Ohio St.3d 30, 2011-Ohio-4612, ¶ 65.
5

Case No. 04CV001080, State of Ohio ex rel., Merrill, Trustee v.
Ohio State Department of Natural Resources, Order:
(1) Establishing the Natural Shoreline; (2) Granting Additional
Relief on Count I; (3) Extending Class Certification to Count II;
and, (4) Declaring Prevailing Party, filed August 27, 2012, ¶ 112.

App. 28
members as those named in Count One.6 And, because
a writ of mandamus is in the nature of an injunction,
albeit mandatory rather than prohibitory, the count fit
within the scope of Civ.R. 23(B)(2). Therefore, the class
certification entered by the court in 2006 was amended
to include Count Two, and notification was ordered to
proceed in the same manner as occurred for purposes
of Count One.7
{¶7} This order was appealed. The Eleventh District
Court of Appeals determined that the appeal was
limited to issues related to class certification, and
upheld this court’s certification of the class under
Civ.R. 23(B)(2).8 The Ohio Supreme Court declined to
accept jurisdiction of the matter.
{¶8} The parties again engaged in significant motion
practice regarding the issues raised in Count Two.
However, on May 27, 2016, they filed a motion for
preliminary approval and a stipulation of settlement.
The state defendants, while expressly denying any

6

Id., ¶ 114.

7

Id., ¶ 114-118. The court also declared that the plaintiffs were the
prevailing parties in the case as to Count One. A hearing on
attorney fees was deferred until the remaining issues were ruled
on. ¶ 22-123.
8

State ex rel. Merrill v. Ohio Dept. of Natural Resources, 11th Dist.
No. 2012-L-113, 2014-Ohio-1343, ¶ 5 and ¶ 20. Civ.R. 23(B)(2)
states that “A class action may be maintained if Civ.R. 23(A) is
satisfied, and if: the party opposing the class has acted or refused
to act on grounds that apply generally to the class, so that final
injunctive relief or corresponding declaratory relief is appropriate
respecting the class as a whole.”

App. 29
allegations of wrongdoing,9 agreed to pay $6,100,000 to
a third-party claims administrator.10 Approximately
$1,720,000 of that amount was to be allocated to a
refund of submerged land lease fees from Count One,
with an additional $600,000 to be applied to the
plaintiffs’ attorney fees from that count.11 834 land
owners fell into this category, although only 683 were
entitled to refunds.12 They would receive individual
notice of the settlement agreement.13 The balance of the
funds, less attorney fees, were to be distributed
according to a plan of allocation “for payment of
compensation with respect to Count II.”14 Those funds
were to be distributed to authorized claimants who
submitted acceptable proofs of claim.15 Property owners
in this category would not receive individual
notification of the settlement. Instead, the parties
agreed to again publish details of the settlement in
local newspapers, along with instructions on how to file

9

Case No. 04CV001080, State of Ohio ex rel., Merrill, Trustee v.
Ohio State Department of Natural Resources, Stipulation of
Settlement, filed May 27, 2016, p. 3 and p. 15.
10

Id., p. 8

11

Id.

12

Id., Exhibit C, Plan of Allocation, p. 2.

13

Id., Brief in Support of Motion for Preliminary Approval of Class
Action Settlement, filed May 27, 2016, p. 6.
14

Id., Stipulation of Settlement, Exhibit C, Plan of Allocation, p. 1.

15

Id., p. 4.

App. 30
a claim.16 Anyone who failed to submit proofs of claim
would nevertheless be bound by the settlement and
final judgment.17 The class would remain certified
under Civ.R. 23(B)(2).18 As a result, although members
could file objections, none was given a right to opt out
of the settlement and release of claims.19 The amount
of compensation each authorized claimant would
receive varied based on several factors, including the
amount of frontage of the claimant’s property along the
lake, whether the claimant’s deed was altered to
describe the lake’s boundary as the OHWM, and
whether the claimant’s property abutted public land.20
All class members would be deemed to have fully,
finally, and forever released their claims against the
defendants, and be forever enjoined from prosecuting
any of those claims again.21
{¶9} On June 14, 2016, the court conducted a hearing
on the motion for preliminary approval. Plaintiffs’ class
counsel spoke about the extensive efforts made to settle
the case. He further stated that the plaintiffs felt the
agreement was fair, reasonable, and adequate,
16

Id., Brief in Support of Motion for Preliminary Approval of Class
Action Settlement, p. 6.
17

Id., Stipulation of Settlement, Exhibit C, Plan of Allocation, p. 4.

18

Id., Stipulation of Settlement, p. 8.

19

Id.

20

Id., Stipulation of Settlement, Exhibit C, Plan of Allocation, p.
3-4.
21

Id., p. 9.

App. 31
especially given the likely length, complexity and
expense of any further litigation. The court reviewed
numerous details of the settlement with the parties,
including attorney and class administration fees, the
number of class members affected by Count One and
Count Two,22 how those members would be notified
about the settlement, the fact that class members could
not opt out of the settlement because the class was
certified under Civ.R. 23(B)(2), the likelihood of
objections to the settlement from dissatisfied class
members, and what would happen to any unclaimed
funds. Counsel for ODNR agreed that the settlement
was fair and reasonable to the citizens of Ohio. Based
on this discussion, the court granted preliminary
approval to the settlement.
{¶10} At the final settlement/fairness hearing held on
October 21, 2016, the parties told the court that notice
of the settlement was mailed to all lease holders and
published in newspapers located in each of the affected
counties on or about July 14, 2016. The parties also set
up a website for class members and took other
measures to spread word of the settlement to as many
class members as possible. Approximately 1500 claims
were filed with the class administrator on Count Two.
Only about 100 objections were received. On that basis,
the court approved the settlement and entered an order
and final judgment finding: 1) that notice of the
settlement was the best practicable under the
circumstances, and was due and sufficient to all class
members; 2) that class members were accorded a right
22

It was estimated that approximately 12,000 class members were
affected by Count Two.

App. 32
to object to the settlement, and were now bound by its
terms; 3) that class members were deemed to have
fully, finally, and forever released, waived, discharged,
and dismissed each of their claims against the
defendants, and were forever enjoined from prosecuting
those claims again; and, 4) the court retained exclusive
jurisdiction to enforce the terms of the settlement. The
order was final and appealable. No appeal was taken.
{¶11} On January 31, 2018, George Sortino filed a
putative class action in the Erie County Court of
Common Pleas, alleging virtually the same causes of
action and seeking the same relief raised in the instant
case. In response, ODNR filed its motion to enforce
settlement and for civil contempt with this court. Erie
County stayed its proceedings pending a ruling on the
motion. It states that Sortino was a member of the
class established in Merrill, and he is enjoined by its
settlement from ever raising those claims again. In his
complaint, Sortino admits that he was a member of the
class established in Count Two of Merrill.23 And he
agrees that the class covered by that count was initially
properly certified under Civ.R. 23(B)(2).24 However, he
raises several arguments as to why he should now be
allowed to bring a new case based on the same claims
raised by the Merrill plaintiffs.

23

Erie County Case No. 2018 CV 0074, State of Ohio ex rel. George
Sortino v. State of Ohio Department of Natural Resources, copy
attached to Defendants’ Motion to Enforce Settlement and For
Civil Contempt, Frazzini Exhibit A, p. 8.
24

Id,. p. 7.

App. 33
{¶12} Initially he argues that Merrill could only be
properly filed in the Court of Claims, because it has
exclusive jurisdiction over claims seeking money
damages against the state of Ohio. See GLA Water Mgt.
Co. v. Univ. of Toledo, 196 Ohio App.3d 290, 2011Ohio-5034, 963 N.E.2d 207, ¶ 19-24. Because this court
lacked subject matter jurisdiction to hear the case, its
judgment in the matter is void.
{¶13} While acknowledging that judgments rendered
by courts lacking either subject matter or personal
jurisdiction are void, the court does not believe this is
a serious argument. The Merrill parties were not
seeking an award of damages. Instead, they were
seeking injunctive and declaratory relief, remedies
which are clearly within this court’s power to grant.
And Sortino points to no case law showing that the
state could not elect to settle those claims by
voluntarily entering into an agreement which included
compensation to the plaintiffs. Therefore, the court
finds this argument lacks merit.
{¶14} Second, Sortino claims that because money was
awarded, Class Two had to be certified under Civ.R.
23(B)(3) instead of (B)(2).25 See West v. Carfax, Inc.,

25

Civ.R. 23(B)(3) states that “A class action may be maintained if
Civ.R. 23(A) is satisfied, and if: the court finds that the questions
of law or fact common to class members predominate over any
questions affecting only individual members, and that a class
action is superior to other available methods for fairly and
efficiently adjudicating the controversy. The matters pertinent to
these findings include: (a) the class members’ interests in
individually controlling the prosecution or defense of separate
actions; (b) the extent and nature of any litigation concerning the

App. 34
11th Dist. No. 2008-T-0045, 2009-Ohio-6857. The court
believes this assertion is simply not true. The court
acknowledges that the Supreme Court has held that
“individualized monetary claims belong in Rule
23(b)(3).” Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
362, 131 S.Ct. 2541 (2011). And it is also true that “[i]n
the context of a class action predominantly for money
damages we have held that absence of notice and opt
out [rights] violates due process.” Id., 363. But it has
not laid down a blanket rule that money can never be
awarded to a Civ.R. 23(B)(2) class. Id. To the contrary,
“holding that no monetary relief could be recovered in
a (b)(2) class flies in the face of long established
circuit-court precedent.” Nelson v. Wal-Mart Stores,
Inc., 245 F.R.D. 358, 380 (E.D.Ark.2007), f.n. 126. And
in Ohio, the rule seems clear that “[a] demand for
monetary damages does not necessarily defeat
certification under Civ.R. 23(B)(2).” Gordon v. Erie
Island Resort & Marina, 6th Dist. No. OT-15-035,
2016-Ohio-7107, ¶ 54. Therefore, this claim also lacks
merit.
{¶15} The heart of Sortino’s argument, however, seems
to be that the settlement dramatically changed the
claims asserted by, and the relief provided to, class
members. He argues that if the case had not settled,
“the Merrill court would have been required to issue a
declaration on the question of an unconstitutional
taking, and ODNR would have been compelled to seek

controversy already begun by or against class members; (c) the
desirability or undesirability of concentrating the litigation of the
claims in the particular forum; and (d) the likely difficulties in
managing a class action.”

App. 35
out each property owner to settle or to commence
appropriation proceedings ***.”26 Under that scenario,
every member of the class would have received actual
notice of the resolution of the case. But once the case
settled, the plaintiffs entirely abandoned their
mandamus claim and resolved the case exclusively for
individualized monetary awards. And classes should
not be authorized under Civ.R. 23(B)(2) “when each
class member would be entitled to an individualized
award of monetary damages.” Cullen v. State Farm
Mut. Auto. Ins. Co., 137 Ohio St.3d 373,
2013-Ohio-4733, 999 N.E.2d 614,-¶ 21. Instead of
approving the settlement under Civ.R. 23(B)(2), the
court should have held a hearing to carefully consider
whether it should be recertified under Civ.R. 23(B)(3).
If it had been so recertified, he claims that individual
notification of the settlement and the right to opt out
would have been mandatory. Sortino never received
notice of the settlement, and this procedural deficiency
so violated his due process rights that this court lost
personal jurisdiction over him, making its final
judgment void as to him and other members of his
putative class.27 As a result, he is not bound by that
judgment, is not violating its terms, and cannot be
found in contempt of court for filing his action in Erie
County.

26

27

Erie County Case No. 2018 CV 0074, Frazzini Exhibit A, p. 7.

Id., p. 8. His putative class is defined as all private littoral
owners of parcels of real property abutting Lake Erie within the
State of Ohio who were not sent notice of the Merrill settlement
and who did not file a proof of claim with the settlement
administrator.

App. 36
{¶16} The court finds that this argument has some
appeal on its face, but ultimately fails. Initially, the
court notes that classes certified under Civ.R. 23(B)(2)
are mandatory. Members are not afforded a right to opt
out, nor even necessarily afforded notice of the action.
Wal-Mart Stores, Inc. v. Dukes, p. 362. A (B)(3) class,
on the other hand, is not mandatory, and “class
members are entitled to receive ‘the best notice that is
practicable under the circumstances’ and to withdraw
from the class at their option.” Id.
{¶17} To begin, the court finds that Sortino’s entire
argument is based on the false assumption that if the
Merrill parties had not settled, this court would have
found in favor of the plaintiffs on Count Two and
issued a mandamus requiring the state to either agree
to individual settlements with class members or to
initiate land appropriation proceedings with them.
While that may have happened, it is far from a
certainty. And if it had not, none of the class members
would have received any compensation for their taking
claim. In fact, that uncertainty was a major factor
driving the parties’ decision to settle the case.28
{¶18} As to recertifying the class, the court notes that
it addressed and approved both how class members
would be notified of the settlement and the fact that
they would not have opt-out rights at the hearing it
conducted on June 14, 2016. Therefore, contrary to
Sortino’s claim, it considered and specifically found

28

Case No. 04CV001080, State of Ohio ex rel., Merrill Trustee v.
Ohio State Department of Natural Resources, Brief in Support of
Motion for Preliminary Approval of Class Action Settlement, p. 8.

App. 37
that certification under Civ.R. 23(B)(2) was
appropriate, despite the fact that the settlement
included a proposed monetary payment on the Count
Two claims.
{¶19} Furthermore, assuming arguendo that the court
had decided to recertify this under Civ.R. 23(B)(3),
Sortino’s assertion that individualized notice would
have been required is wrong. Instead, he would have
been entitled to receive only “the best notice that is
practicable under the circumstances.” Id. Given the fact
that the Count Two class was variously estimated to
include somewhere between 12,000 to 15,500 members,
the expense of individualized notice could have easily
fully exhausted any funds remaining after the Count
One class members were reimbursed. Under those
circumstances, individualized notice would not have
been practicable, and it is highly unlikely this court
would have ordered it.29
{¶20} Most importantly, however, Sortino argues that
certification was improper under Civ.R. 23(B)(2)
because the settlement provided Count Two class

29

It is true that if Count Two had been recertified under (B)(3),
Sortino would have been granted a right to opt out of the
settlement. But that right would have been meaningless if he was
not notified of it. Furthermore, the issues he raises here have
nothing to do with being able to opt out. Rather, his entire case is
built around the purported abrogation of his due process right to
notification of the settlement.

App. 38
members with no injunctive relief.30 Instead, monetary
relief not only predominated the settlement, it was the
sole relief granted by the court.31 And that relief was
individualized depending on a set of factors unique to
each class member.32 As a result, certification under
Civ.R. 23(B)(3) was mandatory.
{¶21} The court again disagrees. As just noted,
certification under Civ.R. (B)(2) is only impermissible
when money damages are exclusively or predominantly
the final relief sought by the plaintiffs. Nelson v.
Wal-Mart Stores, p. 374. “[M]oney damages
predominate when they are not incidental to
declaratory and injunctive relief, i.e., when the
damages do not ‘flow directly from liability to the class
as a whole on the claims forming the basis of the
injunctive or declaratory relief.’” Id., citing Allison v.
Citgo Petroleum Corp., 151 F.3d 402 (5th Cir.1998).
(Emphasis sic.)
{¶22} Here, the main premise underlying this case,
from its initial filing in 2004 through its settlement
over 12 years later, was that the state’s assertion that
Lake Erie’s boundary lay at the OHWM constituted an
illegal taking of the plaintiffs’ property. Although
where the lake’s boundary lay was largely resolved by

30

Case No. 04CV001080, State of Ohio ex rel., Merrill, Trustee v.
Ohio State Department of Natural Resources, Plaintiff George
Sortino’s Sur-Reply to ODNR’s Motion to Enforce Settlement and
For Civil Contempt, filed July 26, 2018, p. 15.
31

Id., p. 11-12.

32

Id., p. 13.

App. 39
the Ohio Supreme Court, the remaining Count One
issues were still hotly contested by ODNR.33 And while
the plaintiffs believed that their Count Two takings
claim had merit, they realized that the state had
possibly viable defenses against it.34 And the court’s
defining the meaning of the phrase “when free from
disturbing causes” was of first impression in the state
of Ohio, and could have been the subject of intense
appellate practice. Therefore, settlement was vastly
preferable to a protracted and extremely expensive
legal battle on those unresolved issues.35
{¶23} It is true that this case did not conclude with a
formal final judgment ordering the state to commence
appropriation proceedings. But that is immaterial to
Sortino’s claims, because it is undeniable that the state
no longer asserts public trust ownership landward of
the natural shoreline. And it never will again.36
Therefore, if there was a taking, it ceased as a direct
result of the Merrill settlement. Class members
received relief equivalent to an injunction through that
settlement. And that relief directly benefits all of the
Merrill class members as a whole, including Sortino.
Nelson, p. 374. The money awarded as compensation to

33

Stipulation of Settlement, filed May 27, 2016, p. 2. The state still
contested this court’s rulings that it must return the submerged
land lease rental payments and that the plaintiffs were the
prevailing parties on Count One.
34

Id.

35

Id.

36

Id., p. 2-3..

App. 40
Count Two class members was incidental to that
outcome, despite Sortino’s claims otherwise.
{¶24} Further, it was not improper to maintain the
class under Civ.R. 23(B)(2) even though class members
received separate amounts of compensation, because
that compensation was not based on circumstances
unique to each class member. Instead, it was capable of
computation by objective standards, was not dependent
on intangible, subjective differences of each class
member’s circumstances, did not require additional
hearings on the merits, neither introduced new or
substantial legal or factual issues, nor entailed complex
individualized determinations. Id. As a result, class
certification was appropriate under Civ.R. 23(B)(2), and
Sortino’s arguments are, again, without merit.
{¶25} Finally, this court expressly retained authority
to enforce the October 24, 2016 settlement agreement.
Specifically, the court’s order and final judgment stated
that “[t]his Court retains exclusive jurisdiction, without
affecting in any way the finality of this Judgment over:
(a) implementation and enforcement of the Settlement;
(b) ***; (c) enforcing and administering this Judgment;
(d) enforcing and administering the Stipulation
including the releases granted therein; and (e) other
matters arising from or relating to the foregoing.”37
When such language is included in a final judgment,
trial courts retain jurisdiction to enforce settlement
agreements after a case has been dismissed. Infinite

37

Case No. 04CV001080, State of Ohio ex rel., Merrill, Trustee v.
Ohio State Department of Natural Resources, Order and Final
Judgment filed October 24, 2016, ¶ 12.

App. 41
Security Solutions, LLC v. Karam Properties, II, Ltd,
143 Ohio St.3d 346, 354, 2015-Ohio-1101, 37 N.E.3d
1211, ¶ 34.
{¶26} As noted, Sortino never claimed he was not a
member of the class certified in the instant case. His
claim has been that this court’s final judgment entry
was void either because it never had subject matter
jurisdiction over the Merrill case or lost personal
jurisdiction over him and other members of the class
who did not receive personal notice of its settlement.
The court believes it has shown why those claims are
mistaken. As a class member, he is deemed to have
“fully, finally, and forever released, waived, discharged,
and dismissed each and every” one of the claims he now
brings in his Erie County lawsuit.38 Therefore, he is
forever enjoined from prosecuting those claims,
pursuant to this court’s final order. And this court has
the authority to enforce that order against him.
{¶27} Wherefore, the court finds that Plaintiff George
Sortino is in contempt of court for attempting to
prosecute claims he has been forever enjoined from
filing. He may purge himself of his contempt by
dismissing his Erie County class action lawsuit
forthwith. If he refuses to do so, the court shall hold a
hearing to determine the amount of reasonable
attorney fees and costs incurred by the State of Ohio in
defending against the Erie County case and any and all

38

04CV001080, State ex rel. Robert Merrill, Trustee v. State of
Ohio, Department of Natural Resources, Order and Final
Judgment, filed October 24, 2019, p. 2, ¶ 8.

App. 42
ensuing appeals. The court shall then fine Sortino in an
amount equal to those attorney fees and costs.
{¶28} IT IS SO ORDERED.
Filed 11/7/2019
/s/
EUGENE A. LUCCI, JUDGE
c: Dennis E. Murray, Sr., Esq.
Margaret M. Murray, Esq.
Donna J. Evans, Esq.
Murray & Murray Co., LLP
Attorneys for George Sortino
111 East Shoreline Dr.
Sandusky, Ohio 44870
James F. Lang, Esq.
Fritz E. Berckmueller, Esq.
Lindsey E. Sacher, Esq.
Calfee, Halter & Griswold, LLP
Class counsel and attorneys for Plaintiff-Relators
1405 E. Sixth St.
Cleveland, Ohio 44114-1607
Homer S. Taft, Esq.
Intervening Plaintiff-Relator, pro se
20220 Center Ridge Rd., Suite 300
P.O. Box 16216
Rocky River, Ohio 44116
L. Scott Duncan, Esq.
Intervening Plaintiff-Relator, pro se
1530 Willow Dr.
Sandusky, Ohio 44870

App. 43
Dave Yost, Ohio Attorney General
Ann Marie Sferra, Esq.
Daniel C. Gibson, Esq.
Bricker & Bricker, LLP
Counsel for Defendants State of Ohio, Ohio
Department of Natural Resources, and the Director
of Ohio Department of Natural Resources
100 South Third St.
Columbus, Ohio 43215
Neil S. Kagan, Esq., Pro Hac Vice
Attorney for intervening defendants, National
Wildlife Federation and Ohio Environmental
Council
Great Lakes Natural Resource Center
213 W. Liberty St., Suite 200
Ann Arbor, Michigan 48104
Peter A. Precario, Esq.
Attorney for intervening defendants, National
Wildlife Federation and Ohio Environmental
Council
2 Miranova Place, Suite 500
Columbus, Ohio 43215
Erie County Court of Common Pleas
323 Columbus Avenue
Sandusky, Ohio 44870
Honorable Roger E. Binette

App. 44

APPENDIX E
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
CASE NO. O4 CV 00 1080
JUDGE EUGENE A. LUCCI
[Filed: July 2, 2004]
__________________________________________
STATE OF OHIO EX REL.
)
ROBERT MERRILL, TRUSTEE
)
6111 Lakeshore Drive
)
Madison, Ohio 44057
)
)
and
)
)
OHIO LAKEFRONT GROUP, INC.
)
P.O. Box 2084
)
Sheffield Lake, Ohio 44054
)
)
and
)
)
ANTHONY J. YANKEL
)
29814 Lake Rd.
)
Bay Village, Ohio 44140
)
)
and
)
)
CHARLES S. TILK
)
29101 Cresthaven Dr
)
Willowick, Ohio 44095
)

App. 45
and
SHEFFIELD LAKE, INC.
Thomas O. Jordan Pres.
4301 Lake Road
Sheffield Lake, Ohio 44054
and
SANDRA L. WADE
3651 W. Willow Beach Rd.
Port Clinton, Ohio 43452
and
DAVID A. ZEBER
2424 Edgewater Dr.
Vermilion, Ohio 44089
and
ADRIAN F. BETLESKI
1723 East Erie Avenue
Lorain, Ohio 44052
and
STEVE NICKEL
3117 E. Shore Drive
Port Clinton, Ohio 43452
and

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 46
JOHN HERRINGTON
5055 Providence Dr, #310
Sandusky, Ohio 44870 dismissed

)
)
)
)
and
)
)
LEMARR L. & PATRICIA J. FRENCH
)
30333 Lake Shore Blvd.
)
Willowick, Ohio 44095
)
)
and
)
)
NEAL OSCAR LUOMA
)
5605 Lake Road
)
West Ashtabula, Ohio 44004
)
)
and
)
)
TIMOTHY AND KIMBERLY ROSENBERG )
33066 Lake Road
)
Avon Lake, Ohio 44012
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES
)
c/o Sam Speck, Director
)
1930 Belcher Dr. Bldg. D3
)
Columbus, Ohio 43224
)
)
and
)
)
SAM SPECK, DIRECTOR
)
Ohio Department of Natural Resources
)

App. 47
1930 Belcher Dr. Bldg. D3
Columbus, Ohio 43224

)
)
)
and
)
)
STATE OF OHIO
)
c/o Robert Taft, Governor
)
77 South High Street, 30th Floor
)
Columbus, Ohio 43215-6117
)
)
ALSO SERVE:
)
JIM PETRO
)
ATTORNEY GENERAL
)
30 East Broad Street
)
Columbus, Ohio 43215-3428
)
__________________________________________)
FIRST AMENDED
COMPLAINT FOR DECLARATORY JUDGMENT,
MANDAMUS, AND OTHER RELIEF
PARTIES
1. This action arises from the actions and threats to
act of the Ohio Department of Natural Resources
(“ODNR”), purporting to act on behalf of the State of
Ohio, by which the ODNR has unconstitutionally and
unlawfully asserted ownership and possession of the
private property of Ohio citizens abutting Lake Erie.
Among other things, the ODNR has arbitrarily and
abusively forced, and continues to threaten to force,
private land owners to lease from ODNR portions of
the land owners’ own private property. ONDR has
intentionally and willfully misrepresented to property
owners and to the public that the state of Ohio owns

App. 48
their property, and ODNR has persisted in this
campaign of falsehoods despite knowing that it is in
conflict with all Ohio law and with published opinions
of the Attorney General of Ohio. This action seeks to
affirm the private property rights of Ohio citizens and
to terminate ODNR’s confiscation and attempted
confiscation of private property in violation of Ohio law
and the constitutions of Ohio and the United States.
2. Relator/Plaintiff Ohio Lakefront Group, Inc.
(“OLG”) is a duly formed non-profit corporation, which
represents, and most of whose members are, owners of
real property abutting Lake Erie. Several of OLG’s
members reside in Lake County and own property in
Lake County that is the subject of this action. A copy of
OLG’s purposes is attached as Exhibit A hereto and
made a part hereof.
3. Robert Merrill and all other named individual
plaintiffs are owners of record of real property abutting
Lake Erie. Mr. Merrill’s property is located in Lake
County, and the property of the other individual
plaintiffs is located in Lake, Ashtabula, Cuyahoga,
Lorain, Ottawa, Erie, Sandusky or Lucas Counties as
reflected in the caption.
4. The named relators/plaintiffs and the putative
class are collectively identified as “Plaintiffs.”
5. Respondents/Defendants are the ODNR, its
Director, Sam Speck, and the State of Ohio (collectively
“ODNR”).

App. 49
BACKGROUND
6. The first section of the first article of the Bill of
Rights of the Ohio Constitution proclaims the
inalienable right of people in this state to acquire,
possess, and protect property. The Ohio Constitution
further prohibits the state from taking private property
for a public use without first paying compensation to
the property owner. The United States Constitution
contains equivalent provisions.
7. Legal title to many parcels of real property
abutting Lake Erie have been held in private
ownership since before Ohio was admitted into the
Union as a state in 1803. Since that time, Ohio law has
recognized and protected the inalienable property
rights of those holding legal title to these parcels,
known as “upland” or “littoral” owners.
8. For over 200 years, Ohio law has recognized the
property rights of littoral owners, both with regard to
the ownership in fee simple of the upland property as
defined by the owner’s deed or original patent and also
as to the rights — know as littoral rights — these
property owners have to access and use the adjoining
waters of Lake Erie. Ohio law also has long recognized
that the lakeward property line of a littoral owner
whose ownership extends to Lake Erie is a “moveable
freehold” in that it can move either lakeward or
landward by virtue of accretion, erosion, or reliction.
The property owned by littoral owners abuts the
submerged lands of Lake Erie, title to which, together
with the waters of Lake Erie and their contents, is held
in trust for the benefit of the people of Ohio for the
public uses of navigation, water commerce and fishery.

App. 50
9. This concept of trust ownership by the state of
the waters of Lake Erie and the soil beneath currently
is codified in Section 1506.10 of the Ohio Revised Code
and is expressly made subject to the property rights of
littoral owners. That section also designates ODNR “as
the state agency in all matters pertaining to the care,
protection, and enforcement of the state’s rights
designated in this section.”
10. Under cover of its “coastal management
program,” ODNR has abused its authority by willfully
ignoring the boundary between private and public
ownership fixed by Ohio law.
11. ODNR recently has asserted and continues to
assert and maintain that the state of Ohio owns all
land lakeward of “ordinary high water mark” or
“OHW,” which for administrative convenience the
ODNR currently defines as wherever the U.S. Army
Corps of Engineers defines Ordinary High Water for
purposes of federal law (currently, a fixed line running
at 573.4 feet above International Great Lakes Datum
(1985)). Thus, contrary to established Ohio law, ODNR
has sought and continues to seek to exercise all
property rights of fee ownership as to all property
lakeward of OHW, regardless of whether that property
is submerged and regardless of whether that property
is privately owned.
12. As a result, ODNR has forced some littoral
owners wishing to use their private property located
below OHW to lease this land — which is owned in fee
by the littoral owners — from the state. Littoral owners
are required to pay real estate taxes based upon the
whole of their privately owned fee, even the portion

App. 51
which ODNR has confiscated for its own purposes and
“leased back” to the littoral owner. Except pursuant to
a lease, the issuance and terms of which are wholly
within the power of ODNR, ODNR maintains that no
littoral owner may make use of its own property, or
exclude others from its property, as long as that
property lies below OHW.
13. ODNR’s actions have thrown doubt upon the
littoral owners’ title to their properties and has
prevented some of them from obtaining title insurance
for their private property located below OHW but
landward of the state’s actual fee ownership.
CLASS ALLEGATIONS
14. Plaintiffs bring this action as a class action on
behalf of themselves and all other members of a Class
defined as the approximately 15,500 private littoral
owners of parcels of real property abutting Lake Erie
within the State of Ohio.
15. The members of the Class are so numerous that
the joinder of all individual members is impracticable.
16. The questions of law and fact as to the legal
boundary between private property and public trust
ownership of the submerged soils of Lake Erie are
common to the Plaintiffs constituting the Class in this
case.
17. The claims of the Plaintiffs are typical of the
claims of the Class, and ODNR’s defenses are typical of
the defenses pertinent to all of the members of the
Class.

App. 52
18. Plaintiffs will fairly and adequately protect the
interests of the Class.
19. The prosecution of separate actions by
individual members of the Class would create the risk
of adjudications with respect to individual members of
the Class which would as a practical matter be
dispositive of the interests of the other members not
named parties to the adjudication or substantially
impair or impede their ability to protect their interests.
20. ODNR has acted or refused to act on grounds
generally applicable to the Class, thereby making
appropriate declaratory relief and associated injunctive
relief with respect to the Class as a whole.
21. Adjudication of this case as a class action will
facilitate judicial economy, and will address issues of
concern involving multiple jurisdictions, thereby
reducing the state’s costs in defending the unlawful
and improper actions of ODNR described above.
COUNT I
Declaratory Judgment
22. The facts alleged in paragraphs 1 through 21 of
this Complaint are realleged and incorporated herein
by reference.
23. An actual controversy exists over the respective
rights of Plaintiffs and the state of Ohio as trustee of
Lake Erie and its submerged lands.
24. In particular, ODNR contends, and Plaintiffs
dispute, that the state of Ohio holds title to all lands

App. 53
located below the administratively arbitrary line of
OHW.
25. Plaintiffs contend, and ODNR disputes, that
Plaintiffs’ private property rights and title are defined
by Ohio law, their deeds, and original patents if any.
26. Plaintiffs further contend, and ODNR disputes,
that ODNR is unlawfully and unconstitutionally
asserting and exercising ownership rights over real
property that is not part of the public trust lands.
27. Plaintiffs further contend, and ODNR disputes,
that ODNR’s policy is directly contrary to Ohio law,
including O.R.C. § 1506.10 and 1506.11.
28. ODNR contends, and Plaintiffs dispute, that
Plaintiffs are prohibited from using any land located
below OHW, regardless of fee ownership of that land,
unless and until Plaintiffs agree to pay ODNR to lease
that land from ODNR.
29. Each of ODNR’s contentions is erroneous and
contrary to Ohio law.
30. Each of Plaintiffs’ contentions are valid and
correct under Ohio law.
31. An actual and justiciable controversy exists as
to the invalidity or validity of each of the contentions
above, which controversy directly affects OLG, on
behalf of and as representative of its members, and the
other Plaintiffs, including, without limitation, the
ownership, use and enjoyment of their privately owned
real property, as protected by Article I, Section 19 of

App. 54
the Ohio Constitution and the Fifth Amendment to the
U. S. Constitution.
32. Pursuant to Ohio Revised Code Chapter 2721,
Plaintiffs are entitled to an order of this Court
declaring that:
a. Plaintiffs own fee title to the lands located
between OHW and the actual legal boundary of
their properties, as defined by Ohio law (including
the rules of accretion, avulsion, erosion and
reliction), their deeds, and their original patent;
b. The interest of the state as trustee over the
public trust applies to the waters of Lake Erie and
does not apply to or include non-submerged lands;
c. ODNR lacks authority to compel Plaintiffs, or
any one of them, to lease back property already
owned by them;
d. Any current submerged land lease between
ODNR and any of Plaintiffs is declared void and
invalid as to any land below OHW but owned by
Plaintiffs.
33. Pursuant to R.C. § 2721.09, Plaintiffs request
that the Court grant further relief, including injunctive
relief, as necessary to carry out its declaratory
judgment.
COUNT II
Mandamus/Inverse Takings Compensation
34. The facts in paragraph 1 through 33 of this
Complaint are realleged and incorporated herein by
reference.

App. 55
35. ODNR’s arbitrary and capricious assertion of
ownership and exercise of ownership rights over the
lands owned by Plaintiffs at and below OHW
constitutes an unconstitutional temporary taking of
those lands, and Plaintiffs have a clear right to receive
compensation from ODNR for such taking or
appropriation pursuant to Article I, Section 19 of the
Ohio Constitution and the Fifth Amendment to the
U.S. Constitution.
36. Plaintiffs have no plain and adequate remedy in
the ordinary course of law to require ODNR to
compensate them fairly for the losses they have
incurred as a result of ODNR’s uncompensated taking
of their privately-owned real property.
37. ODNR is under a clear legal duty to commence
appropriation proceedings in the Probate Court of the
respective counties in which the respective properties
owned by Plaintiffs are located to determine the
amount of compensation due to each of the Plaintiffs
for the real property temporarily taken and for damage
to the residue of their respective real properties.
COUNT III
(In the Alternative)
Mandamus/Inverse Takings Compensation
38. The facts in paragraph 1 through 37 of this
Complaint are realleged and incorporated herein by
reference.
39. In the alternative, if ODNR is entitled to take
and appropriate the lands owned by Plaintiffs below
OHW, then Plaintiffs have a clear right to receive
compensation from the state of Ohio for such takings or

App. 56
appropriation pursuant to Article I, Section 19 of the
Ohio Constitution and the Fifth Amendment to the
U.S. Constitution, as a consequence of ODNR’s taking
of the real property owned by Plaintiffs without any
compensation.
40. Plaintiffs have no plain and adequate remedy in
the ordinary course of law to require ODNR to
compensate them fairly for the losses they have
incurred and will incur as a result of ODNR’s
uncompensated taking of their privately owned real
properties.
41. If ODNR is entitled to take and appropriate
Plaintiffs’ lands owned below OHW, ODNR is under a
clear legal duty to commence appropriation proceedings
in the Probate Court of the respective counties in which
the respective properties owned by Plaintiffs are
located to determine the amount of compensation due
to each of the Plaintiffs for the real property taken and
for damage to the residue of their respective real
properties.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs request that this Court
grant the following relief:
1) Pursuant to Ohio Civil Rule 23, certify this case
as a class action and certify that the class shall
include each and every owner of a parcel of
privately owned real property abutting Lake
Erie located within the State of Ohio, unless
such owner opts out of the class if permitted and
to the extent permitted by law;

App. 57
2) On Count I, a declaratory judgment that:
i)

Plaintiffs own fee title to the lands
located between OHW and the actual
legal boundary of their properties, as
defined by Ohio law (including the rules
of accretion, avulsion, erosion and
reliction), their deeds, and their original
patent;

ii)

The interest of the state as trustee over
the public trust applies to the waters of
Lake Erie and does not apply to or include
non-submerged lands;

iii)

ODNR lacks authority to compel
Plaintiffs, or any one of them, to lease
back property already owned by them;

iv)

Any current submerged land lease
between ODNR and any of Plaintiffs is
declared void and invalid as to any land
below OHW but owned by Plaintiffs.

3) On Count II, a writ of mandamus compelling
and ordering ODNR to commence appropriation
proceedings in the Probate Court of the
respective counties in which the respective
properties owned by Plaintiffs are located to
determine the amount of compensation due to
each of the Plaintiffs for the real property
temporarily taken and for damage to the residue
of their respective real properties.
4) In the alternative, on Count III, a writ of
mandamus compelling and ordering ODNR to

App. 58
commence appropriation proceedings in the
Probate Court of the respective counties in
which the respective properties owned by
Plaintiffs are located to determine the amount of
compensation due to each of the Plaintiffs for
the real property taken and for damage to the
residue of their respective real properties.
5) An award of Plaintiffs’ attorneys’ fees and costs.
6) Any other relief that this Court deems equitable,
proper, necessary, or just.
Respectfully submitted,
/s/ James F. Lang
JAMES F. LANG (0059668)
MICHAEL T. MULCAHY (0038270)
HENRY G. GRENDELL (0063414)
CALFEE, HALTER & GRISWOLD LLP
1400 McDonald Investment Center
800 Superior Avenue
Cleveland, Ohio 44114
(216) 622-8200
(216) 241-0816 (fax)
Counsel for Relators/Plaintiffs

App. 59
CERTIFICATE OF SERVICE
The foregoing First Amended Complaint was served
via overnight mail this 2nd day of July, 2004, upon the
following:
State Of Ohio, Department Of
Natural Resources
c/o Sam Speck, Director
1930 Belcher Dr. Bldg. D3
Columbus, Ohio 43224
Sam Speck, Director
Ohio Department of Natural Resources
1930 Belcher Dr. Bldg. D3
Columbus, Ohio 43224
State Of Ohio
c/o Robert Taft, Governor
77 South High Street, 30th Floor
Columbus, Ohio 43215-6117
Jim Petro
Attorney General
30 East Broad Street
Columbus, Ohio 43215-3428
/s/
One of the Attorneys for Plaintiffs

App. 60

APPENDIX F
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
[Filed: June 9, 2006]
CASE NO. 04CV001080
JUDGE EUGENE A. LUCCI
__________________________________________
STATE OF OHIO EX REL.
)
ROBERT MERRILL, TRUSTEE, et al.,
)
)
Plaintiffs-Relators,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Defendants-Respondents.
)
__________________________________________)
CASE NO. 04CV001081
JUDGE EUGENE A. LUCCI
__________________________________________
STATE OF OHIO EX REL.
)
HOMER S. TAFT, et al.,
)
)
Plaintiffs-Relators,
)
)
vs.
)

App. 61
STATE OF OHIO, DEPARTMENT OF
NATURAL RESOURCES, et al.,

)
)
)
Defendants-Respondents.
)
__________________________________________)
ORDER CERTIFYING CLASS ACTION ON
COUNT ONE OF THE FIRST AMENDED
COMPLAINT IN CASE NO. 04-CV-001080
{¶1} The court has reviewed and considered the Notice
of Joint Stipulation to Class Certification on Count One
of the First Amended Complaint filed by the parties in
State ex rel. Merrill et al. v. State of Ohio, Department
of Natural Resources, et al., Case No. 04-CV-001080
(hereinafter “Merrill”) on June 8, 2006. The Stipulation
seeks on Order certifying a class in this lawsuit limited
to Count I of the First Amended Complaint, which
seeks a declaratory judgment from this court. For good
cause shown, the Stipulation is well-taken and is
granted under the terms set forth herein.
Class Action Definition
{¶2} As stipulated by the parties, the class shall consist
of “all persons, as defined in R.C. 1506.01(D), excepting
the State of Ohio and any state agency as defined in
R.C. 1.60, who are owners of littoral property1

1

The parties have stipulated that “upland property” is defined as
real property bordering a body of water and that, in Ohio, “littoral
property” is defined as upland property that borders an ocean, sea,
lake, or a bay of any of these water bodies, as opposed to “riparian
property” which is defined as upland property that borders a river,
stream, or other such watercourse.

App. 62
bordering Lake Erie (including Sandusky Bay and
other estuaries previously determined to be a part of
Lake Erie under Ohio law) within the territorial
boundaries of the State of Ohio” (hereinafter “the
Class”). To the extent that governmental entities are
included in the class, they are included solely in their
proprietary capacity as property owners and not for
any purpose or capacity implicating their governmental
authority or jurisdiction.
1. Civ.R.23(A)(1)
{¶3} The court finds that the class is so numerous that
joinder of all members is impracticable. As stipulated
by the parties, the shore of Lake Erie in the State of
Ohio extends approximately 312 miles, eight counties
in the State of Ohio abut the shore of Lake Erie
(Ashtabula, Lake, Cuyahoga, Lorain, Erie, Sandusky,
Ottawa, and Lucas), and approximately 14,000 parcels
of littoral property abut Ohio’s Lake Erie shore.
Owners of littoral parcels of land may be ascertained
from available property records.
2. Civ.R.23(A)(2)
{¶4} Pursuant to the stipulation of the parties, the
court hereby finds that the following questions of law
are common to the class:
(1)

What constitutes the furthest landward
boundary of the “territory” as that term
appears in R.C. 1506.10 and 1506.11,
including, but not limited to, interpretation
of the terms “southerly shore” in R.C.
1506.10, “waters of Lake Erie” in R.C.
1506.10, “lands presently underlying the

App. 63
waters of Lake Erie” in R.C. 1506.11, “lands
formerly underlying the waters of Lake Erie
and now artificially filled” in R.C. 1506.11,
and “natural shoreline” in RC. 1506.10 and
1506.11.
(2)

If the furthest landward boundary of the
“territory” is declared to be the natural
location of the ordinary high water mark as
a matter of law, may that line be located at
the present time using the elevation of 573.4
feet IGLD (1985), and does the State of Ohio
hold title to all such “territory” as proprietor
in trust for the people of the State.

(3)

What are the respective rights and
responsibilities of the class members, the
State of Ohio, and the people of the State in
the “territory.”

3. Civ.R.23(A)(3)
{¶5} Pursuant to the stipulation of the parties, the
court hereby finds that the claims or defenses of the
named Plaintiffs in Merrill are typical of the claims or
defenses of that class. Each of the named Plaintiffs in
Merrill is either a member of the class or, with respect
to Named Plaintiff Ohio Lakefront Group, Inc., a nonprofit corporation representing its members who are
members of the class. All of the named Plaintiffs in
Merrill seek a declaratory judgment that resolves the
questions of law common to the class. All members of
the class have the same interests in a declaratory
judgment that resolves the questions of law common to
the class.

App. 64
4. Civ.R.23(A)(4)
{¶6} Pursuant to the stipulation of the parties, the
court hereby finds that the named Plaintiffs in Merrill
will fairly and adequately protect the interests of the
proposed class. No named Plaintiff in Merrill seeks
rights that will prejudice any other member of the
class. The named Plaintiffs in Merrill collectively are
committed to the vigorous prosecution of this class
action litigation. The court further finds that class
counsel - Calfee, Halter & Griswold LLP - consists of
over 170 lawyers who are members in good standing of
the bar of the State of Ohio and have the experience
and financial ability to protect the interests of the
class.
5. Civ.R. 23(B)(2)
{¶7} Pursuant to the stipulation of the parties, the
court finds that the allegations contained within the
First Amended Complaint and Counterclaim in Merrill
have demonstrated that actual and justiciable
controversies exist, thereby making appropriate
declaratory relief with respect to both the State and to
the proposed class as a whole.
Class Action Certification
{¶8} As authorized by Civ.R. 23(C)(1) and 23(C)(4), the
court determines that a class action shall be
maintained on Count I of Plaintiffs-Relators’ First
Amended Complaint upon the common questions of law
found herein, and hereby certifies that class action
under the provisions of Civ.R. 23(B)(2). The two
remaining counts of Plaintiffs-Relators’ First Amended
Complaint – “Count II - Mandamus/Inverse Takings

App. 65
Compensation” and “Count III - (In the Alternative)
Mandamus/Inverse Takings Compensation” – are
hereby bifurcated pending final resolution of Count I.
{¶9} The class certification hearing in Merrill,
scheduled for June 9, 2006 at 9:00 a.m., is no longer
necessary and is cancelled.
{¶10} The parties in Merrill have requested that the
consolidated case of State ex rel. Taft et al. v. State of
Ohio, Department of Natural Resources, et al., Case
No. 04-CV-001081 (hereinafter “Taft”), be stayed
pending final resolution of the class action in Merrill,
with the consent of counsel in Taft. The court will
consult with all counsel in Taft before rendering a
decision on this issue.
{¶11} IT IS SO ORDERED.
/s/
EUGENE A. LUCCI, JUDGE
cc: James F. Lang, Esq., Michael T. Mulcahy, Esq., K.
James Sullivan, Esq., Attorneys for Plaintiffs/
Relators in Case No. 04CV001080
Cynthia K. Frazzini, Esq. and John P. Bartley, Esq.,
Assistant Attorneys General for Defendants/
Respondents in Case No. 04CV001080 and Case No.
04CV001081
Homer S. Taft, Esq. Plaintiff/Relator Pro Se in Case
No. 04CV001081
L. Scot Duncan, Esq., Plaintiff/Relator Pro Se and
Attorney for Plaintiff-Relator Darla J. Duncan in
Case No. 04CV001081

App. 66

APPENDIX G
SUPREME COURT OF OHIO
Nos. 2008-L-007 and 2008-L-008, 2009-Ohio-4256
[Filed: September 14, 2011]
__________________________________________
THE STATE EX REL. MERRILL,
)
TRUSTEE, ET AL.,
)
)
APPELLEES;
)
)
TAFT,
)
)
APPELLEE AND
)
CROSS-APPELLANT,
)
)
V.
)
)
OHIO DEPARTMENT OF NATURAL
)
RESOURCES ET AL.,
)
)
APPELLANTS AND
)
CROSS-APPELLEES.
)
__________________________________________)
[Cite as State ex rel. Merrill v.
Ohio Dept. of Natural Resources,
130 Ohio St.3d 30, 2011-Ohio-4612.]

App. 67
Land held in public trust abutting private
property—The territory of Lake Erie held in trust by
the state of Ohio for the people of the state extends to
the natural shoreline, which is the line at which the
water usually stands when free from disturbing
causes.
(No. 2009-1806—Submitted February 1,
2011—Decided September 14, 2011.)
APPEAL AND CROSS-APPEAL from the
Court of Appeals for Lake County,
Nos. 2008-L-007 and 2008-L-008, 2009-Ohio-4256.
__________________
SYLLABUS OF THE COURT
1. A party to an action has standing to appeal from a
judgment when it is an independent party to an
action and has been aggrieved by the final order
from which it seeks to appeal.
2. When an organization demonstrates that it has a
claim or defense that shares a common question
of law or fact with the main action and that
intervention will not unduly delay or prejudice
the adjudication of the rights of the original
parties, it meets the requirements of Civ.R.
24(B)(2) for permissive intervention.
3. The territory of Lake Erie held in trust by the state
of Ohio for the people of the state extends to the
natural shoreline, which is the line at which the
water usually stands when free from disturbing
causes. (Sloan v. Biemiller (1878), 34 Ohio St.
492, and State v. Cleveland & Pittsburgh RR.

App. 68
Co. (1916), 94 Ohio St. 61, 113 N.E. 677,
approved and followed; R.C. 1506.10 and
1506.11, construed.)
__________________
O’DONNELL, J.
{¶ 1} We are asked to resolve three issues on appeal
and cross-appeal: first, whether the state of Ohio, as
distinct from the Ohio Department of Natural
Resources (“ODNR”), has standing to appeal from the
decisions of the trial and appellate courts in this case;
second, whether the court of appeals properly held that
the trial court did not abuse its discretion in permitting
the National Wildlife Federation and the Ohio
Environmental Council to intervene in this action; and
third, whether the appellate court identified the proper
boundary between property abutting Lake Erie owned
by private individuals and the territory of Lake Erie
held in trust by the state for all Ohioans.
{¶ 2} Regarding the standing issue, we conclude
that despite ODNR’s adoption of a conciliatory lis
pendens posture agreeing not to enforce its
controversial lease policy pending the court’s
determination of the boundary issue and its failure to
appeal the judgment of the trial court, it remains a
party to this case; the state of Ohio, a separately
named party, had standing to appeal the trial court
judgment entered against it affecting the territory of
Lake Erie.
{¶ 3} On the intervention question, we agree with
the conclusion of the court of appeals that the National
Wildlife Federation and the Ohio Environmental

App. 69
Council are proper parties to this action and that the
trial court did not abuse its discretion in permitting
them to intervene.
{¶ 4} Finally, regarding the shoreline issue, Ohio
law with respect to the territory of Lake Erie held in
trust by the state and the rights of littoral-property
owners has been settled for more than a century, and
we see no reason to change the existing law. Based on
opinions of this court from as early as 1878 and the
Ohio General Assembly’s statement of public policy
enunciated in the Fleming Act in 1917, we conclude
that the territor y of Lake Erie held in trust by the
state of Ohio for the people of Ohio extends to the
“natural shoreline,” which is the line at which the
water usually stands when free from disturbing causes.
Factual and Procedural History
{¶ 5} The pleadings in this case allege that ODNR
instituted a policy prohibiting littoral-property owners
from exercising property rights over all land lakeward
of the ordinary high-water mark, despite the inclusion
of that area of land in their respective deeds, unless the
owner entered into a lease agreement with ODNR and
paid a fee for its use.
{¶ 6} In May 2004, Robert Merrill, as trustee for the
Diane N. Merrill Living Trust, the Ohio Lakefront
Group, Inc., a nonprofit corporation representing
lakefront-property owners, and several other
individually named lakefront-property owners
(collectively referred to as “the Merrill plaintiffs”) filed
a complaint for declaratory judgment and mandamus
in the Lake County Common Pleas Court against

App. 70
ODNR, its director, and the state of Ohio, seeking
declarations that owners of property abutting Lake
Erie hold title to the land “between [the ordinary
high-water mark] and the actual legal boundary of
their properties * * * as defined by their deeds” and
that the public trust does not include nonsubmerged
lands; alternatively, they sought a writ of mandamus
to compel ODNR to commence appropriation
proceedings or to compel the state of Ohio to
compensate them for its alleged taking of their
property. They subsequently filed an amended
complaint containing the same counts. The individually
named lakefront-property owners also filed
attachments to the first amended complaint, containing
copies of their deeds and identifying the property’s
lakeward boundary, although those descriptions varied
from deed to deed, i.e., “a distance of 374.0 feet to the
shore of Lake Erie,” “to a point in the low water mark
of Lake Erie,” “145 feet to a point in the water’s edge of
Lake Erie,” “to Lake Erie,” “a distance of 293.04 feet to
the shore of Lake Erie,” and “to the shore of Lake Erie.”
{¶ 7} Separately, Homer S. Taft, L. Scot Duncan,
and Darla J. Duncan (“the Taft plaintiffs”) filed the
next consecutively numbered case in the Lake County
Common Pleas Court, claiming ownership of their land
to the ordinary low-water mark of Lake Erie. The trial
court consolidated that action with the suit filed by the
Merrill plaintiffs.
{¶ 8} ODNR and the state counterclaimed, seeking
a declaration that the state of Ohio holds the lands and
waters of Lake Erie to the ordinary high-water mark,
as set by the United States Army Corps of Engineers in

App. 71
1985, in trust for the people of Ohio, subject only to the
paramount authority retained by the United States for
the purposes of commerce, navigation, national
defense, and international affairs.
{¶ 9} In June 2006, pursuant to a joint stipulation
of all parties in Merrill, the trial court certified a class
action as to the declaratory-judgment count of the
Merrill complaint, with the class consisting of owners
of Ohio property bordering Lake Erie. The court stayed
the mandamus claims pending resolution of the
declaratory-judgment claim.
{¶ 10} Subsequently, the National Wildlife
Federation and the Ohio Environmental Council,
nonprofit organizations committed to conserving
natural resources and whose members make
recreational use of the shores and waters of Lake Erie,
sought to intervene as defendants and
counterclaimants, asserting that the state holds the
lands and waters of Lake Erie in trust for the public to
the ordinary high-water mark. The trial court
permitted them to intervene.
{¶ 11} ODNR and the state then moved for
summary judgment on the declaratory-judgment claim,
urging, inter alia, that the public-trust territory of
Lake Erie extends to the ordinary high-water mark, as
identified by the United States Army Corps of
Engineers in 1985. The National Wildlife Federation
and the Ohio Environmental Council filed a joint
motion for summary judgment, concurring in and
adopting the bases for summary judgment advanced by
ODNR and the state.

App. 72
{¶ 12} The Merrill and Taft plaintiffs each filed
cross-motions for summary judgment. In response to
the cross-motions for summary judgment, ODNR
advised the court that it welcomed resolution of the
controversy and posited that it “must and should honor
the apparently valid real property deeds of the
plaintiff-relator lakefront owners unless a court
determines that the deeds are limited by or subject to
the public’s interests in those lands or are otherwise
defective or unenforceable.” ODNR further explained
that “acting with the consent and direction of” the
governor, it “will discharge its statutory duties and will
adopt or enforce administrative rules and regulatory
policies with the assumption that the lakefront owners’
deeds are presumptively valid.” It also represented to
the court that while it “will require owners who wish to
build structures along the shores of Lake Erie that
could impact coastal lands to obtain permits before
commencing any such construction[,] * * * it will no
longer require property owners to lease land contained
within their presumptively valid deeds.”
{¶ 13} After review, the trial court granted partial
summary judgment to the Merrill and Taft plaintiffs
and denied summary judgment to ODNR, the state, the
National Wildlife Federation, and the Ohio
Environmental Council, concluding that the public
trust neither extended to the ordinary high-water mark
nor terminated at the low-water mark; rather, the trial
court determined that the boundary of the public-trust
territory is “a moveable boundary consisting of the
water’s edge, which means the most landward place
where the lake water actually touches the land at any
given time.” The trial court opinion also reformed the

App. 73
legal descriptions in deeds held by littoral-property
owners containing legal descriptions that extended the
propert y into the lake to extend the propert y only to
the water’s edge.
{¶ 14} The trial court further concluded:
“Defendants-Respondents and Intervening Defendants
have failed, as a matter of law, to show that the
landward boundary of the public trust territory in Ohio
along the Lake Erie shore is the Ordinary High Water
Mark of 573.4 IGLD (1985), and Plaintiffs-Relators and
Intervening Plaintiffs have failed to show that the
lakeward boundary of the public trust territory in Ohio
along the Lake Erie shore is the Ordinary Low Water
Mark. The court declares that the law of Ohio is that
the proper definition of the boundary line for the public
trust territory of Lake Erie is the water’s edge,
wherever that moveable boundary may be at any given
time, and that the location of this moveable boundary
is a determination that should be made on a case-bycase basis.” (Emphasis sic.)
{¶ 15} The trial court order included language from
Civ.R. 54(B), “finding that there is no just reason for
delay,” thereby creating a final, appealable order.
{¶ 16} The state of Ohio, the National Wildlife
Federation, and the Ohio Environmental Council
appealed to the Eleventh District Court of Appeals, and
the Merrill plaintiffs and Taft, individually,
cross-appealed, all challenging the trial court’s
determination that the public-trust territory of Lake
Erie is a moveable boundary consistent with the
water’s edge. Additionally, Taft argued that the court
erred in allowing intervention. Notably, ODNR neither

App. 74
filed a notice of appeal to the court of appeals nor
joined in the state’s notice of appeal. Its failure to
separately appeal prompted the court of appeals,
during oral argument, to question whether the state of
Ohio had appellate standing before that court.
{¶ 17} The appellate court concluded that the state
of Ohio lacked appellate standing without ODNR as an
appellant, and it affirmed the trial court’s holdings
regarding the intervening parties and the boundary of
the public trust, but vacated the trial court’s
reformation of the littoral owners’ deeds.
{¶ 18} In holding that the state of Ohio lacked
standing, the court of appeals cited R.C. 109.02 for the
proposition that the Ohio attorney general could “only
act at the behest of the governor, or the General
Assembly,” and in this case, the “attorney general
represented the state due to the activities of ODNR,
which department is under the authority of the
governor,” who no longer supported the position taken
by ODNR. State ex rel. Merrill v. Ohio Dept. of Natural
Resources, 11th Dist. Nos. 2008-L-007 and 2008-L-008,
2009-Ohio-4256, ¶ 44. Thus, because the governor
“ordered ODNR to cease those activities that made it a
party to the action,” the appellate court found “no
authority for the attorney general to prosecute this
matter on his own behalf” and concluded that the state
“no longer has standing in this matter.” Id. Thus, the
court of appeals ordered the state’s assignments of
error and briefs stricken.
{¶ 19} Regarding intervention, the appellate court
held that the trial court had correctly permitted the
National Wildlife Federation and the Ohio

App. 75
Environmental Council to intervene because they met
the requirements for intervention as of right pursuant
to Civ.R. 24(A) in that the relief sought by the Merrill
and Taft plaintiffs “would extinguish the rights” of
their members to “make recreational use of the shore
along Lake Erie below the ordinary high water mark.”
Id. at ¶ 114. The court also concluded that the
intervening parties met the requirements for
permissive intervention pursuant to Civ.R. 24(B)
because they demonstrated that their defense and
counterclaim factually and legally related to the claims
asserted by the Merrill and Taft plaintiffs.
{¶ 20} The court of appeals also affirmed the trial
court’s determination regarding the boundary of the
public trust, holding that the boundary is the shoreline,
which it defined as “the actual water’s edge.” Id. at
¶ 127.
{¶ 21} In its opinion, the court of appeals
erroneously stated that the question regarding the
boundary of the public trust is a matter of first
impression in Ohio. Id. at ¶ 1. It is not. That question
has been a matter of settled law in Ohio for more than
a century—since 1878—when this court first
announced the law in a case that called for Lake Erie
as the boundary in a deed of conveyance, and when it
subsequently clarified that decision in 1916, and when
the legislature, in response to our request, thereafter
codified Ohio law regarding the public trust in Lake
Erie by enacting the Fleming Act in 1917.
{¶ 22} Despite this body of law, the court of appeals
concluded: “Based upon its decisions, the Supreme
Court has identified that the waters, and the lands

App. 76
under the waters of Lake Erie, when submerged under
such waters, are subject to the public trust, while the
littoral owner holds title to the natural shoreline. As
we have identified, the shoreline is the line of contact
with a body of water with the land between the high
and low water mark. Therefore, the shoreline, that is,
the actual water’s edge, is the line of demarcation
between the waters of Lake Erie and the land when
submerged thereunder held in trust by the state of
Ohio and those natural or filled in lands privately held
by littoral owners.” (Emphasis sic.) Id. at ¶ 127.
{¶ 23} ODNR, its director, and the state jointly
appealed to this court, as did the National Wildlife
Federation and the Ohio Environmental Council;
individually, Taft cross-appealed. We accepted
jurisdiction over these appeals, which collectively
assert six propositions of law and raise the following
three issues: whether the state of Ohio has appellate
standing, whether the National Wildlife Federation
and the Ohio Environmental Council are proper
intervening parties, and whether the territory of the
public trust extends to the ordinary high-water mark,
as claimed by the state and the environmental groups,
or the low-water mark, as claimed by Taft.
Standing to Appeal
{¶ 24} The state presents a twofold argument to
support its position that it had standing to appeal the
decision of the trial court, which declared that the
boundary of the public trust is the water’s edge, and
the decision of the court of appeals, which affirmed the
trial court’s declaration. First, the state claims that it
had standing because it is an independent party to this

App. 77
action, and the judgment entered against it is adverse
to its interests. Second, it maintains that the Ohio
attorney general is empowered by the common law and
statutes to represent the state when it is a named
party.
{¶ 25} The Merrill and Taft plaintiffs collectively
argue that the state lacked standing to appeal because
R.C. 1506.10 designates ODNR as the agency
responsible for the enforcement of the state’s
public-trust rights in Lake Erie, and here, ODNR
complied with a gubernatorial directive to cease its
active participation in the matter and did not appeal
the trial court’s judgment to the court of appeals. Thus,
they assert, ODNR’s waiver of its appellate rights
foreclosed the state from appealing.
{¶ 26} Separately, Taft argues that the court of
appeals correctly determined that the state lacked
standing because R.C. 109.02 precludes the attorney
general from representing the state in the court of
appeals absent authorization from the governor or the
General Assembly, and the governor’s directive to
ODNR negates any claim by the attorney general of
authorization to represent the state in this matter. Taft
further contends that the General Assembly enacted
R.C. 109.02 in abrogation of the common law, and
therefore, the attorney general lacks nonstatutory
authority to act on behalf of the state.
{¶ 27} “Standing is a preliminary inquiry that must
be made before a court may consider the merits of a
legal claim.” Kincaid v. Erie Ins. Co., 128 Ohio St.3d
322, 2010-Ohio-6036, 944 N.E.2d 207, ¶ 9, citing Ohio
Pyro, Inc. v. Dept. of Commerce, 115 Ohio St.3d 375,

App. 78
2007-Ohio-5024, 875 N.E.2d 550, ¶ 27, and Cuyahoga
Cty. Bd. of Commrs. v. State, 112 Ohio St.3d 59,
2006-Ohio-6499, 858 N.E.2d 330, ¶ 22. Standing is a
question of law, so we review the issue de novo.
Kincaid at ¶ 9.
{¶ 28} To have appellate standing, a party must be
“aggrieved by the final order appealed from.” Ohio
Contract Carriers Assn., Inc. v. Pub. Util. Comm.
(1942), 140 Ohio St. 160, 23 O.O. 369, 42 N.E.2d 758,
syllabus; see also In re Guardianship of Santrucek 120
Ohio St.3d 67, 2008-Ohio-4915, 896 N.E.2d 683, ¶ 5;
Willoughby Hills v. C.C. Bar’s Sahara, Inc. (1992), 64
Ohio St.3d 24, 26, 591 N.E.2d 1203. Cf. Forney v. Apfel
(1998), 524 U.S. 266, 271, 118 S.Ct. 1984, 141 L.Ed.2d
269, quoting United States v. Jose (1996), 519 U.S. 54,
56, 117 S.Ct. 463, 136 L.Ed.2d 364 (“a party is
‘aggrieved’ [by] and ordinarily can appeal [from] a
decision ‘granting in part and denying in part the
remedy requested’ ”).
{¶ 29} In this case, both the Merrill and Taft
plaintiffs sued both the state of Ohio and ODNR,
seeking a declaration regarding the interest of the state
as trustee over the public trust. In addition, count
three of Merrill’s first amended complaint sought a
writ of mandamus to compel the state to pay
compensation as a result of ODNR’s alleged taking.
Thus, the pleadings verify that the state became an
independent party to the underlying action. It is also
an aggrieved party; the trial court’s determination
regarding the boundary of the public trust, which the
court of appeals affirmed, is adverse to the state’s
position, and the trial court’s ruling denied the relief

App. 79
sought by the state in its counterclaim for declaratory
judgment. Accordingly, we conclude that the state of
Ohio had standing to appeal from the judgments of
both the trial court and appellate court due to its status
as an aggrieved party.
{¶ 30} Nor does R.C. 1506.10 deprive the state of
the ability to appeal in this case. That statute
designates ODNR as “the state agency in all matters
pertaining to the care, protection, and enforcement of
the state’s rights designated in this section.” It also
provides that “[a]ny order of the director of [ODNR] in
any matter pertaining to the care, protection, and
enforcement of the state’s rights in that territory is a
rule or adjudication within the meaning of sections
119.01 to 119.13 of the Revised Code.” Here, however,
the state appealed from a decision entered in a
declaratory-judgment action, and a matter that seeks
a declaration of rights is different from one that
pertains to “the care, protection, and enforcement” of
those rights. We do not construe R.C. 1506.10 as
prohibiting the state from litigating its interests in the
public trust, including its right to appeal from a
judgment that adversely affects those interests.
{¶ 31} Similarly, the court of appeals erroneously
determined that the attorney general lacked standing
to appeal on behalf of the state. We recognize that
pursuant to a gubernatorial directive, ODNR did not
appeal the judgment of the trial court. As a separate
party, however, the state did not abandon its
independent right to appeal. By appealing from the
trial court’s judgment, the state preserved its interest
in protecting what it perceives to be the public trust.

App. 80
{¶ 32} Taft also maintains that the attorney general
lacked standing to appeal because pursuant to R.C.
109.02, absent direction from the governor, the
attorney general had no independent authority to act
on behalf of the state.
{¶ 33} In Ohio, the attorney general is a
constitutional officer. Section 1, Article III, Ohio
Constitution. The General Assembly has also
recognized that the attorney general is the chief law
officer “for the state and all its departments.” R.C.
109.02. That statute sets forth the attorney general’s
statutory duties: “The attorney general shall appear for
the state in the trial and argument of all civil and
criminal causes in the supreme court in which the state
is directly or indirectly interested. When required by
the governor or the general assembly, the attorney
general shall appear for the state in any court or
tribunal in a cause in which the state is a party, or in
which the state is directly interested. Upon the written
request of the governor, the attorney general shall
prosecute any person indicted for a crime.”
{¶ 34} The state and federal constitutions “were
adopted with a recognition of established
contemporaneous common law principles; and * * *
they did not repudiate, but cherished, the established
common law.” State v. Wing (1902), 66 Ohio St. 407,
420, 64 N.E. 514. In deference to that principle, “the
General Assembly will not be presumed to have
intended to abrogate a settled rule of the common law
unless the language used in a statute clearly imports
such intention.” State ex rel. Hunt v. Fronizer (1907), 77
Ohio St. 7, 16, 82 N.E. 518.

App. 81
{¶ 35} This court recently addressed the
common-law powers of the attorney general in relation
to R.C. 109.02 in State ex rel. Cordray v. Marshall, 123
Ohio St.3d 229, 2009-Ohio-4986, 915 N.E.2d 633. In
rejecting an argument similar to Taft’s position herein,
we concluded that nothing in R.C. Chapter 109
abrogated the attorney general’s common-law power to
commence a prohibition action that sought to compel a
common pleas judge to vacate an entry issued in a
criminal case. Id. at ¶ 18, 23.
{¶ 36} Guided by that analysis, we reach the same
result and hold that nothing in R.C. Chapter 109
appears to abrogate the attorney general’s common-law
power to appeal on behalf of the state from an adverse
judgment. Cf. Northeast Ohio Coalition for the
Homeless & Serv. Emps. Internatl. Union, Local 1199
v. Blackwell (C.A.6, 2006), 467 F.3d 999, 1008 (attorney
general permitted to intervene on behalf of the state in
an appeal of a judgment from which the secretary of
state did not wish to pursue an appeal). Thus, Taft’s
position is not well taken.
{¶ 37} Accordingly, we hold that a party to an
action has standing to appeal from a judgment when it
is an independent party to an action and has been
aggrieved by the final order from which it seeks to
appeal. Hence, the state of Ohio has standing to appeal
in this case, as it is an independent party against
which an adverse judgment had been rendered.
Intervention
{¶ 38} The court of appeals concluded that the
National Wildlife Federation and the Ohio

App. 82
Environmental Council could intervene either as of
right or with permission. Merrill, 2009-Ohio-4256,
¶ 115, 118. On cross-appeal, Taft maintains that the
appellate court abused its discretion in affirming the
trial court’s decision to permit the National Wildlife
Federation and the Ohio Environmental Council to
intervene, contending that these organizations neither
met the requirements of Civ.R. 24(A)(2) for
intervention as of right, as they failed to demonstrate
an interest relating to the property or transaction that
is the subject of the action, nor met the requirements of
Civ.R. 24(B) for permissive intervention, in that they
failed to demonstrate that they had a claim or defense
that shared a common question of law or fact with the
main action.
{¶ 39} In response, the National Wildlife Federation
and the Ohio Environmental Council claim that they
met the requirements for intervention as of right
pursuant to Civ.R. 24(A)(2) because some of their
members make recreational use of the land that is the
subject matter of this action. In addition, some of their
members are Ohioans and are thus beneficiaries of the
public trust and have a legally protectable interest in
public-trust lands. They further contend that the relief
requested by the littoral owners would extinguish their
members’ right to use the shore of Lake Erie for
recreational purposes.
{¶ 40} These organizations also maintain that they
have demonstrated the existence of common questions
of law or fact between their claimed interest in and
right to use the shore and the underlying

App. 83
declaratory-judgment action sufficient to warrant
permissive intervention pursuant to Civ.R. 24(B).
{¶ 41} We construe Civ.R. 24 liberally to permit
intervention. State ex rel. SuperAmerica Group v.
Licking Cty. Bd. of Elections (1997), 80 Ohio St.3d 182,
184, 685 N.E.2d 507; see also Rumpke Sanitary
Landfill, Inc. v. State, 128 Ohio St.3d 41,
2010-Ohio-6037, 941 N.E.2d 1161, ¶ 22, citing Ohio
Dept. of Adm. Servs., Office of Collective Bargaining v.
State Emp. Relations Bd. (1990), 54 Ohio St.3d 48, 51,
562 N.E.2d 125. Whether intervention is granted as of
right or by permission, the standard of review is
whether the trial court abused its discretion in
allowing intervention. See State ex rel. First New
Shiloh Baptist Church v. Meagher (1998), 82 Ohio St.3d
501, 503, 696 N.E.2d 1058, fn.1; Rumpke, Inc., at ¶ 22.
We acknowledge that State ex rel. First New Shiloh
Baptist Church and Rumpke commented only on the
standard of review for intervention as of right, but
because there is no reason to apply a different standard
of review to permissive intervention, we conclude that
the same standard applies. Cf. Ohio Consumers’
Counsel v. Pub. Util. Comm., 111 Ohio St.3d 384,
2006-Ohio-5853, 856 N.E.2d 940, ¶ 17 (abuse-ofdiscretion standard is applied when reviewing
permissive-intervention decisions made by the Public
Utilities Commission of Ohio).
{¶ 42} Regarding intervention as of right, Civ.R.
24(A)(2) provides that any applicant shall be allowed to
intervene in a cause of action “when the applicant
claims an interest relating to the property or
transaction that is the subject of the action and the

App. 84
applicant is so situated that the disposition of the
action may * * * impede the applicant’s ability to
protect that interest.” Further, the applicant’s interest
must be one that is “ ‘legally protectable,’ ” State ex rel.
Dispatch Printing Co. v. Columbus (2000), 90 Ohio
St.3d 39, 40, 734 N.E.2d 797, quoting In re Schmidt
(1986), 25 Ohio St.3d 331, 336, 25 OBR 386, 496 N.E.2d
952, and must not be adequately protected by the
existing parties. Civ.R. 24(A)(2); State ex rel. LTV Steel
Co. v. Gwin (1992), 64 Ohio St.3d 245, 247, 594 N.E.2d
616.
{¶ 43} Regarding permissive intervention, Civ.R.
24(B)(2) provides that a trial court has discretion to
permit an applicant to intervene “when [the]
applicant’s claim or defense and the main action have
a question of law or fact in common.” However, in
exercising its discretion, the court “shall consider
whether the intervention will unduly delay or prejudice
the adjudication of the rights of the original parties.”
Id.
{¶ 44} The defense and counterclaim asserted by
the National Wildlife Federation and the Ohio
Environmental Council in this case relate both legally
and factually to the claims asserted by the Merrill and
Taft plaintiffs; thus, they have satisfied the “common
question of law or fact” requirement of Civ.R. 24(B)(2).
Nor did allowing intervention unduly delay or prejudice
the adjudication of the rights of the original parties.
The court of appeals, therefore, did not abuse its
discretion in determining that these organizations met
the requirements for permissive intervention. Based on

App. 85
this conclusion, we need not analyze intervention as of
right.
{¶ 45} Accordingly, when an organization
demonstrates that it has a claim or defense that shares
a common question of law or fact with the main action
and that intervention will not unduly delay or prejudice
the adjudication of the rights of the original parties, it
meets the requirements of Civ.R. 24(B)(2) for
permissive intervention. Hence, the trial court did not
abuse its discretion in permitting the National Wildlife
Federation and the Ohio Environmental Council to
intervene in this action.
The Public Trust
{¶ 46} The substantive issue for our resolution
concerns the territory of the public trust, and the
parties here disagree as to its boundary. The state, the
National Wildlife Federation, and the Ohio
Environmental Council all urge us to hold that the
court of appeals erred in setting the landward
boundary of the public trust at the water’s edge,
arguing instead that the boundary is the ordinary highwater mark, which they claim that case law has
construed to mean the natural shoreline, as well as
“the line where the water usually stands when free
from disturbing causes.”
{¶ 47} The Taft plaintiffs contend that the court of
appeals erred by not defining the landward boundary
of the public trust as the low-water mark, as modified
by accretion, reliction, or erosion.
{¶ 48} The Merrill plaintiffs, as appellees in the
Supreme Court, assert that the boundary is the natural

App. 86
shoreline, which it claims is the line at which the water
meets the shore wherever that may be at any given
time, and they urge this court to affirm the judgment
of the court of appeals.
{¶ 49} More than 130 years ago, in Sloan v.
Biemiller (1878), 34 Ohio St. 492, we determined that
when a real estate conveyance calls for Lake Erie as
the boundary, the littoral owner’s property interest
“extends to the line at which the water usually stands
when free from disturbing causes.” Id. at paragraph
four of the syllabus. In our analysis, we adopted the
position taken by the Supreme Court of Illinois in
Seaman v. Smith (1860), 24 Ill. 521, syllabus (“The line
at which the water usually stands when free from
disturbing causes, is the boundary of land in a
conveyance calling for Lake Michigan as a line”).
{¶ 50} Contrary to the position advanced by the
state, although Sloan quoted language from Seaman
that referred to “the usual high-water mark,” which is
synonymous with the ordinary high-water mark,
neither Sloan nor Seaman adopted that as the
boundary or defined “the line at which the water
usually stands when free from disturbing causes” to
mean “the usual high-water mark.” As a subsequent
case from the Supreme Court of Illinois explained, “[i]t
is clear from the reasoning and conclusion in [Seaman],
in the light of the judgment entered, that it was not the
high-water mark that was taken as the true limit of the
boundary line, but the line where the water usually
stood when unaffected by storms or other disturbing
causes.” Brundage v. Knox (1917), 279 Ill. 450, 471, 117
N.E. 123. In addition to a storm, a drought may

App. 87
constitute a disturbing cause. See Appeal of York
Haven Water & Power Co. (1905), 212 Pa. 622, 631, 62
A. 97.
{¶ 51} Subsequent to our decision in Sloan, in State
v. Cleveland & Pittsburgh RR. Co. (1916), 94 Ohio St.
61, 79, 113 N.E. 677, we held that “the state holds the
title to the subaqueous land [of Lake Erie within the
boundaries of Ohio] as trustee for the protection of
public rights.” In so holding, we followed our decision
in Sloan, among other cases, and concluded that “[t]he
littoral owner is entitled to access to navigable water
on the front of which his land lies, and, subject to
regulation and control by the federal and state
governments, has, for purposes of navigation, the right
to wharf out to navigable water.” Id. at paragraph five
of the syllabus. In that case, we also urged the General
Assembly to pass legislation that would “appropriately
provide for the performance by the state of its duty as
trustee for the purposes stated; that [would] determine
and define what constitutes an interference with public
rights, and that [would] likewise, in a spirit of justice
and equity, provide for the protection and exercise of
the rights of the shore owners.” Id. at 84. The General
Assembly did so the following year when it enacted the
Fleming Act.
{¶ 52} The Fleming Act clarified the public policy of
the state of Ohio with respect to the waters of Lake
Erie, and its pronouncement conformed to decisions of
this court dating from 1878 (Sloan). See G.C. 3699-a,
Am.H.B. No. 255, 107 Ohio Laws 587, recodified as
R.C. 123.03, and now renumbered as R.C. 1506.10. The
current version of the statute is substantially similar

App. 88
to the original statute, and notably, both refer to the
“natural shore line.”
{¶ 53} At present, R.C. 1506.10 provides: “It is
hereby declared that the waters of Lake Erie consisting
of the territory within the boundaries of the state,
extending from the southerly shore of Lake Erie to the
international boundary line between the United States
and Canada, together with the soil beneath and their
contents, do now belong and have always, since the
organization of the state of Ohio, belonged to the state
as proprietor in trust for the people of the state, for the
public uses to which they may be adapted, subject to
the powers of the United States government, to the
public rights of navigation, water commerce, and
fishery, and to the property rights of littoral owners,
including the right to make reasonable use of the
waters in front of or flowing past their lands. Any
artificial encroachments by public or private littoral
owners, which interfere with the free flow of commerce
in navigable channels, whether in the form of wharves,
piers, fills, or otherwise, beyond the natural shoreline
of those waters, not expressly authorized by the
general assembly, acting within its powers, or pursuant
to section 1506.11 of the Revised Code, shall not be
considered as having prejudiced the rights of the public
in such domain. This section does not limit the right of
the state to control, improve, or place aids to navigation
in the other navigable waters of the state or the
territory formerly covered thereby.”
{¶ 54} Subsequently, in State ex rel. Squire v.
Cleveland (1948), 150 Ohio St. 303, 337, 38 O.O. 161,
82 N.E.2d 709, we held that the Fleming Act did “not

App. 89
change the concept of the declaration of the state’s title
as [declared in Cleveland & Pittsburgh RR. Co., 94
Ohio St. 61, 113 N.E. 677].” Instead, the act merely
reiterated this court’s pronouncement in that case.
Thus, we reaffirmed that “littoral owners of the upland
have no title beyond the natural shore line; they have
only the right of access and wharfing out to navigable
waters.” Squire at 337. From that holding, it follows
that the converse is also true: if a littoral owner has no
property rights lakeward of the natural shoreline, then
the territory of the public trust does not extend
landward beyond the natural shoreline. Hence, our
review centers on the term “natural shoreline.”
{¶ 55} Not long after our opinion in Squire, the
General Assembly, in 1955, enacted R.C. 123.031 in
Am.Sub.S.B. No. 187, 126 Ohio Laws 137, 138, which
has since been amended and renumbered as R.C.
1506.11. R.C. 123.031 defined the “territory” of the
public trust with reference to the “natural shore line.”
The current version of the statute also includes that
reference point, defining the term “territory” to mean
“the waters and the lands presently underlying the
waters of Lake Erie and the lands formerly underlying
the waters of Lake Erie and now artificially filled,
between the natural shoreline and the international
boundary line with Canada.” R.C. 1506.11.
{¶ 56} As noted previously, the General Assembly
enacted the Fleming Act a year after this court urged
it to pass legislation defining what constitutes an
interference with public rights, and, therefore, we
presume it did so mindful of the common law. We
likewise presume that the General Assembly acted

App. 90
with full knowledge of the common law when it
subsequently amended and added sections to the
Fleming Act. Accordingly, we conclude that when the
General Assembly defined the boundary of the
“territory” of the public trust as the “natural shoreline,”
it ascribed a meaning to that term consistent with the
meaning set forth in this court’s decisions, including
Sloan.
{¶ 57} The boundary of the public trust does not,
however, as the court of appeals concluded in affirming
the trial court, change from moment to moment as the
water rises and falls; rather, it is at the location where
the water usually stands when free from disturbing
causes. That is what we stated in Sloan, that is what
has been understood for more than a century in Ohio,
that is what the General Assembly meant by “natural
shore line” when it enacted G.C. 3699-a in 1917, and
that is what the law was when ODNR began to enforce
the leasing policy, which it has since abandoned,
having recognized the presumptive validity of the
owners’ deeds. We see no reason to modify that law
now.
{¶ 58} Finally, the decision of the court of appeals
erroneously intimated that a littoral-property owner
might extend lakefront property with the addition of
artificial fill. Merrill, 2009-Ohio-4256, ¶ 127. According
to representations in their briefs, the parties generally
agree that artificial fill cannot extend a littoral owner’s
property, except where a littoral owner reclaims land
stripped away because of sudden changes caused by
avulsion. Additionally, the parties acknowledge that
while accretion may increase the property of a littoral

App. 91
owner, erosion may decrease it. Cf. State ex rel. Duffy
v. Lakefront E. Fifty-Fifth St. Corp. (1940), 137 Ohio St.
8, 11, 17 O.O. 301, 27 N.E.2d 485; United States v.
461.42 Acres of Land in Lucas Cty., Ohio (N.D.Ohio
1963), 222 F.Supp. 55, 56. Thus, we need not further
comment on or clarify the effect of these processes on
the property line because the parties generally have no
dispute regarding them.
{¶ 59} Accordingly, the territory of Lake Erie held
in trust by the state of Ohio for the people of the state
extends to the natural shoreline, which is the line at
which the water usually stands when free from
disturbing causes.
{¶ 60} This court has a history of protecting
property rights, and our decision today continues that
long-standing precedent. In Cleveland & Pittsburgh
RR. Co., 94 Ohio St. 61, 113 N.E. 677, syllabus, this
court acknowledged that a littoral owner has a right to
access and wharf out to navigable waters, and in
Squire, we held that if the state or a municipality
improperly destroys or impairs that property right, a
littoral owner is entitled to compensation. 150 Ohio St.
303, 38 O.O. 161, 82 N.E.2d 709, paragraph six of the
syllabus. We recently reiterated our adherence to the
principles that protect property rights in Norwood v.
Horney, 110 Ohio St.3d 353, 2006-Ohio-3799, 853
N.E.2d 1115, ¶ 37, where we explained that “the
founders of our state expressly incorporated individual
property rights into the Ohio Constitution in terms
that reinforced the sacrosanct nature of the individual’s
‘inalienable’ property rights, Section 1, Article I [Ohio
Constitution], which are to be held forever ‘inviolate.’

App. 92
Section 19, Article I.” (Footnote deleted.) Id. We further
observed that Ohio has always considered property
rights to be fundamental and concluded that “the
bundle of venerable rights associated with property is
strongly protected in the Ohio Constitution and must
be trod upon lightly, no matter how great the weight of
other forces.” Id. at ¶ 38.
{¶ 61} During the pendency of this litigation, ODNR
announced that it “should honor the apparently valid
real property deeds of the plaintiff-relator lakefront
owners unless a court determine[d] that the deeds are
limited by or subject to the public’s interests in those
lands or are otherwise defective or unenforceable.” It
further represented that it “will adopt or enforce
administrative rules and regulatory policies with the
assumption that the lakefront owners’ deeds [are]
presumptively valid, and also, will no longer require
property owners to lease land contained within their
presumptively valid deeds.”
{¶ 62} Our decision today reaffirms this court’s
previous determination that the territory of the public
trust in Lake Erie extends to the natural shoreline,
which is the line at which the water usually stands
when free from disturbing causes, which we first
announced in 1878 and clarified in 1916, and which the
General Assembly codified in 1917. Nothing contained
in our opinion interferes with the presumptively valid
deeds of the lakefront owners. Similarly, we reaffirm
our statement in Squire that “[t]he littoral owners of
the upland have no title beyond the natural shoreline;
they have only the right of access and wharfing out to
navigable waters.” Id. at 337.

App. 93
Conclusion
{¶ 63} The state of Ohio has standing to appeal
from a judgment when it is an independent party to an
action and has been aggrieved by the final order from
which it seeks to appeal. In addition, the National
Wildlife Federation and the Ohio Environmental
Council are proper intervening parties to this lawsuit
pursuant to Civ.R. 24. Further, we conclude that the
territory of Lake Erie, held in trust by the state of Ohio
for the people of the state, extends to the natural
shoreline, which is the line at which the water usually
stands when free from disturbing causes.
{¶ 64} Consequently, we reverse the holding of the
court of appeals that the state of Ohio lacked appellate
standing, but we affirm its holding that upheld the
decision to permit the National Wildlife Federation and
the Ohio Environmental Council to intervene pursuant
to Civ.R. 24(B)(2).
{¶ 65} Having clarified that the territory of Lake
Erie is held in trust for the people of Ohio and extends
to the natural shoreline, the line at which the water
usually stands when free from disturbing causes, we
affirm the appellate court to the extent that its
judgment is consistent with this pronouncement, but
we reverse its decision implying that artificial fill can
alter the boundary of the public trust and its decision
to affirm the trial court’s decision that the boundary of
the public trust changes from moment to moment. This
matter is remanded to the trial court for further
proceedings on pending claims consistent with this
opinion.

App. 94
Judgment accordingly.
PFEIFER, LUNDBERG STRATTON, CUPP, and MCGEE
BROWN, JJ., concur.
O’CONNOR, C.J., and LANZINGER, J., concur in
syllabus and judgment only.
_________________
Homer S. Taft, pro se.
Calfee, Halter & Griswold, L.L.P., James F. Lang,
and Fritz E. Berckmueller, for appellee class-action
plaintiffs.
L. Scot Duncan, pro se, and for appellee Darla J.
Duncan.
Michael DeWine, Attorney General, Alexandra T.
Schimmer, Chief Deputy Solicitor General, Stephen P.
Carney, Deputy Solicitor, and Cynthia K. Frazzini,
Assistant Attorney General, for appellant and
cross-appellee state of Ohio.
Porter, Wright, Morris & Arthur, L.L.P., and
Kathleen M. Trafford, Special Counsel for appellants
and cross-appellees Ohio Department of Natural
Resources and Director David Mustine.
Neil S. Kagan and Peter A. Precario, for appellants
and cross-appellees National Wildlife Federation and
Ohio Environmental Council.
Chester, Willcox & Saxbe, L.L.P., Charles R. Saxbe,
and Gerhardt A. Gosnell II, in support of the state’s
first proposition of law on behalf of amici curiae former

App. 95
Ohio Attorneys General Betty Montgomery, Jim Petro,
and Nancy Rogers.
Michael A. Cox, Attorney General of Michigan, B.
Eric Restuccia, Solicitor General, S. Peter Manning,
Division Chief, and Robert P. Reichel and Darryl J.
Paquette, Assistant Attorneys General; and Thomas W.
Corbett Jr., Attorney General of Pennsylvania, in
support of the state of Ohio on behalf of amici curiae
the states of Michigan and Pennsylvania.
The Law Office of Colin Bennett, L.L.C., and Colin
William Bennett, in support of appellants and
cross-appellees on behalf of amici curiae Joseph
Sommer, Frances Buchholzer, Robert Teater, Ohio
Bass Federation, Izaak Walton League of America,
Ohio Chapter, and Northeast Ohio Watershed Council.
R. S. Radford and Luke A. Wake; and Michael R.
Gareau & Associates Co., L.P.A., and David M. Gareau,
in support of appellees on behalf of amicus curiae,
Pacific Legal Foundation.
John P. O’Donnell, L.L.C., and John P. O’Donnell;
and Baker & Hostetler, L.L.P., and John H. Burtch,
urging affirmance on behalf of amici curiae Willow
Beach Club, Brookwood-Cresthaven Beach Club, Inc.,
the Linwood Park Company, and the Ohio Association
of Realtors.
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.,
Bruce G. Heare y, and LerVal M. Elva, in support of
appellees on behalf of amicus curiae National
Federation of Independent Business Small Business
Legal Center.

App. 96
Michael E. Gilb, urging affirmance on behalf of
amicus curiae Geauga Constitutional Council.
Smith, Martin, Powers & Knier, P.C., and David L.
Powers, in support of class-action plaintiffs on behalf of
amicus curiae Save Our Shoreline.
Chad A. Endsley, in support of class-action
plaintiffs on behalf of amicus curiae Ohio Farm Bureau
Federation.
Faulkner, Muskovitz & Phillips and Robert M.
Phillips; and Patrick A. D’Angelo, urging affirmance on
behalf of amici curiae Ohio Fraternal Order of Police
Lodge 8 and Cleveland Police Patrolmen’s Association.
Montgomery Consulting Group, L.L.C., Betty
Montgomery, opposing the state’s second proposition of
law on behalf of amicus curiae Betty Montgomery.
Shannon Lee Goessling, in support of class-action
plaintiffs on behalf of amicus curiae Southeastern
Legal Foundation, Inc.
Maurice A. Thompson, urging affirmance on behalf
of amicus curiae 1851 Center for Constitutional Law.
______________________

App. 97

APPENDIX H
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
CASE NO. 04CV001080
JUDGE EUGENE A. LUCCI
[Filed: October 24, 2016]
__________________________________________
STATE EX REL. ROBERT MERRILL,
)
TRUSTEE, et al.
)
)
Plaintiffs
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.
)
)
Defendants
)
__________________________________________)
ORDER AND FINAL JUDGMENT
This matter came for hearing on October 21, 2016
(the “Settlement Hearing”), on the application of the
Settling Parties to determine whether the terms and
conditions of the Stipulation of Settlement dated May
26, 2016 (the “Stipulation”) providing for the
settlement (the “Settlement”) of all claims asserted by
Plaintiffs Ohio Lakefront Group, Inc. (“OLG”), Robert
Merrill, Trustee, Anthony J. Yankel, Charles S. Tilk,

App. 98
Sheffield Lake, Inc., Sandra L. Wade, David A. Zeber,
Patricia French, and Neil Luoma, and the Settlement
Class (collectively, “Plaintiffs”); against the State of
Ohio, the Ohio Department of Natural Resources
(“ODNR”), and the Director of ODNR (collectively,
“Defendants” and together with Plaintiffs, the “Parties”
or the “Settling Parties”) in the above-captioned
litigation (the “Action”) now pending in this Court
should be approved; and whether judgment should be
entered dismissing the complaint on the merits and
with prejudice, and releasing the Released Plaintiffs’
Claims as against all Released Defendant Parties.
The Court having considered all matters submitted
to it at the Settlement Hearing and otherwise; and it
appearing that a notice of the Settlement Hearing
substantially in the form approved by the Court was
distributed in accordance with the manner of
distribution approved by the Court.
NOW, THEREFORE,
ORDERED THAT:

IT

IS

HEREBY

1. This Order and Final Judgment incorporates by
reference the definitions in the Stipulation and all
capitalized terms used herein shall have the same
meanings as set forth in the Stipulation unless
otherwise defined herein.
2. This Court has jurisdiction to enter this
Judgment. This Court has jurisdiction over the subject
matter of the Action, including all matters necessary to
effectuate the Settlement, and over all Settling Parties.
3. This Court hereby finds that notice of the
Settlement was provided pursuant to and in the form

App. 99
and manner directed by the Preliminary Approval
Order and that the form and manner of notice given to
Settlement Class members are hereby determined to
have been the best notice practicable under the
circumstances and constituted due and sufficient notice
to all persons entitled to receive such notice in
compliance with the provisions of Rule 23 of the Ohio
Rules of Civil Procedure and the requirements of due
process.
4. Pursuant to and in compliance with due process,
this Court hereby finds that the notice provided
advised persons and entities in interest of the terms of
the Settlement, and of their right to object thereto, and
a full and fair opportunity was accorded to all persons
and entities in interest to be heard with respect to the
foregoing matters. Accordingly, it is hereby determined
that all members of the Settlement Class are bound by
this Judgment entered herein.
5. This Court finds that this action is properly
maintained as a class action under Rule 23 of the Ohio
Rules of Civil Procedure and that the Class
Representatives fairly and adequately represented the
interests of Settlement Class members. Class Counsel
is authorized to act on behalf of all Settlement Class
members with respect to all acts required by the
Stipulation or such other acts which are reasonably
necessary to consummate the Settlement set forth in
the Stipulation.
6. This Court finds that the Settlement is, in all
respects, fair, reasonable, and adequate, and in the
best interests of the Settlement Class, and hereby
approves the Settlement as set forth in the Stipulation.

App. 100
This Court further finds that the Settlement set forth
in the Stipulation is the result of arm’s-length
negotiations between experienced counsel representing
the interests of the Settling Parties. Accordingly, the
Settlement embodied in the Stipulation is hereby
approved in all respects and shall be consummated in
accordance with the terms and provisions of the
Stipulation.
7. The claims filed in the Action are hereby
dismissed with prejudice and without costs except for
the payments expressly provided for in this Judgment,
the Stipulation, the Preliminary Approval Order,
and/or any order entered by this Court regarding Class
Counsel’s request for attorneys’ fees and expenses.
8. Upon the Effective Date, Plaintiffs, on behalf of
themselves, their heirs, executors, administrators,
predecessors, successors and assigns, shall be deemed
by operation of law to have fully, finally, and forever
released, waived, discharged, and dismissed each and
every of the Released Plaintiffs’ Claims against the
Released Defendant Parties, and shall forever be
enjoined from prosecuting any Released Plaintiffs’
Claims against any of the Released Defendant Parties.
Further, Plaintiffs shall be forever enjoined from
prosecuting any claims relating in any way to the
claims administration process, the Plan of Allocation or
any distribution decisions regarding the Settlement
Amount against any of the Released Defendant Parties.
9. Upon the Effective Date, each of the Defendants,
on behalf of themselves, their heirs, executors,
administrators, predecessors, successors, and assigns,
shall be deemed by operation of law to have fully,

App. 101
finally, and forever released, waived, discharged, and
dismissed each and every of the Released Defendants’
Claims against the Released Plaintiff Parties, and shall
forever be enjoined from prosecuting any Released
Defendants’ Claims against any of the Released
Plaintiff Parties.
10. This Judgment, the Stipulation, and any
negotiations, proceedings, or agreements relating to
them shall not be offered or received against any of the
Settling Parties as evidence of or construed as or
deemed to be evidence of: (a) any liability, negligence,
fault, or wrongdoing of any of the Defendants; (b) a
presumption, concession, or admission with respect to
any liability, negligence, fault, or wrongdoing, or in any
way referred to for any other reason as against any of
the Defendants, in any other civil, criminal, or
administrative action or proceeding, other than such
proceedings as may be necessary to effectuate the
provisions of the Settlement; (c) a presumption,
concession, or admission by any of the Defendants with
respect to the truth of any fact alleged in the Action or
the validity of any of the claims or the deficiency of any
defense that was or could have been asserted in the
Action; (d) a presumption, concession, or admission by
Plaintiff of any infirmity in the claims asserted; or
(e) an admission or concession that the consideration to
be given hereunder represents the consideration which
could be or would have been recovered at trial.
11. Nothing herein, however, shall prevent any of
the Settling Parties from using this Judgment, the
Stipulation, or any document or instrument delivered
thereunder: (a) to effect or obtain Court approval of the

App. 102
Settlement; (b) to enforce the terms of the Settlement;
or (c) for purposes of defending, on the grounds of res
judicata, collateral estoppel, release, or any other
theory of claim preclusion or issue preclusion or similar
defense or counterclaim, any of the Released Plaintiffs’
Claims and any Released Defendants’ Claims released
pursuant to the Settlement.
12. This Court retains exclusive jurisdiction,
without affecting in any way the finality of this
Judgment over: (a) implementation and enforcement of
the Settlement; (b) hearing and determining Class
Counsel’s award of attorneys’ fees and reimbursement
of litigation expenses; (c) enforcing and administering
this Judgment; (d) enforcing and administering the
Stipulation including the releases granted therein; and
(e) other matters arising from or relating to the
foregoing.
13. This Court finds that throughout the course of
the Action the Settling Parties and their respective
counsel at all times complied with the requirements of
Rule 11 of the Ohio Rules of Civil Procedure and any
other applicable laws and rules.
14. This Court finds that the Action has been
properly maintained as a class action, and the Court
finds that throughout the course of the Action, the
Action was not brought by Plaintiffs or defended by
Defendants in bad faith or without a reasonable basis,
and there have been no violations or reason for
sanctions under Rule 11 of the Ohio Rules of Civil
Procedure or similar rules or codes relating to the
prosecution, defense, or settlement of the Action.

App. 103
15. This Court hereby approves Class Counsel’s
application for attorneys’ fees and expenses as set forth
in the Stipulation as fair and reasonable under the
circumstances of this litigation. Accordingly, this Comt
grants Class Counsel’s fee and expense application in
its entirety and awards $1,247,369.80 to Class Counsel
for attorneys’ fees and expenses, and finds that such
award is fair and reasonable. Payment shall be made
on behalf of Defendants in accordance with the terms
of the Stipulation.
16. This Court hereby approves Class Counsel’s
selection of Ohio Shoreline Preservation, an Ohio notfor-profit 501(c)(3) organization whose objectives are
related as closely as possible to the purposes and
remedies sought by the Action, as a reasonable and
appropriate cy pres designee for the receipt of any
remaining funds after full distribution of the
Settlement Amount to Authorized Claimants according
to the Plan of Allocation. Payment, if any, shall be
made to Ohio Shoreline Preservation only at the time
and in the manner provided for in the Plan of
Allocation.
17. In the event the Settlement is terminated or the
Effective Date cannot occur for any reason, then:
(a) the Settlement shall be without prejudice, and none
of its terms shall be effective or enforceable except as
specifically provided in the Stipulation; (b) the Settling
Parties shall be deemed to have reverted to their
respective positions in the Action immediately prior to
February 19, 2016; and, (c) except as otherwise
expressly provided, the Settling Parties shall proceed

App. 104
in all respects as if the Stipulation and any related
orders had not been entered.
18. Without further order of the Court, the Settling
Parties may agree to reasonable extensions of time to
carry out any of the provisions of the Stipulation. The
deadline for Settlement Class members to submit
Proofs of Claim, which was set as October 12, 2016, will
be extended for thirty (30) days from the entry of this
Final Judgment, until November 28, 2016.
19. This Court finds that no just reason exists for
delay in the entry of this Judgment and immediate
entry by the Clerk of the Court is expressly directed
pursuant to Rule 54(B) of the Ohio Rules of Civil
Procedure.
IT IS SO ORDERED.
FINAL APPEALABLE ORDER
Clerk to serve pursuant
to Civ.R. 58(8)
/s/
JUDGE EUGENE A. LUCCI

App. 105
Copies:
James F. Lang, Esq.
Fritz E. Berckmueller,
Esq.
Lindsey E. Sacher, Esq.
Calfee, Halter &
Griswold, LLP
Class counsel and
attorneys for PlaintiffRelators
1405 East Sixth Street
Cleveland, Ohio 441141607

Homer S. Taft, Esq.
Intervening PlaintiffRelator, pro se
20220 Center Ridge
Road, Suite 300
P.O. Box 16216
Rocky River, Ohio 44116

Daniel C. Gibson, Esq.
Anne Marie Sferra, Esq.
Ali I. Haque, Esq.
Bricker & Eckler, LLP
100 South Third Street
Columbus, OH 43215

Neil S. Kagan, Esq., Pro
Hae Vice
Attorney for intervening
defendants,
National Wildlife
Federation and
Ohio Environmental
Council
Great Lakes Natural
Resource Center
213 West Liberty Street,
Suite 200
Ann Arbor, Michigan
48104

L. Scot Duncan, Esq.
Intervening PlaintiffRelator, pro se
1530 Willow Drive
Sandusky, Ohio 44870

App. 106
Michael De Wine, Ohio
Attorney General
Michael L. Williams,
Esq., Chief Legal Officer
Ohio Attorney General’s
Office
Environmental
Enforcement Section
Ohio Department of
Natural Resources and
the State of Ohio
2045 Morse Road,
Building D-2
Columbus, Ohio 432296693

Peter A. Precario, Esq.
Attorney for intervening
defendants
National Wildlife
Federation and Ohio
Environmental Council
2 Miranova Place, Suite
500
Columbus, Ohio 43215

App. 107

APPENDIX I
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
Case No. 04CV001080
Judge Eugene A. Lucci
[Filed: May 29, 2018]
__________________________________________
STATE EX REL. ROBERT
)
MERRILL, TRUSTEE et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Defendants.
)
__________________________________________)
ORAL ARGUMENT REQUESTED
DEFENDANTS’ MOTION TO ENFORCE
SETTLEMENT AND FOR CIVIL CONTEMPT
Respondents/Defendants State of Ohio, Department
of Natural Resources, the Director of Ohio Department
of Natural Resources, and the State of Ohio,
(“Defendants” or the “State Defendants”), hereby move
the Court for an Order against Plaintiff George Sortino,

App. 108
(“Sortino”): (1) enforcing the Settlement agreement and
Final Judgment that concluded this case in October
2016, and (2) holding Sortino in civil contempt for
violating this Court’s order enjoining the filing of
released claims by members of the class of plaintiffs
bound by the Settlement agreement and Final
Judgment. The grounds for this Motion are set forth in
the Memorandum in Support attached hereto.
Pursuant to Local Rule 3.04(G)(1), the State
Defendants request oral argument on this Motion.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL
/s/
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural Resources,
and the Director of Ohio Department of
Natural Resources

App. 109
MEMORANDUM IN SUPPORT
I.

INTRODUCTION

Plaintiff George Sortino, (“Sortino”) is attempting to
re-litigate in Erie County the class claims that were
fully resolved and finally dismissed in this case. He is
trying to reassert claims that Plaintiffs already filed
and litigated on behalf of all class members over a
period of twelve years, against Respondents/
Defendants State of Ohio, Department of Natural
Resources, the Director of Ohio Department of Natural
Resources, and the State of Ohio, (“Defendants” or the
“State Defendants”), which the parties ultimately
settled with this Court’s approval at a cost of more
than $6 million to Ohio taxpayers. Sortino’s effort to relitigate these claims is in direct breach of the approved
class settlement agreement, to which he is a bound
party, and in direct violation of this Court’s injunction
against the filing of released claims, to which he is
expressly subject. See, Final Judgment entered October
24, 2016, ¶¶ 6, 8 (approving the settlement and
enjoining the filing of released claims).
Moreover, although Sortino alleges in his Erie
County action that he should not be bound by the class
settlement agreement and Final Judgment entered in
this case, he has refused to submit to this Court’s
exclusive jurisdiction to decide that very issue, i.e., the
enforceability of the settlement agreement—over which
this Court expressly retained sole jurisdiction—as well
as the enforceability of the injunction—over which this,
the issuing Court, has the sole and exclusive power as
a matter of law. Instead, rather than seek relief from
the settlement and injunction through procedurally

App. 110
proper means before this Court, Sortino consciously
and willfully chose to breach the settlement and to
violate the injunction by filing released claims in Erie
County, hoping that he could convince another court to
find favor in his collateral attack upon this Court’s
valid and proper Final Judgment disposing of his
claims.
This Court should find that Sortino is in breach of
the class settlement and specifically enforce it against
him by ordering him to dismiss his Erie Complaint
with prejudice. This Court also should find Sortino in
civil contempt for violating the injunction against
prosecuting released claims, order him to dismiss the
Erie County action with prejudice, and award
Defendants their attorney fees.
II.

BRIEF STATEMENT OF FACTS AND
PROCEDURAL HISTORY

As this Court is aware, in May 2004, the plaintiffs
in this action (“Plaintiffs”) commenced the present
action against Defendants. Their complaint sought
certification of a class of plaintiffs that would include
all littoral property owners along Lake Erie’s Ohio
coast. See, Complaint. The Complaint purported to
assert claims for a declaratory judgment as to the
landward boundary of Lake Erie and for a writ of
mandamus based on the alleged unconstitutional
taking of the Plaintiffs’ property. Id. By joint
stipulation on June 8, 2006, a class was certified
pursuant to Civ. R. 23(B)(2) on June 9, 2006 solely as
to the declaratory judgment claim, and that claim was
litigated to the Ohio Supreme Court. See, Stipulation.
In September 2011 the Supreme Court held that the

App. 111
landward boundary of Lake Erie is the natural
shoreline. See, Docket.
After further litigation on remand, this Court issued
an additional Order on August 27, 2012 establishing
the natural shoreline of Lake Erie and also extending
the prior Civ. R. 23(B)(2) Count I class certification to
the Plaintiffs’ Count II claim for a writ of mandamus.
See, Aug. 27, 2012 Order. Count II sought to require
Defendants to commence appropriation proceedings
against all Lake Erie littoral owners for the purpose of
compensating them for the alleged temporary taking of
their lakefront property(ies). See, Complaint.
Defendants objected to the extension of class
certification to the mandamus claim, appealed it to the
Eleventh District, and appealed the Eleventh District’s
decision to the Supreme Court, which declined to
exercise jurisdiction over Defendants’ discretionary
appeal, and returned the case to this Court in October
2014. See, Docket.
After the parties conducted discovery and following
the filing of a motion for summary judgment by the
Plaintiffs in July 2015; the parties reached a class
action settlement, memorialized in a Stipulation of
Settlement (the “Settlement”). See, Stipulation of
Settlement, May 27, 2016. A motion seeking
preliminary approval of the Settlement was filed on
May 27, 2016, and on June 14, 2016 this Court granted
preliminary approval of the Settlement and set a
fairness hearing for October 2016. See, Docket. A true
and accurate copy of the Stipulation of Settlement,
with voluminous exhibits omitted, is attached hereto as
Exhibit A for the Court’s convenience. The fairness

App. 112
hearing ultimately was held on October 21, 2016,
where the motion for final approval was heard by this
Court, as were the objections of objecting class
members. See, Docket. On October 24, 2016, this Court
entered the Order and Final Judgment approving of
the Settlement and dismissing the action (the “Final
Judgment”). See, October 24, 2016 Order. A true and
accurate copy of the Final Judgment is attached hereto
as Exhibit B for the Court’s convenience.
In accordance with the terms of the Settlement and
Final Judgment, Defendants delivered a settlement
payment of over $6 million to the Plaintiffs/Settlement
Class on December 8, 2016. Affidavit of Cynthia
Frazzini (attached hereto as Exhibit C), ¶ 10. As part
of the approved Settlement, the Plaintiffs/Settlement
Class released all claims “directly or indirectly, relating
to or arising out of the claims asserted” in this case,
expressly agreed “not to take legal action against
[Defendants] based on any Released Plaintiffs’ Claims
following the [Settlement’s] Effective Date,” and agreed
to be “forever enjoined from prosecuting any Released
Plaintiffs’ Claims against [Defendants].” Settlement,
¶¶ 18, 28, 30. The Final Judgment then made the
injunction binding under the contempt power of the
Court by declaring that “Plaintiffs...shall forever be
enjoined from prosecuting any Released Plaintiffs’
Claims against any of the Released Defendant Parties.”
Final Judgment at ¶ 8.
Nonetheless, on January 31, 2018, Sortino filed an
action in the Erie County Court of Common Pleas (the
“Erie Complaint”) purporting to assert claims for
declaratory judgment that Defendants’ alleged

App. 113
assertion of ownership up to the ordinary high water
mark of Lake Erie constituted an unconstitutional
temporary taking, and for a writ of mandamus
obligating Defendants to commence appropriations
proceedings against all putative class members—the
very claims that had been asserted and settled with the
approval of the Court in this action just over a year
earlier. Frazzini Aff., ¶ 4; Erie Complaint. Sortino’s
Erie Complaint alleges that the Settlement and Final
Judgment are not binding upon Sortino or upon the
putative class of persons he now seeks to represent,
due to alleged procedural flaws relating to the
propriety and sufficiency of notice and certification.
Erie Complaint, ¶¶ 22-23.
In response to Sortino’s Erie Complaint, Defendants
first alerted Sortino, through counsel, to this Court’s
retention of exclusive jurisdiction over questions
concerning the enforceability of the Settlement. See,
Frazzini Aff., ¶ 5; Final Judgment, ¶ 12. After an
exchange of correspondence in which Sortino disputed
this Court’s exclusive jurisdiction, he refused to
acquiesce and Defendants were forced to file a motion
to dismiss in the Erie action due to lack of jurisdiction.
Id. at ¶¶ 5-6. On May 3, 2018, Sortino filed his
response to Defendants motion to dismiss in Erie
County and in it acknowledged that this Court has
jurisdiction to decide questions concerning the
enforceability of the Settlement, but continued to
dispute the propriety of dismissal of his Erie
Complaint, even without prejudice, and indicated that
Defendants simply needed to file a motion to enforce
the Settlement in this Court in order to invoke this
Court’s continuing jurisdiction. See, Frazzini Aff., ¶ 7.

App. 114
As a result of this acknowledgment, Defendants
then proposed to Sortino a stay of the Erie action while
a motion to enforce the Settlement would be filed and
decided in this Court. Id. at ¶ 5. But Sortino, by and
through counsel, refused to agree to stay the Erie
action pending this Court’s determination of the
enforceability of the Settlement and Final Judgment
against him. Id. So, contemporaneously with the
present Motion, Defendants have filed their reply in
support of their motion to dismiss in the Erie action, as
well as a motion to stay the Erie action while this
Court decides the present Motion, in the event the Erie
Court declines to dismiss Sortino’s Erie Complaint for
lack of jurisdiction. Id. at ¶¶ 8-9.
Defendants now seek an order from this Court
enforcing the Settlement, finding Sortino in contempt
for violation of this Court’s injunction against the
prosecution of Released Claims, and an award of
attorney fees as a result of the contempt and breach.
III.

APPLICABLE LAW

The Ohio Supreme Court has declared that “[i]t is
axiomatic that a settlement agreement is a contract
designed to terminate a claim by preventing or ending
litigation and that such agreements are valid and
enforceable by either party.” Continental W. Condo.
Unit Owners Ass’n v. Howard E. Ferguson, Inc., 74
Ohio St. 3d 501, 502 (1996). When the agreement is
entered into in the presence of the trial court, and
especially when reduced to writing and adopted as the
court’s judgment, there is no question that “the
agreement is a binding contract and may be enforced.”
Bolen v. Young, 8 Ohio App. 3d 36, 37 (10th Dist. 1982).

App. 115
The Supreme Court has also stated unequivocally that
“settlements are highly favored in the law.” Ferguson
at 502. See also, Thirion v. Neumann, 11 Dist.
Ashtabula No. 2004-A-0032, 2005-Ohio-4486, ¶ 17;
State v. Lomaz, 11 Dist. Portage No. 2002-P-0118,
2006-Ohio-3886, ¶ 32. Factual questions in the
enforcement of a settlement agreement are resolved
within the sound discretion of the trial court, while
legal questions are reviewed, if appealed, de novo.
Thirion at ¶¶ 14, 18, 21.
In addition, “[a] person guilty of disobedience of, or
resistance to, a lawful order or command of a court may
be punished for contempt of court.” Lalli v. Lalli, 11
Dist. Ashtabula No. 98-A-0096, 2001 Ohio App. LEXIS
1231, *7 (Mar. 16, 2001). See also, R.C. § 2727.11. “The
contempt power is inherent in a court because it is
necessary to the exercise of the judicial function.” Id.
(citing Denovcheck v. Bd. Of Trumbull Cty. Commrs.,
36 Ohio St. 3d 14, 15 (1988)). Indirect, civil contempt is
“an act committed outside the presence of the court but
which also tends to obstruct the due and orderly
administration of justice” and “is a violation which on
the surface is an offense against the party for whose
benefit the order was made.” Id. (citations omitted). “A
finding of civil contempt may be made upon clear and
convincing evidence....” ConTex v. Consolidated Tech.,
Inc., 40 Ohio App. 3d 94, 95 (1st Dist. 1988). Moreover,
an intentional violation is not required for civil
contempt, and “the contemnor may even have acted
innocently and still be guilty of civil contempt.” Armco,
Inc. v. USW, 5th Dist. Richland No. 00-CA-95, 2001
Ohio App. LEXIS 2982, *78 (Jun. 21, 2001) (citing Pugh
v. Pugh, 15 Ohio. St. 3d 136, 140 (1984) and Windham

App. 116
Bank v. Tomaszczyk, 27 Ohio St. 2d 55 (1971), syllabus
3).
IV.

ARGUMENT
A. Sortino is a party to the Settlement and
Final Judgment

Sortino is a party to the Settlement and Final
Judgment. He is a defined “Plaintiff’ and member of
the “Settlement Class,” and this Court expressly held
such defined persons to be bound by both the
Settlement and the Final Judgment. The Final
Judgment specifically “incorporates by reference the
definitions in the Stipulation [of Settlement]...,” and
binds all members of the Settlement Class to its terms.
Final Judgment at ¶¶ 1, 4. The Settlement itself
defines the “Parties” to it as “Plaintiffs and
Defendants,” defines Plaintiffs as “OLG [Ohio
Lakefront Group] and the Settlement Class,” and
defines the “Settlement Class” as “all persons, as
defined in R.C. 1506.01(D), excepting the State and any
state agency as defined in R.C. 1.60, who are owners of
littoral property bordering Lake Erie (including
Sandusky Bay and other estuaries previously
determined to be a part of Lake Erie under Ohio law)
within the territorial boundaries of the State of Ohio.”
Settlement at ¶¶ 11, 12, 21.
By his own allegations in the Erie Complaint,
Sortino is and was at all relevant times “an owner of
record of certain real property abutting Lake Erie...in
Erie County, Ohio,” and he seeks to represent a class of
“private littoral owners of parcels of real property
abutting Lake Erie within the State of Ohio,” though

App. 117
whom he argues are not subject to the Settlement on
various procedural grounds. Erie Complaint at ¶¶ 2,
24. As a result, Sortino clearly falls within the
definition of the “Settlement Class” and the definition
of “Plaintiffs.” As this Court declared in October 2016,
“it is hereby determined that all members of the
Settlement Class are bound by this Judgment entered
herein,” and that “the Settlement embodied in the
Stipulation is hereby approved in all respects....” Final
Judgment at ¶¶ 4, 6 (emphases added).1

1

Sortino purports to allege in the Erie Complaint various
reasons—all of which are expressly precluded by this Court’s
findings in its Final Judgment—why the Settlement and Final
Judgment are purportedly procedurally deficient and thus not
binding on him. See, e.g., Erie Complaint, ¶¶ 22-23; Final
Judgment at ¶¶ 3-6 and Settlement at ¶¶ 26 (approving the
Settlement in all respects, finding certification under Civ. R.
23(B)(2) proper, and finding that the notice given to the class
satisfied Rule 23 and constitutional due process). However,
Defendants are not required to speculate about the arguments that
Sortino might make in response to this Motion, and Sortino is
neither bound by nor limited to the allegations in his Erie
Complaint in defense of this Motion. As a result, Defendants have
established in this Motion the prima facie grounds for enforcement
of the Settlement and for a finding of civil contempt against
Sortino and will respond in their reply brief to any arguments
Sortino might make in defense of this Motion. Moreover, to the
extent Sortino may assert defenses to this Motion that depend on
or relate to factual matter not already in this Court’s record,
Defendants hereby reserve the right to seek leave to conduct any
necessary fact discovery prior to filing their reply brief.

App. 118
B. Sortino has breached the Settlement by
filing Released Claims against
Defendants
The Settlement provides that “Plaintiffs agree not
to take legal action against the Released Defendant
Parties based on any Released Plaintiffs’ Claims
following the Effective Date [October 24, 2016].”
Settlement at ¶ 28. The “Released Plaintiffs’ Claims”
are defined as all claims “directly or indirectly relating
to or arising out of the claims asserted in [this] Action,
including any acts taken (such as trespass or taking of
real property) by the State or ODNR with regard to
claiming public trust ownership of real property
landward of the natural shoreline....” Settlement at
¶ 18.
On January 31, 2018, after the Effective Date of the
Settlement, Sortino, a defined “Plaintiff’ and member
of the “Settlement Class” and party to the Settlement
and Final Judgment, filed his Complaint commencing
the Erie County action. See, Frazzini Aff. at ¶ 4; Erie
Complaint. The Erie Complaint purports to assert
claims seeking a declaratory judgment (Count I) that
ODNR asserted ownership over Sortino’s littoral
property landward of the natural shoreline in a manner
that constitutes an unlawful taking of his property and
seeking a writ of mandamus (Count II) for inverse
takings ordering ODNR to commence appropriations
proceedings for the alleged temporary taking of his
property. Erie Complaint, ¶¶ 31-37. As this Court is
aware, these are the precise claims resolved by the
Settlement and Final Judgment in this case and fall

App. 119
squarely within the Released Plaintiffs’ Claims that
Plaintiffs/the Settlement Class agreed not to pursue.
By filing Released Claims against Defendants, it is
beyond reasonable dispute that Sortino has breached
the Settlement.
C. Sortino is violating the Court’s
injunction by filing and prosecuting
Released Claims against Defendants
“In order to show a contempt, it is necessary to
establish a valid court order, knowledge of the order,
and violation of it. In civil contempt, intent to violate
the order need not be proved.” Arthur Young & Co. v.
Kelly, 68 Ohio App. 3d 287, 295 (10th Dist. 1990). The
Final Judgment provides that, “[u]pon the Effective
Date, Plaintiffs...shall be deemed by operation of law to
have fully, finally and forever released, waived,
discharged and dismissed each and every one of the
Released Plaintiffs’ claims against the Released
Defendant Parties, and shall forever be enjoined from
prosecuting any Released Plaintiffs’ Claims against any
of the Released Defendant Parties.” Final Judgment at
¶ 8.
As noted above, Sortino filed the Erie Complaint
asserting Released Claims against Defendants on
January 31, 2018, and has been prosecuting those
claims against Defendants ever since, in violation of
this Court’s injunction contained in the Final
Judgment. Sortino’s actions constitute civil contempt.
Specifically, there is no dispute that the Final
Judgment constitutes a valid, prior order of this Court.
Arthur Young at 295. See also, discussion infra (noting

App. 120
Sortino’s acknowledgment of the validity of the Final
Judgment and the law of void versus voidable
injunctions). Nor can there be any dispute that Sortino
had knowledge of the prior order, since his Erie
Complaint contains extensive allegations about the
proceedings in this case and the Final Judgment. Id.;
Erie Complaint at ¶¶ 15-23. And it is beyond dispute
that the Final Judgment specifically enjoins Plaintiffs,
defined to include Sortino, from prosecuting against
Defendants any Released Plaintiffs’ Claims, including
precisely the claims Sortino has asserted in the Erie
Action. Final Judgment at ¶ 8.
By filing Released Claims against Defendants, it is
beyond reasonable dispute that Sortino has violated
this Court’s injunction in the Final Judgment and
should, therefore, be held in contempt. Moreover, as
noted above, Sortino has not only filed Released Claims
in Erie County, but he also has refused to consent to
this Court’s exclusive jurisdiction over the issues of
enforceability of the Settlement and Final Judgment
raised in his Erie Complaint (by not first seeking relief
in this Court), and he has even refused to stay the Erie
case while this Motion is decided. As a result, and even
though intent is not an element of civil contempt,
Sortino has demonstrated a conscious and willing
disregard for this Court’s authority. He has
intentionally chosen to force Defendants to incur the
costs of defending against Released Claims, and rather
than seek relief from the Final Judgment in this Court,
he has chosen instead to violate this Court’s injunction
in the hopes that his collateral attack upon the Final
Judgment ultimately prevails in another court.

App. 121
But even if Sortino somehow establishes procedural
infirmity of the Final Judgment, because he expressly
alleges that the order itself is not void and argues only
that it is procedurally defective and thus cannot validly
bind him and the other putative class members he
seeks to represent, Sortino is in contempt regardless of
whether his legal arguments carry the day. See, Erie
Complaint, ¶¶ 23-24. This is because, in the context of
contempt, “the general rule [is] that, unless it is void,
an order must be obeyed until it is set aside by orderly
and proper proceedings.” Arthur Young at 295
(citations omitted). See also, State, ex rel. Beil v. Dota,
168 Ohio St. 315, 322 (1958) (distinguishing void from
voidable injunctions and the difference between
asserting that a court had no power at all over the
subject matter of the injunction and the claim that it
exercised the power it had improperly by issuing an
injunction that exceeds its power or in a procedurally
improper manner). Simply put, Sortino is consciously
and willfully acting in contempt.
D. Defendants are entitled to specific
performance, an order of contempt, and
an award of attorney fees
Sortino should be ordered to dismiss his Erie
Complaint with prejudice immediately. First, Sortino’s
breach of the Settlement, to which he is a party,
entitles Defendants to such an order. Settlement at
¶ 28. In fact, the Settlement specifically acknowledges
that the Plaintiffs even agreed to be enjoined, i.e., that
they “shall forever be enjoined from prosecuting any
Released Plaintiffs’ Claims against [Defendants].” Id.
at ¶ 31. Moreover, precisely because the claims in

App. 122
question have been released and are barred, there is no
point in permitting the continuing breach and no
adequate relief can be accorded by law, monetary or
otherwise, absent an order of specific performance to
terminate the Released Claims. See, e.g., Wells v.
Cornelius, 12 Dist. Butler No. CA89-12-169, 1990 Ohio
App. LEXIS 3839, *9 (Sept. 4, 1990)(discussing when
specific performance is appropriate on motions to
enforce settlement agreements).
Second, even though Sortino’s act of contempt may
be punishable, in civil contempt, “the contemnor must
have the opportunity to purge the contempt.” Lalli at
*7-8. As a result, an order mandating that Sortino
dismiss his Erie Complaint also would serve to provide
him with the opportunity to purge his contempt, before
he is sanctioned for his disobedience. See also, R.C.
§ 2727.12 (setting forth remedies available in cases of
violation of an injunction).
Finally, Defendants should be awarded the fees that
they have expended in defending against the Released
Claims and in enforcing the Settlement and Final
Judgment against Sortino. See, e.g., id. (noting that a
court may order a conternnor to “make immediate
restitution to the party injured”); Planned Parenthood
Ass’n of Cincinnati v. Project Jericho, 52 Ohio St. 3d 56,
67 (1990) (“A trial court may, within its discretion,
include attorney fees as part of the costs taxable to a
defendant found guilty of civil contempt” (citing State,
ex rel. Fraternal Order of Police v. Dayton, 49 Ohio St.
2d 219 (1977), syllabus)).
Sortino chose to advance a collateral attack against
the enforceability of this Court’s Final Judgment, not

App. 123
via a motion for relief from judgment in this Court,
where exclusive jurisdiction had been retained, but
rather by filing a Released Claim in another court in
direct violation of this Court’s injunction. He then
resisted dismissal (even without prejudice) or even
transfer of the improper claim(s) to this Court, while
also refusing to agree to stay the Erie action pending a
decision from this Court on this threshold legal issue.
In short, Sortino consciously chose to violate this
Court’s Order and to force Defendants to incur the
costs of defending against that violation, rather than
first seeking to have the injunction and/or Final
Judgment “set aside by orderly and proper
proceedings.” Arthur Young at 295. Especially where
the taxpayers of this State have already paid in excess
of $6 million to fully resolve the very claims that
Sortino is attempting to reassert—in direct violation of
this Court’s valid Final Judgment—Sortino should be
the one to bear the costs of his contempt.
V.

CONCLUSION

For the foregoing reasons, Defendants respectfully
request that this Court issue an Order finding Sortino
in breach of the Settlement and in contempt of court for
violating the injunction in the Final Judgment, and
ordering Sortino to dismiss with prejudice his Erie
Complaint and to pay Defendants’ attorney fees
expended to date as a result of his breach of the
agreement and contempt of this Court’s Order.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL

App. 124
/s/ Daniel C. Gibson
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural
Resources, and the Director of Ohio
Department of Natural Resources

App. 125
CERTIFICATE OF SERVICE
The undersigned does hereby certify that a copy of
the foregoing DEFENDANTS’ MOTION TO ENFORCE
SETTLEMENT AND FOR CIVIL CONTEMPT was
served upon the following by regular U.S. mail, postage
prepaid, this 25th day of May, 2018:
James F. Lang
Fritz E. Berckmueller
Lindsey E. Sacher
The Calfee Building
1405 East Sixth Street
Cleveland, Ohio 44114-1607
Peter A. Precario
2 Miranova Place, Suite 500
Columbus, Ohio 43215
Homer S. Taft
20220 Center Ridge Road, Suite 300
P.O. Box 16216
Rocky River, Ohio 44116
L. Scot Duncan
1530 Willow Drive
Sandusky, Ohio 44870
Neil S. Kagan
National Wildlife Federation
625 South State Street
745 Legal Research
Ann Arbor, Michigan 48109

App. 126
Margaret M. Murray
111 East Shoreline Drive
Sandusky, OH 44870
/s/ Daniel C. Gibson
Daniel C. Gibson

App. 127
EXHIBIT A
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
Case No. 04CV001080
Judge Eugene A. Lucci
[Filed: May 27, 2016]
__________________________________________
STATE EX REL. ROBERT MERRILL,
)
TRUSTEE et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Defendants.
)
__________________________________________)
STIPULATION OF SETTLEMENT
This Stipulation and Agreement of Settlement (the
“Stipulation”) is submitted pursuant to Rule 23.1 of the
Ohio Rules of Civil Procedure. Subject to the approval
of the Court, this Stipulation is entered into between
and among Plaintiffs and Defendants, each by and
through their respective counsel.
I.

WHEREAS:

A. On May 28, 2004, OLG and the Class
Representatives filed a Complaint for Declaratory

App. 128
Judgment, Mandamus and Other Relief against
Defendants in the Action.
B. On July 2, 2004, the Class Representatives filed
a First Amended Complaint for Declaratory Judgment,
Mandamus, and Other Relief (the “First Amended
Complaint”) against Defendants in the Action.
C. Count I of the First Amended Complaint sought
a declaratory judgment regarding the landward
boundary of the State’s public trust interest in Lake
Erie. Count II of the First Amended Complaint
requested a writ of mandamus to compel ODNR to
commence appropriation proceedings to determine the
amount of compensation due for the State’s alleged
taking of property resulting from its claim that it held
title in trust to all lands lakeward of the Ordinary High
Water Mark (the “OHWM”) of Lake Erie.
D. On or about February 23, 2005, Defendants filed
an Answer, Counterclaim and Cross-claim in the
Action.
E. The trial court issued an order on June 9, 2006
certifying a class for purposes of Count I of the First
Amended Complaint. The court identified the class as:
[A]ll persons, as defined in R.C. 1506.01(D),
excepting the State of Ohio and any state agency
as defined in R.C. 1.60, who are owners of
littoral property bordering Lake Erie (including
Sandusky Bay and other estuaries previously
determined to be a part of Lake Erie under Ohio
law) within the territorial boundaries of the
State of Ohio.

App. 129
F. Count I of the First Amended Complaint was
resolved for the most part by the Ohio Supreme Court
on September 14, 2011, in State ex rel. Merrill v. Ohio
Dept. of Natural Resources, 2011-Ohio-4612.
G. On remand, the trial court ordered additional
relief related to Count I, including that Defendants
return all submerged land lease rental payments
between OHWM and the natural shoreline paid
between 1998 and the date of the order. The trial court
also determined that Class Representatives were
prevailing parties on Count I for purposes of obtaining
payment of attorneys’ fees. The State disputed each of
these orders. This Stipulation is intended in part to
resolve the Parties’ disputes regarding these orders.
H. Class Representatives and Class Counsel believe,
based upon their investigation, their review and
assessment of the facts and circumstances, and the
documents and information produced by Defendants,
that the claims asserted in the Action have merit.
However, Plaintiffs are mindful of the inherent
problems of proof of, and possible defenses to, the
allegations asserted in the Action, and recognize and
acknowledge the expense and length of continued
proceedings necessary to prosecute the Action through
trial and anticipated appeals, as well as any further
appropriations proceedings. Class Representatives also
have taken into account the uncertain outcome and the
risk of any litigation, as well as the difficulties and
delays inherent in such litigation.
I. Under the circumstances, Class Representatives
and Class Counsel have concluded that the terms and
conditions of this Stipulation are fair, reasonable and

App. 130
adequate to the Settlement Class and have agreed to
settle the claims raised in the Action pursuant to the
terms and provisions of this Stipulation, after
considering (i) the benefits that the Settlement Class
will receive from resolution of the Action on the terms
set forth herein; (ii) the uncertainty that a trial on the
merits could result in a judgment providing members
of the Settlement Class the same or substantially the
same benefits; (iii) the attendant costs, risks and
uncertainty of continued litigation; and (iv) the
desirability of permitting the Settlement to be
consummated without delay as provided by the terms
of this Stipulation.
J. The Defendants expressly have denied and
continue to deny all allegations of any wrongdoing or
liability against them whatsoever arising out of any of
the conduct, statements, acts or omissions alleged in
the Action. Defendants do not in any way acknowledge
any wrongdoing, fault or liability. This Stipulation and
all related documents are not, and shall not in any
event be construed or deemed to be, evidence of fault or
liability or wrongdoing or damage whatsoever, or any
infirmity in either Plaintiffs’ claims or any of
Defendants’ defenses thereto. Nonetheless, the
Defendants have concluded that further conduct of the
Action would be protracted, time-consuming, expensive
and distracting, and that it is desirable that the Action
be fully and finally settled. The Defendants also have
taken into account the costs, uncertainty and risks
inherent in any litigation, especially complex cases like
the Action. The Defendants have, therefore,
determined that it is desirable and beneficial that the

App. 131
Action be settled in the manner and upon the terms
and conditions set forth in this Stipulation.
K. The Settling Parties and their counsel believe
that the proposed Settlement is in the best interests of
all of the Settling Parties, and confers substantial
benefits upon the Settlement Class.
NOW THEREFORE, IT IS STIPULATED AND
AGREED, by and among the Settling Parties, through
their respective counsel, subject to approval of the
Court, after consideration of the above and in
consideration of the benefits flowing to the Settling
Parties from the Settlement, that all of the Released
Plaintiffs’ Claims against the Released Defendant
Parties, and all of the Released Defendants’ Claims
against the Released Plaintiff Parties, shall be
compromised, settled, released and dismissed with
prejudice, upon and subject to the following terms and
conditions:
II.

DEFINITIONS

As used in this Stipulation, the following terms
shall have the meanings specified below:
1. “Action” means the consolidated action pending
in the Court, entitled State ex rel. Robert Merrill,
Trustee, el al. v. State of Ohio, Department of Natural
Resources, et al., Case Nos. 04 CV 001080 and 04 CV
001081.
2. “Class Representatives” means Robert Merrill,
Trustee; OLG; Anthony J. Yankel; Charles S. Tilk;
Sheffield Lake, Inc.; Sandra L. Wade; David A. Zeber;
Patricia French; and Neil Luoma.

App. 132
3. “Court” means the Court of Common Pleas for
Lake County, Ohio.
4. “Defendants” means, collectively, the State of
Ohio (“State”), the Ohio Department of Natural
Resources (“ODNR”), and the Director of ODNR.
5. “Defendants’ Counsel” means Bricker & Eckler,
LLP.
6. “Effective Date” means the first date by which all
of the conditions and events specified in paragraph 38
have been met and have occurred.
7. “Final,” with respect to the Judgment, means the
later of: (i) if there is an appeal from the Judgment, the
date of final affirmance on appeal and the expiration of
the time for any further judicial review whether by
appeal, reconsideration or a petition for a writ of
certiorari and, if certiorari is granted, the date of final
affirmance of the Judgment following review pursuant
to the grant; or (ii) the date of final dismissal of any
appeal from the Judgment or the final dismissal of any
proceeding on certiorari to review the Judgment; or
(iii) the expiration of the time for the filing or noticing
of any appeal from the Court’s Judgment; or (iv) if the
Court enters a judgment substantially different from
the form of Judgment set forth in Exhibit A hereto (an
“Alternative Judgment”) and the Settlement is not
terminated, the date that such Alternative Judgment
becomes final as defined in parts (i) to (iii) above and
no longer subject to appeal or review. However, any
appeal or proceeding seeking subsequent judicial
review pertaining solely to any award of attorneys’ fees
or expenses shall not in any way delay or affect the

App. 133
time set forth above for the Judgment or Alternative
Judgment to become Final, or otherwise preclude the
Judgment or Alternative Judgment from becoming
Final.
8. “Judgment” means the judgment to be entered
approving the Settlement, substantially as proposed in
the form attached hereto as Exhibit A.
9. “Notice” means (i) the notice of the proposed
Settlement, substantially in the form attached hereto
as Exhibit B, to be published by Class Counsel to the
Settlement Class.
10. “OLG” means Ohio Lakefront Group, Inc.
11. “Parties” or “Settling Parties”
collectively, Plaintiffs and Defendants.

means,

12. “Plaintiffs” means OLG and the Settlement
Class.
13. “Class Counsel” means Calfee, Halter &
Griswold, LLP.
14. “Plan of Allocation” means the plan for
allocation of the Settlement Amount agreed to by the
Parties and attached hereto as Exhibit C.
15. “Preliminary Approval Order” means the order,
substantially in the form attached hereto as Exhibit D,
to be entered by the Court that, among other things,
preliminarily approves the Settlement, schedules the
Settlement Hearing, and directs notice of the
Settlement.

App. 134
16. “Released Defendants’ Claims” means any and
all claims, demands, rights, actions, potential actions,
causes of action, liabilities, damages, losses,
obligations, judgments, duties, suits, agreements, costs,
expenses, debts, interest, penalties, sanctions, fees,
attorneys’ fees, judgments, decrees, matters, issues,
and controversies of any kind, nature or description
whatsoever, whether based on federal, state, local,
statutory or common law or any other law, rule or
regulation, whether fixed or contingent, accrued or unaccrued, liquidated or un-liquidated, at law or in
equity, matured or un-matured, disclosed or undisclosed, apparent or un-apparent, against any of the
Released Plaintiff Parties, directly or indirectly
relating to or arising out of the claims asserted in the
Action, including Defendants’ claims of public trust
ownership (including claims for lease fees) landward of
the natural shoreline, arising from the beginning of
time through the date of final approval of the
Settlement. Released Defendants’ Claims do not
include any claims relating to the enforcement of this
Settlement.
17. “Released Defendant Parties” means Defendants
and their respective employees, directors, agents,
divisions, predecessors, successors, administrators,
assigns, partners, affiliates and counsel.
18. “Released Plaintiffs’ Claims” means any and all
claims, demands, rights, actions, potential actions,
causes of action, liabilities, damages, losses,
obligations, judgments, duties, suits, agreements, costs,
expenses, debts, interest, penalties, sanctions, fees,
attorneys’ fees, judgments, decrees, matters, issues,

App. 135
and controversies of any kind, nature or description
whatsoever, whether based on federal, state, local,
statutory or common law or any other law, rule or
regulation, whether fixed or contingent, accrued or unaccrued, liquidated or un-liquidated, at law or in
equity, matured or un-matured, disclosed or undisclosed, apparent or un-apparent, against any
Released Defendant Party directly or indirectly
relating to or arising out of the claims asserted in the
Action, including any acts taken (such as a trespass or
taking of real property) by the State or ODNR with
regard to claiming public trust ownership of real
property landward of the natural shoreline, arising
from the beginning of time through the date of final
approval of the Settlement. Released Plaintiffs’ Claims
do not include any claims relating to the enforcement
of this Settlement.
19. “Released Plaintiff Parties” means all members
of the Settlement Class, along with their respective
family members including spouses, domestic partners,
children and siblings, heirs, executors, administrators,
successors, assigns, partners, and entities with which
they are currently or were formerly associated having
an interest in littoral property bordering Lake Erie.
Released Plaintiff Parties includes, without limitation,
the Class Representatives and their members, agents,
affiliates, owners, officers, directors, attorneys,
predecessors, successors, and assigns.
20. “Settlement” means
contemplated by this Stipulation.

the

settlement

21. “Settlement Class” means all persons, as defined
in R.C. 1506.01(D), excepting the State and any state

App. 136
agency as defined in R.C. 1.60, who are owners of
littoral property bordering Lake Erie (including
Sandusky Bay and other estuaries previously
determined to be a part of Lake Erie under Ohio law)
within the territorial boundaries of the State of Ohio.
22. “Settlement Hearing” means the hearing to be
held by the Court to determine whether to grant final
approval of the Settlement.
23. Stipulation”
Settlement.
III.

means

this

Stipulation

of

SETTLEMENT TERMS
A. General Terms

24. As valuable consideration for the Settlement,
Defendants shall pay $6,100,000 (the “Settlement
Amount”) to the Settlement Class within forty-five (45)
calendar days of the Court’s journalization of the
Judgment, regardless of appeals. Payment shall be
made to a third party Claims Administrator selected by
Class Counsel. Defendants shall make an advance
payment of $40,000 into an escrow account to pay for
the costs of providing the Notice.
25. Up to $1,720,091.51 of the Settlement Amount
will be allocated to the return of submerged lands lease
rentals with respect to Count I. $600,000 will be
allocated to the repayment of Plaintiffs attorney’s fees
with respect to Count I. All other portions of the
Settlement Amount will be allocated according to the
Plan of Allocation attached hereto as Exhibit C. The
reasonable costs of administering the plan of allocation

App. 137
will be paid out of the Settlement Amount to the
Claims Administrator selected by Class Counsel.
26. No member of the Settlement Class, certified
pursuant to Civ. R. 23(B)(2), shall have any right to opt
out of the settlement and release.
27. Defendants will not oppose any request for
payment of attorneys’ fees made by Class Counsel
related to Count II so long as the total attorney fee
award does not exceed 33% of the portion of the
Settlement Amount allocated to Count II
compensation.
28. Plaintiffs agree not to take legal action against
the Released Defendant Parties based on any Released
Plaintiffs’ Claims following the Effective Date.
Defendants agree not to take legal action against the
Released Plaintiff Parties based on any Released
Defendants’ Claims following the Effective Date.
29. Defendants agree not to initiate or join any
direct challenges or appeals to the rulings and opinions
already issued in the Action in the course of further
proceedings in the Action.
B. Release Of Claims
30. Pursuant to the Judgment, upon the Effective
Date, each of the Plaintiffs and other Released Plaintiff
Parties, on behalf of themselves and their respective
members, agents, affiliates, owners, officers, directors,
attorneys, predecessors, successors, and assigns, family
members including spouses, domestic partners,
children and siblings, heirs, executors, administrators,
assigns, partners, and entities with which they are

App. 138
currently or were formerly associated, shall be deemed
by operation of law to have fully, finally and forever
released, waived, discharged, and dismissed each and
every of the Released Plaintiffs’ Claims against the
Released Defendant Parties, and shall forever be
enjoined from prosecuting any Released Plaintiffs’
Claims against any of the Released Defendant Parties.
31. Pursuant to the Judgment, upon the Effective
Date, each of the Defendants and the other Released
Defendant Parties, on behalf of themselves, their
respective employees, directors agents, divisions,
predecessors, successors, administrators, assigns,
agents, partners, affiliates and counsel, shall be
deemed by operation of law to have fully, finally and
forever released, waived, discharged, and dismissed
each and every of the Released Defendants’ Claims
against the Released Plaintiff Parties, and shall forever
be enjoined from prosecuting any Released Defendants’
Claims against any of the Released Plaintiff Parties.
C. Procedure For Approval
32. Promptly after this Stipulation has been fully
executed, the Settling Parties shall submit this
Stipulation, together with its exhibits, to the Court and
shall apply for entry of a Preliminary Approval Order,
substantially in the form attached hereto as Exhibit D.
33. Plaintiffs shall be responsible for: (a) providing
Notice in accordance with the Preliminary Approval
Order. The costs of such Notice shall be paid out of the
Settlement Amount. In no event shall Plaintiffs, Class
Counsel or Plaintiffs’ agents be individually responsible
for any such Notice costs. Within seven (7) calendar

App. 139
days of entry of the Preliminary Approval Order,
Defendants will provide Class Counsel with a list of
submerged land leaseholders from May 28, 1998
through the present, which includes their name,
address(es) and lease ID number. At least seven (7)
calendar days before the Settlement Hearing, Class
Counsel shall file with the Court an appropriate proof
of compliance with the Notice procedures set forth in
the Preliminary Approval Order.
34. If the Settlement contemplated by this
Stipulation is approved by the Court, the Settling
Parties shall request that the Court enter a Judgment,
substantially in the form attached hereto as Exhibit A.
35. The Parties shall cooperate in obtaining prompt
approval of the Court for dismissal of the Action with
prejudice and in accordance with the terms of this
Stipulation and governing law.
36. The Claims Administrator shall process the
claims as follows in a timely fashion:
a. The Claims Administrator shall be responsible for
disseminating information to the Settlement Class
concerning settlement procedures by, among other
ways, establishing an Internet home page and a tollfree claims hotline and publishing appropriate notices.
The Claims Administrator shall consult with Class
Counsel as to the most economical and effective way to
establish these devices. The nature and manner of
disseminating such information to the Settlement
Class shall be subject to approval by the Court.
b. The Claims Administrator shall have the power
to implement reasonable procedures designed to detect

App. 140
and prevent payment of fraudulent claims, and
otherwise to assure an acceptable level of reliability
and quality control in claims processing.
c. The Claims Administrator shall receive, process,
classify, and review all claims.
d. The Claims Administrator shall approve
qualifying claims and shall allocate benefits among the
Settlement Class, in accordance with this Agreement
and the Plan of Allocation, and shall pay all claims in
accordance with this Agreement and the Plan of
Allocation.
e. If the Claims Administrator determines that a
claim is not eligible for payment under the governing
criteria, the Claims Administrator shall notify the
claimant and Class Counsel as to its determination and
the grounds therefore. Such claimants shall have a
maximum of thirty (30) days from the date of mailing
of the Claims Administrator’s notice of ineligibility
either to cure deficiencies in their claims submissions
or to provide written notice of an intention to appeal,
and failure to do so shall result in denial of the claim.
f. Any appeals from the Claims Administrator’s
determinations on the merits of a Settlement Class
member’s claim submission shall be made to the Court
within thirty (30) days of notification of the Claims
Administrator’s determination. Appeals may be filed by
a Settlement Class member, through counsel, as to the
Claim Administrator’s determinations on the merits of
the claim(s) submitted by that Settlement Class
member. The Claims Administrator shall provide
notice of all appeals to Class Counsel and to

App. 141
Defendants’ Counsel. At their election, Class Counsel
may also file papers in support of or in opposition to
any such appeals.
g. No claim for benefits shall be paid while any
appeal is pending if resolution of a claimant’s appeal
would affect the amount of compensation to another
claimant. Nor shall that claimant’s claim for benefits
be paid while its appeal is pending.
h. The Claims Administrator shall provide periodic
updates to the Court regarding the status of claims
administration and processing, including without
limitation the number of claims submitted, processed,
reviewed, denied and paid within each classification, as
well as the amount paid from the Settlement Amount,
at least once every thirty (30) days until the Settlement
Amount has been distributed in full.
i. Defendant remains subject to Ohio’s public
records laws. Accordingly, Defendant may respond to
records information requests from Class members.
These responses and any other actions taken by
Defendant in furtherance of its ongoing regulatory and
landholding rights and responsibilities, including
providing an internet link from the ODNR website to
the claims administration website, shall not be deemed
as interference with the administration of this
settlement.
j. Plaintiffs assume full responsibility, and hereby
acknowledge that Defendant bears no responsibility,
for the claims administration process described herein
and for adherence to the Plan of Allocation and this
Agreement with respect to any distribution of the

App. 142
Settlement Amount. Plaintiffs further agree to fully
indemnify, hold harmless and defend the Released
Defendant Parties against any and all claims,
demands, rights, actions, potential actions, causes of
action, liabilities, damages, losses, obligations,
judgments, duties, suits, agreements, costs, expenses,
debts, interest, penalties, sanctions, fees, attorneys’
fees, judgments, decrees, matters, issues, and
controversies of any kind, nature or description
whatsoever, whether based on federal, state, local,
statutory or common law or any other law, rule or
regulation, whether fixed or contingent, accrued or unaccrued, liquidated or un-liquidated, at law or in
equity, matured or un-matured, disclosed or undisclosed, apparent or un-apparent, against any of the
Released Defendant Parties, directly or indirectly
relating to or arising out of the claims administration
process described herein and/or adherence to the Plan
of Allocation and this Agreement with respect to any
distribution of the Settlement Amount. However,
nothing in this paragraph shall be construed to require
Plaintiffs to bear the costs incurred by the Released
Defendant Parties in invoking the provisions of this
Agreement and the Final Judgment barring the
assertion and prosecution of any such claims against
the Released Defendant Parties.
D. Effective Date Of Settlement, Waiver Or
Termination
37. This Settlement shall become effective on the
Effective Date, which shall be the date when all of the
following shall have occurred:

App. 143
a. entry of the Preliminary Approval Order, which
shall be in all material respects substantially in the
form set forth in Exhibit D attached hereto;
b. approval by the Court of the Settlement;
c. entry by the Court of a Judgment, which shall be
in all material respects substantially in the form set
forth in Exhibit A attached hereto, and which has
become Final or, in the event that the Court enters an
Alternative Judgment and none of the Settling Parties
elects to terminate this Settlement, the date that such
Alternative Judgment is entered and becomes Final;
and
d. dismissal of the Action with prejudice.
38. Each of the Parties individually shall have the
right to terminate the Settlement and this Stipulation
by providing written notice of their election to do so
(“Termination Notice”), through counsel, to all other
Settling Parties hereto within thirty (30) calendar days
of: (a) the Court’s final refusal to enter the Preliminary
Approval Order substantially in the form attached
hereto as Exhibit D, in a manner that is materially
detrimental to any Party, and without opportunity for
resubmission; (b) the Court’s final refusal to approve
this Stipulation substantially in the form submitted, in
a manner that is materially detrimental to any Party;
(c) the Court’s final refusal to enter the Judgment
substantially in the form attached hereto as Exhibit A,
in a manner that is materially detrimental to any
Party, and without opportunity for resubmission;
(d) the date upon which the Judgment substantially in
the form attached hereto as Exhibit A is modified or

App. 144
reversed, in a manner that is materially detrimental to
any Party by an appellate court; or (e) in the event that
the Court enters an Alternative Judgment and none of
the Settling Parties hereto elects to terminate this
Settlement, the date upon which such Alternative
Judgment is modified or reversed in a manner that is
materially detrimental to any Party by an appellate
court.
39. Except as otherwise provided herein, in the
event the Settlement is terminated or the Effective
Date cannot occur for any reason, then: the Settlement
shall be without prejudice, and none of its terms, shall
be effective or enforceable except as specifically
provided herein; the Settling Parties shall be deemed
to have reverted to their respective positions in the
Action immediately prior to the execution of this
Stipulation; and, except as otherwise expressly
provided, the Settling Parties shall proceed in all
respects as if this Stipulation and any related orders
had not been entered. In such event, the fact and terms
of this Stipulation, and any aspect of the negotiations
leading to this Stipulation, shall not be admissible in
the Action and shall not be used by Plaintiffs against
the Defendants or by the Defendants against Plaintiffs
in any court filings, depositions, at trial or otherwise,
and any judgments or orders entered by the Court in
accordance with the terms of the Stipulation shall be
treated as vacated nunc pro tunc.
E. No Admission Of Wrongdoing
40. This Stipulation, whether or not approved by the
Court, and any negotiations, proceedings or
agreements relating to it shall not be offered or

App. 145
received against any of the Settling Parties as evidence
of or construed as or deemed to be evidence of (a) any
liability, negligence, fault, or wrongdoing of any of the
Settling Parties, (b) a presumption, concession, or
admission with respect to any liability, negligence,
fault, or wrongdoing, or in any way referred to for any
other reason as against any of the Settling Parties, in
any other civil, criminal, or administrative action or
proceeding, other than such proceedings as may be
necessary to effectuate the provisions of the
Settlement, (c) a presumption, concession, or admission
by any of the Defendants with respect to the truth of
any fact alleged in the Action or the validity of any of
the claims or the deficiency of any defense that was or
could have been asserted in the Action, (d) a
presumption, concession, or admission by Plaintiffs of
any infirmity in the claims asserted, or (e) an
admission or concession that the consideration to be
given hereunder represents the consideration which
could be or would have been recovered at trial.
41. Nothing herein, however, shall prevent any of
the Settling Parties from using this Stipulation, or any
document or instrument delivered hereunder (a) to
effect or obtain Court approval of this Stipulation,
(b) to enforce the terms of this Stipulation, or (c) for
purposes of defending, on the grounds of res judicata,
collateral estoppel, release, or any other theory of claim
preclusion or issue preclusion or similar defense or
counterclaim, any of the Released Plaintiffs’ Claims
and any Released Defendants’ Claims or any related
claims released or precluded pursuant to this
Stipulation.

App. 146
F. Miscellaneous Provisions
42. All of the exhibits attached hereto are hereby
incorporated by reference as though fully set forth
herein.
43. The Settling Parties intend this Settlement to be
a final and complete resolution of all disputes asserted
or which could be asserted by Plaintiffs against all
Released Defendant Parties with respect to all
Released Plaintiffs’ Claims, or by Defendants against
all Released Plaintiff Parties with Respect to all
Released Defendants’ Claims. The Settling Parties
agree that the terms of this Settlement were negotiated
at arm’s-length and in good faith by the Settling
Parties, and reflect a settlement that was reached
voluntarily after consultation with experienced legal
counsel.
44. This Stipulation may not be modified or
amended, nor may any of its provisions be waived
except by a writing signed by all signatories hereto or
their successors-in-interest.
45. The headings herein are used for the purpose of
convenience only and are not meant to have legal
effect.
46. The consummation of this Settlement as
embodied in this Stipulation shall be under the
authority of the Court, and the Court shall retain
jurisdiction for the purpose of enforcing the terms of
this Stipulation, including as to any released claims,
and entering orders providing for awards of attorneys’
fees and litigation expenses to Class Counsel.

App. 147
47. The waiver by any Settling Party of any breach
of this Stipulation by any other Settling Party shall not
be deemed a waiver of any other prior or subsequent
breach of this Stipulation.
48. This Stipulation and its exhibits constitute the
entire agreement among the Settling Parties
concerning this Settlement, and no representations,
warranties, or inducements have been made by any
party hereto concerning this Stipulation and its
exhibits other than those contained and memorialized
in such documents.
49. This Stipulation may be executed in one or more
original and/or faxed and/or pdf’d counterparts. All
executed counterparts and each of them shall be
deemed to be one and the same instrument.
50. This Stipulation shall be binding upon, and
inure to the benefit of, the family members including
spouses, domestic partners, children and siblings,
heirs, executors, administrators, assigns, partners,
agents, parents, affiliates, subsidiaries, owners,
officers, directors, employees, attorneys, predecessors,
and successors of the Parties.
51. The construction, interpretation, validity and
enforcement of this Stipulation, other than as set forth
in the next sentence, and all documents necessary to
effectuate it, shall be governed by the internal laws of
the State of Ohio without regard to conflicts of laws or
choice of law rules.
52. This Stipulation shall not be construed more
strictly against one Settling Party than another merely
by virtue of the fact that it, or any part of it, may have

App. 148
been prepared by counsel for one of the Settling
Parties, it being recognized that it is the result of
arm’s-length negotiations between the Settling Parties
and all Settling Parties have contributed substantially
and materially to the preparation of this Stipulation.
53. All counsel and any other person executing this
Stipulation and any of the exhibits hereto, or any
related Settlement documents, warrant and represent
that they have the full authority to do so and that they
have the authority to take appropriate action required
or permitted to be taken pursuant to the Stipulation to
effectuate its terms.
54. Class Counsel and Defendants’ Counsel agree to
cooperate fully with one another in seeking Court
approval of the Preliminary Approval Order, the
Stipulation and this Settlement, and to use good faith,
commercially reasonable efforts to promptly agree upon
and execute all such other documentation as may be
reasonably required to obtain final approval by the
Court of the Settlement.
IN WITNESS WHEREOF, the Settling Parties have
caused this Stipulation to be executed by their duly
authorized counsel.
/s/______________
Name

/s/_________________
Name

Dated: 5/26/2016

Dated: 5/26/2016

Counsel for Defendants

Counsel for Plaintiffs

App. 149
EXHIBIT B
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
CASE NO. 04CV001080
JUDGE EUGENE A. LUCCI
[Filed: October 24, 2016]
__________________________________________
STATE EX REL. ROBERT MERRILL,
)
TRUSTEE, et al.
)
)
Plaintiffs
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.
)
)
Defendants
)
__________________________________________)
ORDER AND FINAL JUDGMENT
This matter came for hearing on October 21, 2016
(the “Settlement Hearing”), on the application of the
Settling Parties to determine whether the terms and
conditions of the Stipulation of Settlement dated May
26, 2016 (the “Stipulation”) providing for the
settlement (the “Settlement”) of all claims asserted by
Plaintiffs Ohio Lakefront Group, Inc. (“OLG”), Robert
Merrill, Trustee, Anthony J. Yankel, Charles S. Tilk,
Sheffield Lake, Inc., Sandra L. Wade, David A. Zeber,
Patricia French, and Neil Luoma, and the Settlement

App. 150
Class (collectively, “Plaintiffs”); against the State of
Ohio, the Ohio Department of Natural Resources
(“ODNR”), and the Director of ODNR (collectively,
“Defendants” and together with Plaintiffs, the “Parties”
or the “Settling Parties”) in the above-captioned
litigation (the “Action”) now pending in this Court
should be approved; and whether judgment should be
entered dismissing the complaint on the merits and
with prejudice, and releasing the Released Plaintiffs’
Claims as against all Released Defendant Parties.
The Court having considered all matters submitted
to it at the Settlement Hearing and otherwise; and it
appearing that a notice of the Settlement Hearing
substantially in the form approved by the Court was
distributed in accordance with the manner of
distribution approved by the Court.
NOW, THEREFORE,
ORDERED THAT:

IT

IS

HEREBY

1. This Order and Final Judgment incorporates by
reference the definitions in the Stipulation and all
capitalized terms used herein shall have the same
meanings as set forth in the Stipulation unless
otherwise defined herein.
2. This Court has jurisdiction to enter this
Judgment. This Court has jurisdiction over the subject
matter of the Action, including all matters necessary to
effectuate the Settlement, and over all Settling Parties.
3. This Court hereby finds that notice of the
Settlement was provided pursuant to and in the form
and manner directed by the Preliminary Approval
Order and that the form and manner of notice given to

App. 151
Settlement Class members are hereby determined to
have been the best notice practicable under the
circumstances and constituted due and sufficient notice
to all persons entitled to receive such notice in
compliance with the provisions of Rule 23 of the Ohio
Rules of Civil Procedure and the requirements of due
process.
4. Pursuant to and in compliance with due process,
this Court hereby finds that the notice provided
advised persons and entities in interest of the terms of
the Settlement, and of their right to object thereto, and
a full and fair opportunity was accorded to all persons
and entities in interest to be heard with respect to the
foregoing matters. Accordingly, it is hereby determined
that all members of the Settlement Class are bound by
this Judgment entered herein.
5. This Court finds that this action is properly
maintained as a class action under Rule 23 of the Ohio
Rules of Civil Procedure and that the Class
Representatives fairly and adequately represented the
interests of Settlement Class members. Class Counsel
is authorized to act on behalf of all Settlement Class
members with respect to all acts required by the
Stipulation or such other acts which are reasonably
necessary to consummate the Settlement set forth in
the Stipulation.
6. This Court finds that the Settlement is, in all
respects, fair, reasonable, and adequate, and in the
best interests of the Settlement Class, and hereby
approves the Settlement as set forth in the Stipulation.
This Court further finds that the Settlement set forth
in the Stipulation is the result of arm’s-length

App. 152
negotiations between experienced counsel representing
the interests of the Settling Parties. Accordingly, the
Settlement embodied in the Stipulation is hereby
approved in all respects and shall be consummated in
accordance with the terms and provisions of the
Stipulation.
7. The claims filed in the Action are hereby
dismissed with prejudice and without costs except for
the payments expressly provided for in this Judgment,
the Stipulation, the Preliminary Approval Order,
and/or any order entered by this Court regarding Class
Counsel’s request for attorneys’ fees and expenses.
8. Upon the Effective Date, Plaintiffs, on behalf of
themselves, their heirs, executors, administrators,
predecessors, successors and assigns, shall be deemed
by operation of law to have fully, finally, and forever
released, waived, discharged, and dismissed each and
every of the Released Plaintiffs’ Claims against the
Released Defendant Parties, and shall forever be
enjoined from prosecuting any Released Plaintiffs’
Claims against any of the Released Defendant Parties.
Further, Plaintiffs shall be forever enjoined from
prosecuting any claims relating in any way to the
claims administration process, the Plan of Allocation or
any distribution decisions regarding the Settlement
Amount against any of the Released Defendant Parties.
9. Upon the Effective Date, each of the Defendants,
on behalf of themselves, their heirs, executors,
administrators, predecessors, successors, and assigns,
shall be deemed by operation of law to have fully,
finally, and forever released, waived, discharged, and
dismissed each and every of the Released Defendants’

App. 153
Claims against the Released Plaintiff Parties, and shall
forever be enjoined from prosecuting any Released
Defendants’ Claims against any of the Released
Plaintiff Parties.
10. This Judgment, the Stipulation, and any
negotiations, proceedings, or agreements relating to
them shall not be offered or received against any of the
Settling Parties as evidence of or construed as or
deemed to be evidence of: (a) any liability, negligence,
fault, or wrongdoing of any of the Defendants; (b) a
presumption, concession, or admission with respect to
any liability, negligence, fault, or wrongdoing, or in any
way referred to for any other reason as against any of
the Defendants, in any other civil, criminal, or
administrative action or proceeding, other than such
proceedings as may be necessary to effectuate the
provisions of the Settlement; (c) a presumption,
concession, or admission by any of the Defendants with
respect to the truth of any fact alleged in the Action or
the validity of any of the claims or the deficiency of any
defense that was or could have been asserted in the
Action; (d) a presumption, concession, or admission by
Plaintiff of any infirmity in the claims asserted; or
(e) an admission or concession that the consideration to
be given hereunder represents the consideration which
could be or would have been recovered at trial.
11. Nothing herein, however, shall prevent any of
the Settling Parties from using this Judgment, the
Stipulation, or any document or instrument delivered
thereunder: (a) to effect or obtain Court approval of the
Settlement; (b) to enforce the terms of the Settlement;
or (c) for purposes of defending, on the grounds of res

App. 154
judicata, collateral estoppel, release, or any other
theory of claim preclusion or issue preclusion or similar
defense or counterclaim, any of the Released Plaintiffs’
Claims and any Released Defendants’ Claims released
pursuant to the Settlement.
12. This Court retains exclusive jurisdiction,
without affecting in any way the finality of this
Judgment over: (a) implementation and enforcement of
the Settlement; (b) hearing and determining Class
Counsel’s award of attorneys’ fees and reimbursement
of litigation expenses; (c) enforcing and administering
this Judgment; (d) enforcing and administering the
Stipulation including the releases granted therein; and
(e) other matters arising from or relating to the
foregoing.
13. This Court finds that throughout the course of
the Action the Settling Parties and their respective
counsel at all times complied with the requirements of
Rule 11 of the Ohio Rules of Civil Procedure and any
other applicable laws and rules.
14. This Court finds that the Action has been
properly maintained as a class action, and the Court
finds that throughout the course of the Action, the
Action was not brought by Plaintiffs or defended by
Defendants in bad faith or without a reasonable basis,
and there have been no violations or reason for
sanctions under Rule 11 of the Ohio Rules of Civil
Procedure or similar rules or codes relating to the
prosecution, defense, or settlement of the Action.
15. This Court hereby approves Class Counsel’s
application for attorneys’ fees and expenses as set forth

App. 155
in the Stipulation as fair and reasonable under the
circumstances of this litigation. Accordingly, this Court
grants Class Counsel’s fee and expense application in
its entirety and awards $1,247,369.80 to Class Counsel
for attorneys’ fees and expenses, and finds that such
award is fair and reasonable. Payment shall be made
on behalf of Defendants in accordance with the tenns of
the Stipulation.
16. This Court hereby approves Class Counsel’s
selection of Ohio Shoreline Preservation, an Ohio notfor-profit 501(c)(3) organization whose, objectives are
related as closely as possible to the purposes and
remedies sought by the Action, as a reasonable and
appropriate cy pres designee for the receipt of any
remaining funds after full distribution of the
Settlement Amount to Authorized Claimants according
to the Plan of Allocation. Payment, if any, shall be
made to Ohio Shoreline Preservation only at the time
and in the manner provided for in the Plan of
Allocation.
17. In the event the Settlement is terminated or the
Effective Date cannot occur for any reason, then:
(a) the Settlement shall be without prejudice, and none
of its terms shall be effective or enforceable except as
specifically provided in the Stipulation; (b) the Settling
Parties shall be deemed to have reverted to their
respective positions in the Action immediately prior to
February 19, 2016; and, (c) except as otherwise
expressly provided, the Settling Parties shall proceed
in all respects as if the Stipulation and any related
orders had not been entered.

App. 156
18. Without further order of the Court, the Settling
Parties may agree to reasonable extensions of time to
carry out any of the provisions of the Stipulation. The
deadline for Settlement Class members to submit
Proofs of Claim, which was set as October 12, 2016, will
be extended for thirty (30) days from the entry of this
Final Judgment, until November 28, 2016.
19. This Court finds that no just reason exists for
delay in the entry of this Judgment and immediate
entry by the Clerk of the Court is expressly directed
pursuant to Rule 54(B) of the Ohio Rules of Civil
Procedure.
IT IS SO ORDERED.
FINAL APPEALABLE ORDER
Clerk to serve pursuant
to Civ.R. 58(B)

App. 157
Copies:
James F. Lang, Esq.
Fritz E. Berckmueller,
Esq.
Lindsey E. Sacher, Esq.
Calfee, Halter &
Griswold, LLP
Class counsel and
attorneys for PlaintiffRelators
1405 East Sixth Street
Cleveland, Ohio 441141607

Homer S. Taft, Esq.
Intervening PlaintiffRelator, pro se
20220 Center Ridge
Road, Suite 300
P.O. Box 16216
Rocky River, Ohio 44116

Daniel C. Gibson, Esq.
Anne Marie Sferra, Esq.
Ali I. Haque, Esq.
Bricker & Eckler, LLP
100 South Third Street
Columbus, OH 43215

Neil S. Kagan, Esq., Pro
Hae Vice
Attorney for intervening
defendants,
National Wildlife
Federation and
Ohio Environmental
Council
Great Lakes Natural
Resource Center
213 West Liberty Street,
Suite 200
Ann Arbor, Michigan
48104

L. Scot Duncan, Esq.
Intervening PlaintiffRelator, pro se
1530 Willow Drive
Sandusky, Ohio 44870

App. 158
Michael DeWine, Ohio
Attorney General
Michael L. Williams,
Esq., Chief Legal Officer
Ohio Attorney General’s
Office
Environmental
Enforcement Section
Ohio Department of
Natural Resources and
the State of Ohio
2045 Morse Road,
Building D-2
Columbus, Ohio 432296693

Peter A. Precario, Esq.
Attorney for intervening
defendants
National Wildlife
Federation and Ohio
Environmental Council
2 Miranova Place, Suite
500
Columbus, Ohio 43215

App. 159
MAUREEN G. KELLY
CLERK OF COMMON PLEAS COURT
CLERK OF 11TH DISTRICT COURT OF APPEALS
25 N. PARK PLACE
PAINESVILLE, OHIO 44077
CASE NO. 04CV001080
TO:

Daniel C Gibson
100 South Third Street
Columbus, OH 43215-4291

NOTICE OF FINAL APPEALABLE ORDER
OHIO STATE OF EX REL/ROBERT
MERRILL/TRUSTEE et al vs. OHIO STATE OF
DEPARTMENT OF NATURAL
RESOURCES et al
On OCT 24,2016 a Judgment Entry or Order was
signed by a Judge of the Court of Common Pleas and
filed in the above captioned case.
This NOTICE is being sent by the Clerk of Courts
in compliance with state statute.
NOTE: The Clerk of Courts cannot advise you of the
amount of time for appeal nor interpret the intent of
this Notice. For further information or clarification
please contact your attorney.
MAUREEN G. KELLY
LAKE COUNTY CLERK OF COURTS
JAMES F LANG 0059668 1400 MCDONALD
INVESTMENT CENTER 800 SUPERIOR AVE
Cleveland OH 44114
HOMER S TAFT 0025112 20220 Center Ridge Road

App. 160
P.O. Box 16216 Rocky River OH 44116
PETER A PRECARlO 0027080 2 MIRANOVA PL STE
500 COLUMBUS OH 43215
Neil S Kagan 625 South State Street 745 Legal
Research ANN ARBOR MI 48109
L S DUNCAN 0075158 1530 WILLOW DRIVE
SANDUSKY OH 44870

App. 161
EXHIBIT C
IN THE COURT OF COMMON PLEAS
LAKE COUNTY, OHIO
Case No. 04CV001080
Judge Eugene A. Lucci
[Filed: May 29, 2018]
__________________________________________
STATE EX REL. ROBERT
)
MERRILL, TRUSTEE et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Defendants.
)
__________________________________________)
AFFIDAVIT OF CYNTHIA K. FRAZZINI
STATE OF OHIO
FRANKLIN COUNTY

)
) SS.
)

Cynthia K. Frazzini, being first duly sworn on oath,
deposes and states as follows:
1. I am authorized to execute this affidavit on behalf
of the Ohio Department of Natural Resources
(“ODNR”). The statements made in this Affidavit are

App. 162
based on my personal knowledge and my review of
ODNR’s records, to which I have access.
2. I am over the age of 18 and competent to testify
as to the matters contained herein.
3. In my capacity as Deputy Legal Counsel for
ODNR, I have access to ODNR’s records, maintained in
the ordinary course of regularly conducted business
activity, including the records for and relating to this
case. I make this affidavit based upon my review of
those records and from my own personal knowledge.
4. On January 31, 2018, the Complaint attached
hereto as Exhibit A (the “Erie Complaint”) was filed by
George Sortino in the Erie County Court of Common
Pleas.
5. Since the filing of the Erie Complaint, ODNR, by
and through counsel, has communicated with counsel
for George Sortino, which oral and written
communications are evidenced by true and accurate
copies of certain correspondence documents attached
hereto as Exhibit B.
6. On April 3, 2018, ODNR and the other State
Defendants to the Erie Complaint filed a Motion to
Dismiss for Lack of Jurisdiction, or, In the Alternative,
for Transfer of Venue, a true and accurate copy of
which is attached hereto as Exhibit C, with exhibits
omitted due to size.
7. On May 3, 2018, George Sortino filed a Response
to Defendants’ Motion to Dismiss for Lack of
Jurisdiction, or, In the Alternative, for Transfer of

App. 163
Venue, a true and accurate copy of which is attached
hereto as Exhibit D.
8. On May 25, 2018, ODNR and the other State
Defendants to the Erie Complaint submitted for filing
a Reply Memorandum in Support of their Motion to
Dismiss for Lack of Jurisdiction, or, In the Alternative,
for Transfer of Venue, a true and accurate copy of
which is attached hereto as Exhibit E.
9. On May 25, 2018, ODNR and the other State
Defendants to the Erie Complaint submitted for filing
a Motion to Stay, In the Alternative, a true and
accurate copy of which is attached hereto as Exhibit F,
with the exhibit omitted.
10. On December 8, 2016, counsel for Plaintiffs in
this action acknowledged receipt of a check from ODNR
in the amount of $6,060,000.00. A true and accurate
copy of the acknowledgment is attached hereto as
Exhibit G.
FURTHER AFFIANT SAYETH NAUGHT.
/s/ Cynthia K. Frazzini
Cynthia K. Frazzini
Deputy Legal Counsel
Ohio Department of Natural Resources
Subscribed and sworn to before me, a Notary Public
in and for said County and State, this 24th day of May,
2018.
/s/ Jeffrey D. Swick
Notary Public

App. 164
FRAZZINI EXHIBIT A
IN THE COURT OF COMMON PLEAS
ERIE COUNTY, OHIO
CASE NO. 2018-CV
JUDGE
[Filed: January 31, 2018]
__________________________________________
STATE OF OHIO
)
ex rel. George Sortino
)
1210 Sycamore Line
)
Sandusky, OH 44870
)
)
Relator/Plaintiff,
)
)
v.
)
)
STATE OF OHIO, DEPARTMENT
)
OF NATURAL RESOURCES
)
c/o James Zehringer, Director
)
2045 Morse Road
)
Columbus, OH 43229
)
)
and
)
)
JAMES ZEHRlNGER, DIRECTOR
)
Ohio Department of Natural Resources
)
2045 Morse Road
)
Columbus, OH 43229
)
)
and
)
)

App. 165
STATE OF OHIO
c/o John Kasich, Governor
77 South High Street, 30th Floor
Columbus, OH 43215

)
)
)
)
)
ALSO SERVE:
)
MIKE DEWINE
)
ATTORNEY GENERAL
)
th
30 E. Broad Street, 14 Floor
)
Columbus, OH 43215
)
)
Respondents/Defendants.
)
__________________________________________)
COMPLAINT FOR DECLARATORY
JUDGMENT, MANDAMUS AND
OTHER RELIEF
Dennis E. Murray, Sr., Esq. (0008783)
dms@murrayandmurray.com
Margaret M. Murray, Esq. (0066633)
mmm@murrayandmurray.com
Donna J. Evans, Esq. (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky, OH 44870
Telephone: 419-624-3000
Facsimile: 419-624-0707
Attorneys for Plaintiffs

App. 166
PARTIES
1. This action arises from the actions and inactions
of the Ohio Department of Natural Resources
(“ODNR”), acting on behalf of the State of Ohio, by
which they have unconstitutionally and unlawfully
asserted ownership and possession of the private
property of Ohio citizens abutting Lake Erie. In the
past ODNR had intentionally and willfully
misrepresented to property owners and to the public
that the State of Ohio owns a part of their properties,
and ODNR had persisted in this campaign of
falsehoods despite knowing that it was in conflict with
all Ohio laws, with published opinions of the Attorney
General of Ohio and the Ohio and U.S. Constitutions.
2. Relator George Sortino (“Relator”, “Plaintiff” or
“Sortino”) is, and at all times pertinent to this cause of
action, was an owner of record of certain real property
abutting Lake Erie. His property is located in Erie
County, Ohio.
3. Relator commences and will maintain this
litigation as a named relator/plaintiff on behalf of his
putative class hereinafter further set forth.
4. Respondents/Defendants are the ODNR, its
Director, James Zehringer and the State of Ohio
(collectively “ODNR”).
JURISDICTION AND VENUE
5. This Court has jurisdiction over this action on the
basis that Relator is a resident of Ohio and the sole
relief sought by Relator is a declaratory judgment and
other equitable relief.

App. 167
6. Venue is proper in this Court because the claims
of Relator arose in Erie County, Ohio. Relator resides
in Erie County, Ohio, and Erie County, Ohio is the
county in which the defendant, ODNR, conducted
activity that gave rise to the claim for relief
BACKGROUND
7. The first section of the first article of the Bill of
Rights of the Ohio Constitution proclaims the
inalienable right of people in this state to acquire,
possess, and protect property. The Ohio Constitution
further prohibits the state from taking private property
for a public use without first paying compensation to
the property owner. The United States Constitution
contains equivalent provisions. As well the 14th
Amendment to the United States Constitution
prohibits the conduct of ODNR complained of, herein.
8. Legal title to many parcels of real property
abutting Lake Erie have been held in private
ownership since before Ohio was admitted into the
Union as a state in 1803. Since that time, Ohio law has
recognized and protected the inalienable property
rights of those holding legal title to these parcels, for
purposes of this litigation known as “upland” or
“littoral” owners.
9. For over 200 years, Ohio law has recognized the
property rights of littoral owners, both with regard to
the ownership in fee simple of the upland property as
defined by the owner’s deed or original patent and also
as to the rights – known as littoral rights – such
property owners have to access and use of the adjoining
waters of Lake Erie. Ohio law also has long recognized

App. 168
that the lakeward property line of a littoral owner
whose ownership extends to Lake Erie is a “moveable
freehold” in that such property line can move either
lakeward or landward by virtue of accretion, erosion, or
reliction. The property owned by the littoral Class
Owners abuts the submerged lands of Lake Erie, title
to which, together with the waters of Lake Erie and
their contents, is held in trust for the benefit of the
people of Ohio for the public uses of navigation, water
commerce, fishing and fisheries.
10. This concept of trust ownership by the State of
the waters of Lake Erie and the soil beneath currently
is codified in Section 1506.10 of the Ohio Revised Code
and is expressly made subject to the property rights of
littoral owners. That section also designates ODNR “as
the state agency in all matters pertaining to the care,
protection, and enforcement of the state’s rights
designated in this section.”
11. Under cover of its “coastal management
program,” ODNR had abused it authority by willfully
ignoring the boundary between private and public
ownership fixed by Ohio law.
12. ODNR had asserted that the state of Ohio
owned all land lakeward of the “ordinary high water
mark,” or “OHW,” which for administrative
convenience the ODNR defined as wherever the U.S.
Army Corps of Engineers defined the Ordinary High
Water for purposes of federal law. Thus, contrary to
established Ohio law, ODNR sought to exercise all
property rights of fee ownership as to all property
lakeward of OHW, regardless of whether that property

App. 169
is submerged and regardless of whether that property
is privately owned.
13. Littoral owners are required to pay real estate
taxes based upon the whole of their privately owned
fee. Some littoral owners wishing to use their private
property located below OHW had been required by
ODNR to lease this land from the state, despite that
the land was owned in fee by the littoral owners.
ODNR had maintained that no littoral owner might
make use of their own property, nor exclude third
parties from such property, as long as that property
lies below OHW. Such conduct constituted a taking by
the State.
14. ODNR’s actions threw doubt upon the littoral
owners’ title to their properties and prevented some of
them from obtaining title insurance for their private
property located below OHW but landward of the
state’s actual fee ownership.
15. In response to ODNR’s actions, a group of
littoral landowners filed a lawsuit in the Court of
Common Pleas of Lake County challenging the
designation of OHW as the property line for all land
abutting Lake Erie. The case, State ex rel. Merrill v.
Ohio Dept. of Natural Resources, Lake Co. Case No.
04CV001080, was brought on behalf of a class of all
littoral property owners bordering Lake Erie. The
plaintiffs in Merrill sought a declaratory judgment that
the class members own fee title to the lands located
between OHW and the actual legal boundary of their
properties and to declare that the submerged land
leases were void and invalid as to any land below OHW
owned by the class. The Merrill plaintiffs also sought a

App. 170
writ of mandamus to compel ODNR to commence
appropriation proceedings for all class members to
determine the amount of compensation due to each of
them for the temporary taking of the property by the
State.
16. The Merrill trial court certified a class under
Civ.R. 23(B)(2) for Count I, the declaratory judgment.
A class may be maintained under Civ.R. 23(B)(2) when
the party opposing the class has acted or refused to act
on grounds that apply generally to the class so that
final injunctive relief or corresponding declaratory
relief is appropriate respecting the class as a whole. A
Civ.R. 23(B)(2), moreover, is a mandatory class with no
right to opt out of the certification and no requirement
of notice to class members. This class was defined as
“all persons, as defined in R.C. 1506.01(D), excepting
the State of Ohio and any state agency as defined in
R.C. 1.60, who are owners of littoral property bordering
Lake Erie (including Sandusky Bay and other estuaries
previously determined to be a part of Lake Erie under
Ohio law) within the territorial boundaries of the State
of Ohio.”
17. That Court also granted partial summary
judgment for the benefit of the Class, concluding that
the public trust neither extended to the ordinary highwater mark nor terminated at the low-water mark. The
trial court held that the boundary is “a moveable
boundary consisting of the water’s edge, which means
the most landward place where the lake water actually
touches the land at any given time.”
18. The case eventually made its way to the Ohio
Supreme Court. In State ex rel. Merrill v. Ohio

App. 171
Department of Natural Resources, 130 Ohio St.3d 30,
2011-Ohio-4612, 955 N.E.2d 935, the Supreme Court
held that “the territory of Lake Erie held in trust by
the state of Ohio for the people of Ohio extends to the
‘natural shoreline,’ which is the line at which the water
usually stands when free from disturbing causes.” Id.
at ¶4. In doing so, the Ohio Supreme Court rejected
ODNR’s assertion that the proper boundary is OHW.
The case was remanded to the trial court for further
proceedings on the pending claims consistent with the
opinion of the Ohio Supreme Court.
19. On August 27, 2012, on remand, the trial court
issued an Order clarifying and defining what
constitutes the “natural shoreline,” as that concept was
not directly addressed by the Ohio Supreme Court.
Such Order also granted the relief requested, to declare
as void and invalid any submerged land lease as to
land below the OHW and above the natural shoreline
and for ODNR to return all submerged land lease fees
collected between OHW and the natural shoreline
which were paid by the Class Members between 1998
and the present.
20. The August 27, 2012 Order also extended the
class certification to Count II, the mandamus claim.
The trial court reasoned that:
[t]o the extent Count II of the First Amended
Complaint seeks a declaration that the state’s
assertion of ownership up to the OHWM
constitutes an unconstitutional temporary
taking against all owners of littoral property
bordering Lake Erie, the class that would be
certified for resolution of that issue would have

App. 172
the exact same members as the class currently
certified to Count I, i.e., all littoral property
owners bordering Lake Erie. Thus, the class
certified for Count I could be maintained
through the conclusion of Count II of the First
Amended Complaint. The relief sought in Count
II does not change the analysis, as a writ of
mandamus is in the nature of an injunction,
albeit mandatory rather than prohibitory, and
thus subject to certification on a class-wide basis
under Civil Rule 23(B)(2).
On March 1, 2014, the Eleventh District Court of
Appeals affirmed the trial court’s Order.
21. On May 27, 2016, the parties to the Merrill
litigation entered into a proposed settlement
agreement, which was filed with the Lake County
Court. ODNR agreed to pay a set sum to and/or for a
Settlement Class. A certain amount was allocated to
the return of submerged land lease rentals and
attorneys fees with respect to Count I. The remainder
of the settlement fund was to be distributed according
to a plan of allocation, to proportionally allocate the
funds to any settlement class members, who filed
acceptable Proofs of Claims.
22. The Merrill Class as initially certified by the
trial court for Count II was properly certified under
Civ.R. 23(B)(2), because the relief sought in the First
Amended Complaint was declaratory and for
mandamus relief. Despite the certification of the
Merrill Class as a Civ.R. 23(B)(2) class, the terms of the
Settlement Agreement provided class members with
money damages, not the equitable relief that had

App. 173
originally been sought. If the Merrill case had not
settled, the Merrill court would have been required to
issue a declaration on the question of an
unconstitutional taking, and ODNR would have been
compelled to seek out each property owner to settle or
to commence appropriation proceedings, thereby
making further actual notice to each class member
unnecessary. However, with the addition of monetary
damages allocated to property owners that did not have
submerged land leases with ODNR, this class action
should have been only and appropriately certified
under Civ.R 23(B)(3). Payment of money damages
triggered the due process requirements that require the
provision of notice to class members as described in
Civ.R. 23(C)(2)(b).
23. However, instead of recognizing the due process
requirements, the parties and the trial Court continued
to treat the settlement class as certified only under
Civ.R 23(B)(2). Notice of the settlement was mailed
only to those class members with submerged land
leases. Because the Merrill Class was certified under
Civ.R. 23(B)(2), no Class Member was given notice of
the right to opt out of the settlement and all Class
Members were denied any right to opt out. Class
members who are owners of littoral property without
submerged land leases were, for the most part,
unaware of the action and the need to file a Proof of
Claim in order to claim the funds due them. The
individual named Plaintiff in this Complaint did not
receive notice of the Menill settlement, but would have
filed a Proof of Claim had he been advised of the
settlement. He was not aware of his right to object to
the settlement. Although the settlement agreement

App. 174
provides that the class members have released all
claims, the class members who did not receive notice
are unaware of what they had purportedly
surrendered. Because of this due process violation, all
settlement class members who were denied their due
process rights when they were not provided notice, as
required under Civ.R 23(C)(2)(b), continue to be able to
seek the remedy that they were denied in the Merrill
action and which is being sought by the filing of this
cause of action.
CLASS ALLEGATIONS
24. Plaintiff brings this action as a class action
under Civ.R. 23(B)(2) on behalf of himself and all other
members of a Class defined as all of the approximately
15,500 private littoral owners of parcels of real
property abutting Lake Erie within the State of Ohio
who were not sent notice of the settlement of the case
captioned State ex rel. Robert Merrill, et al v. State of
Ohio Department of Natural Resources, et al., Case No.
04CV001080, filed in the Court of Common Pleas, Lake
County Ohio; and who did not file a Proof of Claim with
the Settlement Administrator.
25. The members of the Class are so numerous that
the joinder of all individual members is impracticable.
26. There are common questions of law and fact as
to the unconstitutional taking of private property by
ODNR which was owned by the Plaintiff and his Class
Members in this case.
27. The claims of the Plaintiff are typical of the
claims of the Class, and ODNR’s defenses are typical of

App. 175
the defenses pertinent to all of the members of the
Class.
28. Plaintiff will fairly and adequately protect the
interests of the Class.
29. ODNR has acted or refused to act on grounds
generally applicable to the Class, thereby making
appropriate declaratory relief and associated injunctive
relief with respect to the Class as a whole.
30. Adjudication of this case as a class action will
facilitate judicial economy.
COUNT I
Declaratory Judgment
31. The facts alleged in paragraphs 1 through 30 of
this Complaint are realleged and incorporated herein
by reference.
32. Prior to the decision of the Ohio Supreme Court
in State ex rel. Merrill v. Ohio Department of Natural
Resources, 130 Ohio St.3d 30, 2011-Ohio-4612, 955
N.E.2d 935, ODNR contended that the State of Ohio
held title to all lands located below the
administratively arbitrary line of OHW.
33. ODNR contended that Plaintiffs were prohibited
from using any land located below OHW, regardless of
fee ownership of that land.
34. Pursuant to Ohio Revised Code Chapter 2721,
Plaintiffs are entitled to an order of this Court
declaring that ODNR’s arbitrary and capricious
assertion of ownership and exercise of ownership rights
over the lands owned by Plaintiffs at and below OHW

App. 176
constituted an unconstitutional temporary taking of
those lands; and the Plaintiff and Class Members
should be declared to have a clear right to receive
compensation from ODNR for such taking and de facto
appropriation pursuant to Article I, Section 19 of the
Ohio Constitution and the Fifth Amendment to the
U.S. Constitution.
COUNT II
Mandamus/Inverse Takings Compensation
35. The facts in paragraph 1 through 34 of this
Complaint are realleged and incorporated herein by
reference.
36. Plaintiff and the Class Members have no plain
and adequate remedy in the ordinary course of law
other than to require ODNR to compensate each of
them, individually, fairly for the losses and damages
that they have incurred as a result of ODNR’s
uncompensated taking of their privately owned real
property.
37. ODNR is under a clear legal duty to commence
appropriation proceedings in the Probate Court of the
respective counties in which the properties owned by
Plaintiff and Class Members are located, to determine
the amount of compensation due to each of them for the
real property temporarily taken and for damage to the
residue of their respective real properties.
PRAYER FOR RELIEF
WHEREFORE, the Plaintiff, on behalf of himself
and the Class Members, requests that this Court grant
the following relief:

App. 177
1) Pursuant to Ohio Civil Rule 23(B)(2), certify this
case as a class action and certify that the class
shall include each and every owner of a parcel of
privately owned real property abutting Lake
Erie located within the State of Ohio to whom
they received neither actual notice of the
settlement of State ex rel. Merrill v. Ohio
Department of Natural Resources, nor any
compensation related to that settlement.
2) A declaratory judgment that that ODNR’s
arbitrary and capricious assertion of ownership
and exercise of ownership rights over the lands
owned by Plaintiffs at and below OHW
constituted an unconstitutional temporary
taking of those lands and the Plaintiff, and each
member of his Class, have a clear right to
receive compensation from ODNR for such
taking by appropriation, pursuant to Article I,
Section 19 of the Ohio Constitution and the Fifth
Amendment to the U.S. Constitution.
3) A Writ of Mandamus compelling and ordering
ODNR to commence appropriation proceedings
in the Probate Court of the respective counties
in which the properties owned by the Plaintiff
and Class Members are located to determine the
amount of compensation due to each for the real
property taken and for damage to the residue of
their real properties.
4) An award of Plaintiffs attorneys’ fees and costs.
5) Any other relief that this Court deems equitable,
proper, necessary, or just.

App. 178
Respectfully submitted,
s/ Margaret M. Murray
Dennis E. Murray, Sr. (0008783)
dms@murrayandmurray.com
Margaret M. Murray (0066633)
mmm@murrayandmurray.com
Donna J. Evans (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky, Ohio 44870
Telephone: 419-624-3000
Facsimile: 419-624-0707
Attorneys for Plaintiff

App. 179
INSTRUCTIONS TO THE CLERK:
Please cause to be served upon all Defendants a
copy of the Complaint. Said service is requested by
certified mail.
s/ Margaret M. Murray
Dennis E. Murray, Sr. (0008783)
Margaret M. Murray (0066633)
Donna J. Evans (0072306)
MURRAY & MURRAY CO., L.P.A.
Attorneys for Plaintiff

App. 180
FRAZZINI EXHIBIT B
MURRAY & MURRAY
EXPERIENCED TRIAL LAWYERS
March 22, 2018
Daniel Gibson
Bricker & Eckler LLP
100 South Third Street
Columbus, OH 43215-4291
VIA ELECTRONIC AND U.S. MAIL
In re: SER Sortino v. ODNR, et al.
Erie County Court of Common Pleas
Case No. 2018 CV 0074
Dear Mr. Gibson:
During a recent telephone call, you mentioned
language from another case and asked whether we had
considered the import of that language. Specifically,
you referenced the language from the October 26, 2016
order entered in SER Merrill v. ODNR, et al., Lake
County Common Pleas Case No. 04CV001080 which
provided that Court with jurisdiction to implement and
enforce the settlement. We have reviewed that
language and the case law and determined that Lake
County Common Pleas Court lacks jurisdiction in this
litigation.
As the pleadings establish, Plaintiff and the
putative class members are not part of the Merrill
settlement. Putative class members cannot be bound
absent notice and the opportunity to opt out. Becherer
v. Merrill Lynch; Pierce, Fenner & Smith, 43 F.3d 1054

App. 181
(6th Cir. 1995), aff’d 131 F.3d 580, 587 (1997) (“In order
to be bound by a prior judgment, a nonparty to that
judgment must have been represented by a privy”).
Plaintiff and the putative class members received
neither notice nor the opportunity to opt out of the
Merrill settlement. By definition, the class members in
this litigation are not bound by the Merrill settlement
agreement.
Moreover, while res judicata may prevent absent
class members from bringing related claims, a court
cannot apply that doctrine to absent class members, as
would be the case here, because doing so would violate
due process. In this litigation, application of res
judicata would clearly violate due process under the
Ohio Constitution and the United States Constitution.
Kurtz v. Kimberly-Clark Corp., 321 F.R.D. 482, 537
(E.D.N.Y. 2017). The stipulation in the settlement does
not apply to those who were denied due process.
Even if the Lake County Court of Common Pleas
exceeded its authority to approve a settlement
containing a provision for monetary damages, this
settlement is now final. A trial court lacks the
authority to reopen and modify a final judgment.
Wilken v. Wachovia Bank, 6th Dist. No. H-13-020, 2014Ohio-2840, ¶26. Further, a trial court lacks authority
to reconsider its final judgment, even if such
reconsideration is undertaken to correct an error. U.S.
Bank v. Schubert, 9th Dist. No. 13CA010462, 2014Ohio-3868, ¶12. The Merrill settlement cannot now be
modified, despite the fact that the Lake County trial
court ostensibly retained jurisdiction for the purposes
of enforcing the settlement and the releases. Any

App. 182
continuing jurisdiction cannot be used to remake a
settlement, later discovered to be defective, or to
correct other errors found after the judgment has
become final.
If Defendants in this matter elect to invoke the
jurisdiction of Lake County, Plaintiff will argue that a
settlement cannot be enforced against individuals who
are not parties, that is, putative class members who
were not given notice and did not have the right to opt
out of the settlement. The releases are not valid for
anyone who did not receive notice and the settlement
agreement specifically states that no class member had
the right to opt out of the settlement. If Defendants
decide to invoke the jurisdiction of Lake County, it is
the position of Plaintiff that this action would cause the
present matter to be delayed but that nevertheless Erie
County Common Pleas is the appropriate venue for this
matter. Further, it is our position that there are not
good grounds for involving the jurisdiction of Lake
County based either on the facts or the law.
Very truly yours,
MURRAY & MURRAY CO., L.P.A.
/s/ Margaret M. Murray
By:
Margaret M. Murray

App. 183
Bricker&Eckler
ATTORNEYS AT LAW
COLUMBUS | CLEVELAND
CINCINNATI | DAYTON
MARIETTA
BRICKER & ECKLER LLP
100 South Third Street
Columbus, OH 43215-4291
MAIN: 614.227.2300
FAX: 614.227.2390
www.bricker.com
info@bricker.com
Daniel C. Gibson
614.227.2324
dgibson@bricker.com
March 27, 2018
VIA ELECTRONIC MAIL
Margaret M. Murray
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky, Ohio 44870-2517
Re:

State ex rel. Sortino v. ODNR, et al.
Case No. 2018 CV 0074
Erie County Court of Common Pleas

Dear Ms. Murray:
I am writing in response to your letter dated March
22, 2018 concerning the appropriate jurisdiction for the

App. 184
above-referenced litigation. You have taken the
position that, despite the reservation of exclusive
jurisdiction contained in the Merrill final judgment,
proceeding in Judge Lucci’s court is not proper, because
Mr. Sortino was not a party to the Merrill settlement
and final judgment. Rather than address all of the
various factual and legal propositions in your letter—
many of which are inaccurate and unsupported by the
authorities you cite—it is sufficient to simply note the
fundamental error in your position as it relates to the
jurisdictional question.
To wit: There is an obvious and essential distinction
between the question of whether the Merrill settlement
and final judgment are validly enforceable against Mr.
Sortino and the question of whether Mr. Sortino was a
party to Merrill subject to its judgment in the first
place. If, as you assert in your Letter, Mr. Sortino was
not even a party, then the issues of notice, due process,
etc., are utterly immaterial. On the other hand, if Mr.
Sortino was a party, then although you may believe
that alleged procedural defects render the settlement
and final judgment nonbinding as to him, “the
settlement is now final” as you acknowledge, and he
remains bound by it unless and until a court with
proper jurisdiction concludes otherwise.
Contrary to what your letter suggests, your actual
position, as clearly and unequivocally stated in your
pleading, is—and could in good faith only be—that Mr.
Sortino was indeed a party to the Merrill settlement
and final judgment, i.e., he was a Settlement Class
member, but that he should not be bound by it due to
alleged procedural defects. See, e.g., Complaint, ¶23

App. 185
(Sortino “would have filed a Proof of Claim had he been
advised of the settlement” and “the class members who
did not receive notice are unaware of what they had
purportedly surrendered” and “all settlement class
members who were denied their due process rights”
(emphases added)). See also, Merrill Stipulation of
Settlement at (II. Definitions, ¶21, defining the
“Settlement Class”); Merrill Final Judgment, ¶4 (“all
members of the Settlement Class are bound by this
Judgment”). These alleged procedural flaws are pled in
the Complaint precisely out of the recognition that,
unless the Merrill settlement and final judgment are
deemed unenforceable as to Mr. Sortino, he cannot
pursue the claims he has purported to assert in this
action. Given that it is clear that Mr. Sortino was a
party subject to the Merrill judgment, the only question
is which court has the power to decide whether it is
enforceable against him?
The Merrill final judgment is unequivocal in that
regard. Indeed, whether Mr. Sortino is bound by the
final judgment in the first instance—whether notice
was proper, whether the class settlement satisfied due
process, whether the entire Settlement Class is bound,
whether he even has a right to level such challenges,
etc.—are precisely the questions that Judge Lucci has
retained exclusive jurisdiction to decide. See, Merrill
Final Judgment, ¶ 12 (retaining exclusive jurisdiction
over “enforcement of the Settlement,” over “enforcing
this Judgment,” over “enforcing...the releases,” and
over “other matters arising from or relating to the
foregoing”). In fact, they are questions that Judge Lucci
has, in large part, already decided. See, id. at ¶¶3-4
(finding notice to be adequate and due process to be

App. 186
satisfied as to “all members of the Settlement Class,”
which includes George Sortino). And it is beyond
reasonable dispute that such reservations are fully
enforceable under Ohio law. See, e.g., Infinite Sec.
Solutions, LLC v. Karam Properties II, 143 Ohio St.3d
346, 2015-Ohio-1101, 37 N.E.3d 1211, ¶ 25 (holding
that reservations of jurisdiction to enforce a settlement
are valid) and State ex rel. Racing Guild, Local 304 v.
Morgan, 17 Ohio St.3d 54, 56, 476 N.E.2d 1060 (1985)
(first invoked jurisdiction over an issue is exclusive of
all other tribunals).
In short, and as the Complaint implicitly
acknowledges, the Merrill settlement and final
judgment are enforceable against Mr. Sortino and all
class members unless and until a court with proper
jurisdiction concludes otherwise. Mr. Sortino cannot
avoid Judge Lucci’s reservation of exclusive jurisdiction
to address that preliminary issue, simply by
bootstrapping his collateral attack upon the
enforceability of the Merrill judgment against him, into
the very claim for which he seeks relief to pursue in a
different court.
Please notify us by close of business on Wednesday,
March 28, 2018 whether your position has changed in
light of the foregoing. If we are forced to seek dismissal
or change of venue by motion with the Court, our
clients may seek recovery of the fees expended in
having to go through that unnecessary exercise.
Sincerely,
/s/ Daniel C. Gibson
Daniel C. Gibson

App. 187
MURRAY & MURRAY
EXPERIENCED TRIAL LAWYERS
March 28, 2018
Daniel C. Gibson
Bricker & Eckler LLP
100 South Third Street
Columbus, OH 43215-4291
VIA ELECTRONIC AND U.S. MAIL
In re: SER Sortino v. ODNR, et al.
Erie County Court of Common Pleas
Case No. 2018 CV 0074
Dear Mr. Gibson:
When your client settled claims in the Lake County
Court of Common Pleas and included monetary
damages for individual property owners who did not
have submerged land leases with the Ohio Department
of Natural Resources, that settlement exceeded the
jurisdiction of that court. Had the parties entered a
settlement under Civ.R. 23(B)(3), the putative class
members, such as George Sortino, would have received
notice and the opportunity to object to the settlement
based on lack of jurisdiction. Instead, ODNR and the
plaintiffs in Merrill entered a Civ.R. 23(B)(2)
settlement, provided no notice to putative class
members aside from those who had entered an
appearance in that litigation or had submerged land
leases with ODNR, and exceeded the jurisdiction of the
state common pleas court by including monetary
damages for class members who did not have
submerged land leases with ODNR and who filed
claims. ODNR was fully aware that the state common

App. 188
pleas court lacked jurisdiction to effectuate the
settlement over putative class members who did not
have submerged land leases and for whom it was
offering a monetary settlement.
As ODNR stated, ODNR and the other defendants
in Merrill “would be unfairly prejudiced if their limited
stipulation to three issues of law were now somehow to
be expanded to an unlimited stipulation that OLG may
represent all littoral land owners for all claims
whatsoever.” State Defendants/Respondents’ Response
to Plaintiff OLG’s Statement of Additional Relief
Sought on Count I of the First Amended Complaint,
filed June 18, 2013, Merrill v. ODNR, Lake County
C.P. No. 04-CV-00180. ODNR highlighted the fact that
“[w]hen a party seeks money damages against the
State the only court with jurisdiction to hear the claim
is the Court of Claims.” Id. citing R.C. Chapter 2743.
“Especially where funds are distributed without being
specifically identified as being wrongly withheld and
traceable and returnable to a particular party, cf.
Santos v. Ohio Bureau of Workers Compensation, 101
Ohio St.3d 74, 2004-Ohio-28, 801 N.E.2d 441, such
award is in the nature of a damages award (and
perhaps even a award of punitive damages) and is not
an equitable remedy within the jurisdiction of this
Court.” Id.
The issues of Civ.R. 23(B)(3) are relevant to the
above-captioned case because the settlement in Merrill
failed to follow the dictates of the law. The statement
that such analysis is “utterly immaterial” misses the
point of this litigation. As stated in Plaintiff’s
Complaint herein, the tangled settlement entered by

App. 189
the parties in Merrill ostensibly bound all private
littoral owners of parcels of real property abutting Lake
Erie within the State of Ohio. Complaint, ¶24. This
litigation was commenced precisely to confirm that the
Plaintiff and putative class members in this case are
not bound by the Merrill settlement for the reasons
delineated in the Complaint and articulated by your
client in the Merrill litigation and for equitable relief.
Lastly, your statement that the State of Ohio will
seek attorney fees is contrary not only to the law but
also to your client’s statements within the Merrill
litigation. As you are aware, Plaintiff herein is seeking
equitable relief. The State is ineligible to recover
compensation for fees incurred as a prevailing party.
R.C. 2335.39. The State includes the ODNR. R.C.
2743.01(A). ODNR noted that “[b]y its terms and
structure, R.C. 2335.39 is not designed to cover class
actions.” State Defendants/Respondents’ Initial Brief in
Opposition to Plaintiff OLG’s Renewed and
Supplemental Motion for Fees with Oral Argument
Requested, filed June 29, 2012, Merrill.
Very truly yours,
MURRAY & MURRAY CO., L.P.A.
/s/ Margaret M. Murray
By:
Margaret M. Murray
Cc:

Dennis E. Murray, Sr.
Donna A. Evans

App. 190
Archived:
From:
Sent:
To:
Cc:
Subject:
Sensitivity:

Thursday, May 24, 2018 1:37:36 PM
Margaret M. Murray
Monday, May 14, 2018 4:29:19 PM
Gibson, Daniel
Dennis E. Murray, Sr.; Donna Evans
Sortino v. ODNR., et al
Normal

Dan –
We have reviewed your clients’ proposal that Mr.
Sortino agree to stay his cause in Erie County and we
cannot agreed with your clients’ proposal to stay.
Because there are three attorneys staffing this
litigation, we would be very appreciative if, in the
future, you would make such proposals in email, rather
than by telephone.
Margaret
Margaret M. Murray
mmm@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky OH 44870
Telephone: (419) 624-3000
Direct Dial: (419) 624-3128
Facsimile: (419) 624-0707

App. 191
FRAZZINI EXHIBIT C
IN THE COURT OF COMMON PLEAS,
ERIE COUNTY, OHIO
Case No. 2018 CV 0074
Judge BINETTE
[Filed: April 3, 2018]
__________________________________________
STATE OF OHIO ex rel.
)
George Sortino,
)
)
Relator/Plaintiff,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Respondents/Defendants.
)
__________________________________________)
ORAL ARGUMENT REQUESTED
DEFENDANTS’ MOTION TO DISMISS FOR
LACK OF JURISDICTION OR, IN THE
ALTERNATIVE, FOR TRANSFER OF VENUE
Pursuant to Civ. R. 12(B)(1), Respondents/
Defendants State of Ohio, Department of Natural
Resources, James Zehringer, Director of Ohio
Department of Natural Resources, and State of Ohio,
(the “State Defendants”), hereby move the Court for an
Order dismissing the Complaint of Plaintiff/Relator,

App. 192
State of Ohio ex rel. George Sortino, (“Sortino”),
without prejudice, for lack of jurisdiction. In the
alternative, the State Defendants move the Court for
an Order transferring this case to the Hon. Judge
Eugene Lucci in the Lake County Court of Common
Pleas in light of his prior reservation of exclusive
jurisdiction over the matters alleged in the Complaint.
The grounds for this Motion are set forth in the
Memorandum in Support attached hereto. Pursuant to
Local Rule 4.01, the State Defendants request oral
argument on this Motion.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL
/s/ Daniel C. Gibson
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Lindsey A. Roberts (0096979)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
lroberts.bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural
Resources, and the Director of Ohio
Department of Natural Resources

App. 193
MEMORANDUM IN SUPPORT
I.

INTRODUCTION

This Court lacks jurisdiction over the present
action. The Lake County Court of Common Pleas first
obtained and has reserved continuing and exclusive
jurisdiction over the matters raised in Sortino’s
Complaint. Specifically, Sortino has purported to assert
various, putative class action claims against the State
Defendants, which were already adjudicated and
resolved via a class action settlement and final
judgment of dismissal entered in the Lake County
Court of Common Pleas in the case of In re Merrill v.
ODNR, et al., Erie Case No. 04CV001080. 1
Despite indisputably being a member of what he
concedes was a “properly certified” class, (Complaint,
¶ 22), subject to the settlement and final judgment in
Merrill, Sortino asserts in his Complaint that he and
the other putative class members he now seeks to
represent in this action should not be bound by the
Merrill settlement and final judgment, due to alleged
procedural defects, such as lack of adequate notice
and/or opportunity to opt out. Complaint, ¶ 23. While
Sortino is flatly wrong concerning the procedural
validity of the Merrill settlement and final judgment as
1

True and accurate copies of the Merrill stipulation of settlement
and final judgment are attached as Exhibits A and B respectively.
‘“[D]ocuments that a defendant attaches to a motion to dismiss are
considered part of the pleadings if they are referred to in the
plaintiff’s complaint and are central to her claim.”’ Henkel v.
Aschinger, Franklin C.C.P. No. 11CVH-11-14,234, 167 Ohio Misc.
4 (2012)(quoting Nieman v. NLO, Inc., 108 F.3d 1546, 1555 (6th
Cir.1997) (internal citations omitted)). See, Complaint, ¶¶ 15-24.

App. 194
applied to him, the primary problem for Sortino is that
the final judgment in Merrill contains an express
reservation of exclusive jurisdiction over the very
challenges to its enforceability that he raises—and
must raise—in his effort to reassert claims already
adjudicated on his behalf. See, Merrill Final Judgment,
¶ 12.
Because the Lake County Court of Common Pleas
has retained exclusive jurisdiction to decide the
matters raised in Sortino’s Complaint, this Court lacks
jurisdiction to adjudicate Sortino’s claims and to decide
the issues it presents. As a result, the Complaint
should be dismissed without prejudice, so that Sortino
can decide whether to re-file in the only court with
proper jurisdiction. In the alternative, this Court
should stay the present action and order that it be
transferred to the Lake County Court of Common Pleas
so that Judge Lucci, possessing the only valid
jurisdiction over this matter, has the opportunity to
decide—at a minimum—the preliminary issues
concerning the propriety and enforceability of the
Merrill settlement and final judgment with respect to
Sortino.2

2

The State Defendants note that this Court need not presently
decide the issue of whether the Merrill Court’s reservation of
exclusive jurisdiction would also extend to Sortino’s claims
themselves, in the event it concludes that the Merrill settlement
and final judgment are somehow not binding on Sortino. It is
sufficient for purposes of this Motion to note that the Merrill Court
clearly has exclusive jurisdiction to decide the enforceability issues
concerning the Merrill settlement and final judgment, which—as
Sortino openly acknowledges in his Complaint—are threshold
questions that must be decided before he can proceed with the

App. 195
Simply put: Ohio law does not permit a party to
avoid another court’s valid reservation of exclusive
jurisdiction by bootstrapping into the party’s cause of
action in a different court a collateral attack on the
very judgment reserving that jurisdiction.
II.

RULE 12(B)(1) STANDARD

“Under Civ.R. 12(b)(1), lack of subject matter
jurisdiction, the question of law is whether the plaintiff
has alleged any cause of action for which the court has
authority to decide.” Rengel v. Valley Forge Ins. Co., 6th
Dist. Ottowa No. OT-03-045, 2004-Ohio-5248, ¶ 10
(emphasis added) (citing McHenry v. Indus. Comm., 68
Ohio App.3d 56, 62, (4th Dist. 1990)). See also
Washington Mut. Bank v. Beatley, 10th Dist. Franklin
No. 06AP-1189, 2008-Ohio-1679, ¶ 8 (“The standard of
review for a dismissal pursuant to Civ.R. 12(B)(1) is
whether any cause of action cognizable by the forum
has been raised in the complaint” (emphasis added)).
Moreover, it is well-established in Ohio that “[a]s
between courts of concurrent jurisdiction, the tribunal
whose power is first invoked by the institution of
proper proceedings acquires jurisdiction, to the
exclusion of all other tribunals, to adjudicate upon the
whole issue and to settle the rights of the parties.”
State ex rel. Racing Guild, Local 304 v. Morgan, 17
Ohio St.3d 54, 56 (1985) (emphasis added). And, as the
Ohio Supreme Court also has made clear, reservations
of continuing jurisdiction over the enforceability of
settlements, which otherwise result in a final judgment
prosecution of his claims in any court. See, Complaint, ¶¶ 22-23;
Merrill Final Judgment, ¶ 12.

App. 196
of dismissal, are fully enforceable under Ohio law. See,
e.g., Infinite Sec. Solutions, LLC v. Karam Properties II,
143 Ohio St.3d 346, 2015-Ohio-1101, ¶ 25.
Thus, dismissal is the appropriate result when the
“jurisdictional priority rule” applies and it is
established that another tribunal possesses exclusive
jurisdiction over the “whole issue” of which the
plaintiff’s claims are at least a part. Rengel at ¶ 32. See
also, Ashtabula County Airport Auth. v. Rich, 11th
Dist. Ashtabula No. 2013-A-0069, 2014-Ohio-4288,
¶¶ 22-25. Alternatively, when the jurisdictional priority
rule applies, a transfer to the court that has priority
may also be appropriate. See, e.g., State ex rel. Taft v.
Franklin Cty. Court of Common Pleas, 81 Ohio St. 3d
1244, 1246 (1998). However, typically the application
of the jurisdictional priority rule requires dismissal
rather than a transfer of venue. See, Langaa v. Pauer,
11th Dist. Geauga No. 2001-G-2405, 2002-Ohio-5603,
¶ 16.
III.

ARGUMENT

This Court does not have the power to decide the
enforceability of the Merrill settlement and final
judgment, even if alleged procedural defects gave rise
to them. There is no dispute that jurisdiction over the
matters raised in Sortino’s Complaint was first
properly invoked in the Lake County Court of Common
Pleas in the Merrill case.3 The exercise of that
3

Sortino does not question whether the Lake County Court of
Common Pleas had jurisdiction to decide the Merrill case or even
to certify the class that included George Sortino himself, as he
acknowledges, e.g., the propriety of the original Count II

App. 197
jurisdiction resulted in the entry of a final judgment of
dismissal, which incorporated a court-approved class
settlement.4 And the final judgment expressly reserved
continuing jurisdiction over the enforcement of the
settlement itself and over the enforcement of the
releases contained in the settlement that barred future
claims by class members, including the very claims
Sortino now purports to bring in this Court—as well as
“other matters arising from or relating [thereto].” See,
Merrill Final Judgment, ¶ 12. Thus, pursuant to the
jurisdictional priority rule, Judge Lucci possess
exclusive jurisdiction to decide the matters raised in
Sortino’s Complaint. Dismissal without prejudice is,
therefore, appropriate.
Merely alleging that the Merrill settlement and
final judgment are not valid and binding as to
certification in Merrill, the finality of the Merrill settlement and
final judgment, and even their validity as to some class members.
Rather, Sortino merely asserts that the decision the Lake County
Court rendered in approving the class settlement was in error,
because it allegedly violated the procedural rights of certain class
members. See, e.g., Complaint, ¶¶ 15-24.
4

Importantly, under the jurisdictional priority rule, the first court
retains exclusive jurisdiction until it has “exhausted its
jurisdiction,” which is accomplished only by a final judgment that
“disposes of all issues before that court.” Brooks v. Brooks, 10th
Dist. Franklin No. 87AP-980, 1988 Ohio App. LEXIS 4372, *6-7 (10
Dist.). When a court retains continuing and exclusive jurisdiction
over matters, even after final judgment, it has not exhausted its
jurisdiction in a manner that defeats the jurisdictional priority
rule. See, Hardesty v. Hardesty, 16 Ohio App. 3d 56, 56-58 (10 Dist.
1984). See also, Saslow v. Saslow, 104 Ohio App. 157, 166 (2d Dist.
1957)(a court exhausts its jurisdiction only by issuing a final
decree “without reservation of jurisdiction”).

App. 198
Sortino—e.g., because of inadequate notice, because a
(B)(2) class cannot settle for alleged money “damages”
without a right of class members to opt out, etc.—does
not alter the jurisdictional analysis in any way. Those
assertions are mistaken on a number of levels, but
more importantly for purposes of this Motion, are
precisely the questions over which Judge Lucci has
reserved exclusive jurisdiction to decide. See, Merrill
Final Judgment, ¶ 12. If a party could avoid a
reservation of exclusive enforcement jurisdiction by
merely alleging that the judgment containing the
reservation is not enforceable against them, then such
reservations would be a superficial nullity in direct
contradiction to what the Ohio Supreme Court has
declared. Indeed, ignoring the clear dictates of the
Merrill final judgment requires either defiance of the
Supreme Court’s holding in Infinite or disregard for its
decision in Morgan. Either way, Sortino’s position is
flatly contrary to Ohio law.
Moreover, the Merrill reservation of exclusive
jurisdiction is not merely procedurally proper and
legally binding—it also is practically sensible. This is
because the very bases for Sortino’s challenges to the
validity of the Merrill settlement and final judgment
are matters that Judge Lucci—and not this or any
other court—would have decided in the first instance,
had they been raised during the Merrill proceedings. It
cannot reasonably be disputed that, had Sortino
asserted his present objections to the Merrill
settlement in this Court while the Merrill case was still
pending in Lake County, this Court never would have
entertained his arguments—because it so obviously
would have lacked the jurisdiction to do so. Judge

App. 199
Lucci’s retention of continuing, post-judgment
jurisdiction over those very objections makes the
present circumstances legally indistinguishable from
that obvious case. See, fn. 4, supra.
In short, the question in this Motion is not whether
Sortino is right in his collateral attacks on the Merrill
settlement and final judgment—although he is not.
Rather, the question is which court has the power to
decide whether he is right. Sortino’s position
transparently rests on circular reasoning. He asserts
that Judge Lucci’s reservation of jurisdiction to decide
questions concerning enforcement of the Merrill
settlement and final judgment is not binding, precisely
because the settlement and final judgment are
procedurally flawed and thus not enforceable against
him.5 In other words, this Court must assume that
Sortino is right in order to conclude that it has the
power to decide whether he is right in the first place. It
should decline his invitation to defy both sound logic
and Ohio law.
IV.

CONCLUSION

For the foregoing reasons, this Court should dismiss
Sortino’s Complaint without prejudice for lack of
jurisdiction. In the alternative, this Court should stay

5

In an effort to avoid the need for filing this Motion, the parties
engaged in written correspondence in which Sortino made clear
that he believed Judge Lucci’s reservation of jurisdiction to be
inapplicable, because of the alleged procedural defects in the
Merrill settlement and final judgment that he claims render
them—including the jurisdictional reservation—unenforceable as
to him.

App. 200
this action pending a transfer of venue to Judge Lucci
in the Lake County Court of Common Pleas. Pursuant
to Local Rule 4.01, the State Defendants respectfully
request oral argument on this Motion.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL
/s/ Daniel C. Gibson
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Lindsey A. Roberts (0096979)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
lroberts.bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural
Resources, and the Director of Ohio
Department of Natural Resources

App. 201
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on the 2nd
day of April, 2018, a copy of the foregoing
DEFENDANTS’ MOTION TO DISMISS FOR LACK
OF JURISDICTION OR, IN THE ALTERNATIVE,
FOR TRANSFER OF VENUE was filed electronically.
Notice of this filing will be sent to all registered parties
by operation of the Court’s electronic filing system.
Parties may access this filing through the Court’s
system.
s/ Daniel C. Gibson
Daniel C. Gibson

App. 202
FRAZZINI EXHIBIT D
IN THE COURT OF COMMON PLEAS
ERIE COUNTY, OHIO
Case No. 2018-CV-0074
Honorable Roger E. Binette
[Filed: May 3, 2018]
__________________________________________
STATE OF OHIO EX REL.
)
GEORGE SORTINO,
)
)
Plaintiff,
)
)
v.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, ET AL.,
)
)
Defendants.
)
__________________________________________)
RESPONSE TO DEFENDANTS’ MOTION
TO DISMISS FOR LACK OF JURISDICTION
OR, IN THE ALTERNATIVE,
FOR TRANSFER OF VENUE
I.

Introduction

On January 31, 2018, a Complaint was filed in this
Court by Relator/Plaintiff, George Sortino, on behalf of
himself and a class of property owners who did not
receive proper notice of a settlement entered into by
the Defendants in the Court of Common Pleas in Lake

App. 203
County, Ohio in In re Merrill v. ODNR, et al., Lake
County Case No. 04CV001080.
A class in the Merrill case had been, initially,
properly certified under Civ.R. 23(B)(2) on June 9,
2006. However by 2012, when the parties decided upon
the terms of the settlement (how much the plaintiffs’
leaders needed to drop the litigation as will be
described herein) the parties’ settlement unwittingly,
or otherwise, had converted the matter to a class such
that, by Ohio law, federal laws and virtually every
state law, was required to have been certified under
Rule 23(B)(3). For whatever reason this fact was never
addressed and no actual notice was ever given to the
absent class members, except for those few who
actually paid monies because of their submerged land
leases with the State, or who had intervened into the
litigation. In violation of the Ohio Rules of Civil
Procedure and in violation of fundamental federal and
state constitutions1, no class member or putative class
member was ever given their individual right to opt out
and thereby preserve a separate right to continue to
pursue such class member’s individual cause of action.

1

“No person shall be *** deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for
public use, without just compensation.” Fifth Amendment to the
U.S. Constitution.
“No state shall *** deprive any person of life, liberty, or property,
without due process of law ***.” Fourteenth Amendment to the
U.S. Constitution.
“All courts shall be open, and every person, for an injury done him
in his land, goods, person, or reputation, shall have remedy by due
course of law, and shall have justice administered without denial
or delay.” Ohio Constitution, Article I, Section 16.

App. 204
This class of individual owners who are the putative
class members in Sortino, thus, was deprived of their
right to fundamental due process under the law.
Putative class members cannot be bound, unless
they receive notice and the individual opportunity to
opt out of the proposed settlement. Becherer v. Merrill
Lynch, Pierce, Fenner & Smith, 43 F.3d 1054 (6th Cir.
1995), aff’d 131 F.3d 580, 587 (1997) (“In order to be
bound by a prior judgment, a nonparty to that
judgment must have been represented by a privy”).
Defendants now attempt to use the obviously
defective Merrill Settlement to convince this Court to
inappropriately dismiss this pending cause, or, in the
alternative, to improperly transfer the Sortino case to
Lake County.
The relief which Defendants seek is not even
available to them, nor should it be granted, because it
is procedurally improper. Defendents’ faulty arguments
in support are erroneous as we will demonstrate.
II.

Dismissal of this matter pursuant to Civ.R.
12(B)(1) would be inappropriate as being
violative of the state and federal
constitutions as well as Ohio’s rules of civil
procedure.
A. Standard of Review.

Civ .R. 12(B)(1) would permit dismissal if this trial
court lacked jurisdiction over the subject matter of the
litigation. Under Civ.R. 12(B)(1), lack of subject matter
jurisdiction, the question of law is whether the plaintiff
has alleged any cause of action for which the court has

App. 205
authority to decide. Rengel v. Valley Forge Ins. Co., 6th
Dist. Ottawa No. OT-03-045, 2004-Ohio-5248, ¶ 10. “A
trial court is not confined to the allegations of the
complaint when determining its subject matter
jurisdiction under Civ.R. 12(B)(1), and it may consider
pertinent material without converting the motion into
one for summary judgment.” Wash. Mut. Bank v.
Beatley, 10th Dist. Franklin No. 06AP-1189, 2008-Ohio1679, ¶ 9; Southgate Dev. Corp. v. Columbia Gas
Transmission Corp., 48 Ohio St.2d 211, 358 N.E.2d
526, paragraph one of the syllabus (1976).
“The standard of review for a dismissal pursuant to
Civ.R. 12(B)(1) is whether any cause of action
cognizable by the forum has been raised in the
complaint.” State ex rel. Bush, 42 Ohio St.3d 77, 80, 537
N.E.2d 641 (1989); Avco Financial Services Loan, Inc.
v. Hale, 36 Ohio App. 3d 65, 67, 520 N.E.2d 1378
(1987). A trial court’s decision to dismiss a case
pursuant to Civ.R. 12(B)(1) is reviewed de novo.
Sosnoswsky v. Koscianski, 8th Dist. No. 106147, 2018Ohio- 1409, ¶ 7. As such, “all factual allegations in the
complaint [must be accepted] as true, and all
reasonable inferences must be drawn in favor of the
nonmoving party.” Phillips v. Deskin, 5th Dist. No.
12CA119, 2013-Ohio-3025, ¶ 8; Byrd v. Faber, 57 Ohio
St.3d 56, 565 N.E.2d 584 (1991).
B. This Court Has Subject Matter
Jurisdiction Over the Causes of Action
Alleged in the Complaint.
The essence of Defendants’ assertion is their
insistence that Plaintiff Sortino is bound by the Merrill
settlement, and that the plaintiffs in that matter

App. 206
released his claims pursuant to their agreement. This
alleged release of all claims, along with their argument
of retention of continuing jurisdiction in Lake County
to enforce the settlement, according to Defendants,
renders this Court incapable of exercising jurisdiction
over this matter. If Sortino had released the claims he
now asserts in his Complaint, he would no longer have
the capacity to raise them again. However, capacity to
sue does not challenge the subject matter jurisdiction
of a court. State ex rel. Tubbs Jones v. Suster, 84 Ohio
St.3d 70, 77, 70 I N.E.2d 1002 (1998). “Capacity to sue
or be sued does not equate with the jurisdiction of a
court to adjudicate a matter; it is concerned merely
with a party’s right to appear in a court in the first
instance.” Country Club Townhouses-North
Condominium Unit Owners Assoc. v. Slates, 9th Dist.
Summit No. 17299, 1996 Ohio App. LEXIS 234 (Jan.
24, 1996). “Lack of standing challenges the capacity of
a party to bring an action, not the subject matter
jurisdiction of the court.” Tubbs Jones at 77. Capacity
to sue is not jurisdictional.
“Dismissal pursuant to [Civ.R. 12(B)(1)] focuses on
a court’s subject matter jurisdiction over the claims
raised in the complaint, not the standing or capacity of
the plaintiff to bring those claims.” Wash. Mut. Bank v.
Beatley, 10th Dist. Franklin No. 06AP-1189, 2008-Ohio1679, ¶ 11. This Court clearly has the power to hear
and decide the type of claims alleged by Plaintiff
Sortino. A dismissal for lack of subject matter
jurisdiction would be error. See Wash. Mut. Bank at
¶ 11 (“Because standing and capacity to sue do not
challenge the subject matter jurisdiction of a court, the
trial court erred when it dismissed appellant’s

App. 207
complaint on these grounds pursuant to Civ.R.
12(B)(1).”).
As stated in the pleadings, this case is not attacking
or challenging the validity of the Merrill settlement. It
simply alleges that the Stipulation of Settlement and
Judgment approving that settlement could not and
does not apply to Plaintiff and the putative class
members, who likewise did not receive notice and were
unaware of their rights.
C. The Retention of Exclusive Jurisdiction
of the Merrill Case by the Lake County
Court of Common Pleas does not
Deprive this Court of Jurisdiction to
Hear the Claims of Class Members who
are not Bound by the Terms of that
Settlement.
In the Order and Final Judgment approving the
Merrill settlement in Lake County, Judge Lucci
retained exclusive jurisdiction to enforce and
administer the Judgment and the Stipulation of
Settlement entered into by the parties. (Defendants’
Exhibit B to Motion to Dismiss at ¶ 12). This retention
of jurisdiction does not give Judge Lucci the authority
to reopen and modify what was and is a final judgment.
Wilken v. Wachovia Bank, 6th Dist. No. H-13-020,
2014-Ohio-2840, ¶ 26. Further, a trial court lacks
authority to reconsider its final judgment, even if such
reconsideration is undertaken to correct an error. U.S.
Bank v. Schubert, 9th Dist. No. 13CA010462, 2014Ohio-3868, ¶ 12. Any continuing jurisdiction cannot be
used to remake a settlement, later discovered to be
defective, nor to correct other errors ascertained after

App. 208
the judgment achieved finality. Despite any intention
of that court, the clause regarding continuing
jurisdiction over the Merrill settlement does not give
Judge Lucci jurisdiction to hear this Sortino matter,
because it is a separate, independent cause of action,
brought by parties who were not bound by the Merrill
settlement.
The Merrill Court has retained continuing exclusive
jurisdiction to decide enforceability issues pertaining to
that settlement. If Defendants believe that the Sortino
class is bound by the settlement and wish to invoke the
continuing jurisdiction of the Lake County Court of
Common Pleas to enforce the settlement, Defendants
could move that court to enforce the settlement, asking
Judge Lucci for a ruling that Sortino and his counsel
cannot litigate the claims in this action that
Defendants believe they released. That motion could be
ruled on by Judge Lucci without disturbing the pending
case at bar. If Judge Lucci agrees that the Sortino class
members are not bound by the settlement agreement,
Plaintiff Sortino remains free to pursue his claim in
any court with appropriate venue, which includes Erie
County.
In support of their arguments, Defendants cite two
decisions, both of which are distinguishable.
In Saslow v. Saslow, the issue before the Second
District was whether the domestic relations court
retained jurisdiction over a separation agreement
which was incorporated in the divorce decree. 104 Ohio
App. 157, 160, 147 N.E.2d 262 (1957). In that case, a
mother of two children obtained a divorce from her
abusive husband. The separation agreement prohibited

App. 209
her from remarrying within three years and gave her
use of the homestead. If she remarried within three
years, she was to execute a warranty deed to the
trustee for 1/3 interest to be given to each of the
children. Id. at 159. The woman sold the home and
purchased another. She then remarried within the
three-year window. Upon the former husband’s motion
that she convey the children’s interest to the trustee,
the domestic relations court found the woman in
contempt and ordered her confined to jail until she
executed the transfer. Id.
The appellate court determined that the domestic
relations court lacked jurisdiction over the matter. Id.
at 166. “The court had not acquired jurisdiction in the
contempt proceeding and was not authorized to punish
the wife for contempt for her refusal to execute such
conveyance. Id. at paragraph three of the syllabus. This
case turned on the jurisdiction of the domestic relations
court pursuant to statute and the nuances of divorce
decree and separation agreement case law.
The only other case cited in support is Hardesty v.
Hardesty, 16 Ohio App.3d 56, 474 N.E.2d 368 (10th
Dist. 1984). This case also involves the custody and
support of children in Wood County Juvenile Court and
an ensuing divorce in Franklin County. The father
later attempted to move the Franklin County Domestic
Relations Court to assume jurisdiction of the support
and custody issues. That court declined. The appellate
court affirmed the denial of jurisdiction by the trial
court. Id. at 58.
The case at bar does not involve a specific provision
of the Ohio Revised Code pertaining to the custody of

App. 210
children and the Lake County Court of Common Pleas
could not reserve jurisdiction after ODNR agreed to
pay monetary damages to those individuals who did not
have a submerged land lease with the State.
D. Appealability of a Decision Regarding a
Civ.R. 12(B)(1) Motion to Dismiss.
In the State of Ohio, political subdivisions enjoy
immunity under specific circumstances. When a motion
is filed by a political subdivision, such as ODNR, for
dismissal of a matter pursuant to Civ.R. 12(B)(6) or (C),
the trial court reviews such motion under R.C. 2744.01
et seq., Political Subdivision Tort Liability. An appeal
of denial of immunity is permitted by R.C. 2744.02(C):
“An order that denies a political subdivision or an
employee of a political subdivision the benefit of an
alleged immunity from liability as provided in this
chapter or any other provision of the law is a final
order.” R.C. 2744.02 was enacted in 2003 and was last
amended ten years ago in September of 2007.
While denial of a motion to dismiss is not a final
appealable order pursuant to R.C. 2501.02, denial of
immunity for a political subdivision is immediately
appealable.
When, however the motion to dismiss is not based
on an assertion of immunity by the political
subdivision, as is the case here, any decision overruling
the motion is not a final appealable order. While there
is much case law on the issue of whether a motion
based on R.C. 2744.02(C) is final depending on whether
it is based on Civ.R. 12 or Civ.R. 56, those cases all
review the central issue of whether the political

App. 211
subdivision is immune from liability. Hubbell v. City of
Xenia, 115 Ohio St.3d 77, 2007-Ohio-4839, 873 N.E.2d
878, ¶ 13-15. The Supreme Court requires a plain
reading of R.C. 2744.02(C). Id. at ¶ 24.
Determination of whether a political subdivision
is immune from liability is usually pivotal to the
ultimate outcome of a lawsuit. Early resolution
of the issue of whether a political subdivision is
immune from liability pursuant to R.C. Chapter
2744 is beneficial to both of the parties. If the
appellate court holds that the political
subdivision is immune, the litigation can come to
an early end, with the same outcome that
otherwise would have been reached only after
trial, resulting in a savings to all parties of costs
and attorney fees. Alternatively, if the appellate
court holds that immunity does not apply, that
early finding will encourage the political
subdivision to settle promptly with the victim
rather than pursue a lengthy trial and appeals.
Under either scenario, both the plaintiff and the
political subdivision may save the time, efforts,
and expense of a trial and appeal, which could
take years.
Id. at ¶ 25 quoting with approval Burger v. Cleveland
Hts., 87 Ohio St.3d 188, 199-200, 1999-Ohio-319, 718
N.E.2d 912 (Lundberg Stratton, J., dissenting).
“Appellate review under R.C. 2744.02(C) is,
however, limited to review of alleged errors involving
denial of ‘the benefit an alleged immunity from
liability’; it does not authorize the appellate court to
otherwise review the merits of a trial court’s decision to

App. 212
deny a motion to dismiss.” Windsor Realty & Mgmt.,
Inc. v. Northeast Ohio Reg’l Sewer Dist., 8th Dist.
Cuyahoga No. 103635, 2016-Ohio-4865, 68 N.E.3d 327,
¶ 15; R.C. 2744.02(C). “Thus, when appealing a denial
of a motion to dismiss based on immunity under R.C.
2744.02(C), a party cannot raise other alleged errors
concerning the denial of its motion to dismiss that are
based upon other alleged defenses or pleading
deficiencies.” Id. Accord Riscatti v. Prime Props. Ltd.
Partnership, 137 Ohio St.3d 123, 2013-Ohio-4530,
2013-Ohio-4530, 998 N.E.2d 437, ¶ 20.
The issue reviewed by the Ohio Supreme Court in
Riscatti is germane to this litigation: “whether a denial
of a public subdivision’s dispositive motion asserting a
statute-of-limitations defense pursuant to R.C. 2744.04
is a final, appealable order.” Id. at ¶ 2. That case
involved a Civ.R. 12(C) motion for judgment on the
pleadings. The Court noted that an “appellate court can
review only final orders, and without a final order, an
appellate court has no jurisdiction.” Id. at ¶ 18 quoting
Supportive Solutions, LLC v. Electronic Classroom of
Tomorrow, 37 Ohio St.3d 23, 2013-Ohio-2410, 997
N.E.2d 490, ¶ 10. “Although our prior decisions have
interpreted R.C. 2744.02(C) broadly in favor of early
dismissal, they have always been tethered directly to
the defense of immunity, not to other defenses.”
Riscatti at ¶ 20. “[T]he fact that a political subdivision
is the party that raises a statute-of-limitations defense
does not change the general rule that the ruling on that
defense is not a final, appealable order.” Id. at ¶ 21.
Accord Cunningham v. Star Acad. of Toledo, 6th Dist.
Lucas No. L-12-1272, 2014-Ohio-428, ¶ 29 (“Applying
Riscatti, we conclude that R.C. 2744.02(C) does not

App. 213
make the order denying summary judgment in this
case a final appealable order on the merits of the
negligence claims.”).
If this Court were to deny Defendant’s motion to
dismiss, such judgment would not be a final
appealable” order. Defendant’s sole basis for dismissal
is a claim of lack of jurisdiction pursuant to Civ.R.
12(B)(1).
The Court may very well consider setting a strictly
enforced order scheduling class certification and
deferring a ruling on the within motion until at or after
a decision on class certification. That would promote
the palliative objective of avoiding piecemeal litigation,
with its attendant enormous toll on time and efforts of
the courts and the parties.
III.

The Jurisdictional Priority Rule Does Not
Apply Under the Factual Circumstances of
this Cause.

The jurisdictional priority rule provides that “[a]s
between courts of concurrent jurisdiction, the tribunal
whose power is first invoked by the institution of
proper proceedings acquires jurisdiction, to the
exclusion of all other tribunals, to adjudicate upon the
whole issue and to settle the rights of the parties.”
State ex rel. Racing Guild of Ohio v. Morgan, 17 Ohio
St.3d 54, 56, 476 N.E.2d 1060 (1985). “If the second
case is not for the same cause of action, nor between
the same parties, the former suit will not prevent the
latter.” State ex rel. Judson v. Spahr, 33 Ohio St.3d
111, 113, 515 N.E.2d 911 (1987).

App. 214
Though the application of the rule is generally
limited to identical actions, the rule may apply where
the causes of action and the requested relief are not the
same. State ex rel. Sellers v. Gerken, 72 Ohio St.3d 115,
117, 647 N.E.2d 807 (1995). That is, if the claims in
both cases are such that each of the actions “comprises
part of the ‘whole issue’ that is within the exclusive
jurisdiction of the court whose power is legally first
invoked” the jurisdictional priority rule may be
applicable. Racing Guild, 17 Ohio St.3d at 56.
To determine whether two cases involve the “whole
issue” requires a two-step analysis: “First, there must
be cases pending in two different courts of concurrent
jurisdiction involving substantially the same parties.
Second, the ruling of the court subsequently acquiring
jurisdiction may affect or interfere with the resolution
of the issues before the court where suit was originally
commenced.” Michaels Bldg. Co. v. Cardinal Fed. S. &
L. Bank, 54 Ohio App.3d 180, 183, 561 N.E.2d 1015
(8th Dist. 1988). “If the second case is not for the same
cause of action, nor between the same parties, the
former suit will not prevent the latter. Sellers, at 117.
The jurisdictional priority rule exists to prevent
creating a scenario where two courts or juries could
review the same evidence and decide the same
questions differently. Langaa v. Pauer, 11th Dist.
Geauga No. 2001-G-2405, 2002-Ohio-5603, ¶ 13. See
also Wellman v. Salt Creek Valley Bank, 10th Dist.
Franklin No. 06AP-177, 2006-Ohio-4718, ¶ 10 (“The
purpose behind the rule of priority is to prevent two
courts from issuing disparate judgments addressing the
same subject matter between the same parties.”).

App. 215
The jurisdictional priority rule does not apply.
There are not two cases pending before two courts of
concurrent jurisdiction. There is only one case pending
in one single jurisdiction, namely, Erie County. The
Lake County Common Pleas Court has already issued
a final judgment. A court is deemed to have exhausted
its jurisdiction once it decrees a final judgment that
disposes of all issues before the court. Wellman, 2006Ohio-4718, ¶ 9, citing Brooks v. Brooks, 10th Dist.
Franklin No. 87AP-980, 1998 Ohio App. LEXIS 4372
(Nov. 1, 1988). Furthermore, the jurisdiction of the
Lake County Clerk of Courts extends only to the class
members who had a submerged land lease with ODNR
and/or who received notice of the settlement terms. By
the very terms of Civ.R. 23, in allowing a settlement for
monetary damages from the State of Ohio for
individuals who did not have submerged land leases
with the State, the Lake County Common Pleas Court
carved out all of the other putative class members who
did not have either a submerged land lease with the
State or who received actual notice.2 The putative class
members in Sortino could not have been included in a
class action settlement for which they received no
2

Some individuals were members of a loosely defined group of
property owners that contributed money with which to maintain
the Merrill litigation. While that was a noble cause and no one
begrudges monies repaid to them, nevertheless, they received
compensation that should have been also paid to all members of
the Sortino class. “Due process requires, however, that courts
adopt procedures to protect the interests of absent class members
before purporting to bind them and Civ.R. 23 provides the court
with the means to do so.” In re Kroger Co. Shareholders Litigation,
70 Ohio App.3d 52, 66, 590 N.E.2d 391 (1st Dist. 1990)(intemal
cites omitted).

App. 216
actual notice and no opportunity to opt out of the
settlement.
When ODNR settled all of the pending claims in the
Lake County Court of Common Pleas under Civ.R.
23(B)(2) and included monetary damages for individual
property owners who did not have submerged land
leases with it, that settlement did not extend to Sortino
nor to his putative class members. Had the parties in
Merrill entered a settlement under Civ.R. 23(B)(3),
Plaintiff Sortino and his putative class members, would
have received notice and the opportunity to object and
the opportunity to opt out to that settlement. Instead,
ODNR and the plaintiffs in Merrill entered what was
a Civ.R. 23(B)(2) settlement and provided no notice to
Sortino and his putative class members aside from
those who had entered an appearance in that litigation
or had submerged land leases with ODNR. ODNR was
fully aware that the state common pleas court could not
effect a settlement over Sortino and his putative class
members without due process.
Regarding the second step of the analysis of
Michaels Building – whether a ruling of the second
court would “affect or interfere with the resolution of
the issues before the court where suit was originally
commenced – any decision from this Court regarding
Plaintiff and the putative class would not affect or
interfere with the Merrill settlement. Plaintiff and the
putative class herein did not have submerged land
leases with the State of Ohio, nor did they have notice
and the rights to object and opt out.
“The jurisdictional-priority rule exists to promote
judicial economy and avoid inconsistent results.” State

App. 217
ex rel. Consortium for Economic & Cmty. Dev. for
Hough Ward 8 v. Russo, 151 Ohio St.3d 129, 2017Ohio-8133, 86 N.E.2d 327; State ex rel. Dunlap v.
Sarko, 135 Ohio St.3d 171, 2013-Ohio-67, 985 N.E.2d
450, ¶ 9. The two cases must in fact be currently
pending for the rule to apply. Consortium for Economic
at ¶ 11, 12. “A court is deemed to have exhausted its
jurisdiction once it decrees a final judgment that
disposes of all issues before the court.” Wellman v. Salt
Creek Valley Bank, 10th Dist. Franklin No. 06AP-177,
2006-Ohio-4718, ¶ 9; Brooks v. Brooks, 10th Dist.
Franklin No. 87AP-980 (Nov. 1, 1988).
A trial court may retain jurisdiction to enforce a
settlement agreement. Infinite Sec. Solutions, L.L.C. v.
Karam Props., II, 143 Ohio St.3d 346, 2015-Ohio-1101,
37 N.E.3d 1211, ¶ 2. “A trial court has jurisdiction to
enforce a settlement agreement after a case has been
dismissed only if the dismissal entry incorporated the
terms of the agreement or expressly stated that the
court retained jurisdiction to enforce the agreement.”
Id. at the syllabus.
Retaining continuing jurisdiction to enforce a
settlement is not the same, however, as having a
pending action before a court. In Lake County, there is
no further jurisdiction to exercise over the Merrill case
unless a new complaint or motion is filed with that
court. Stated another way, no matter is pending before
the court. According to Black’s Law Dictionary,
“pending” means the following
Begun, but not yet completed; during; before
the conclusion of; prior to the completion of;

App. 218
unsettled; undetermined; in process of
settlement or adjustment.
Awaiting an occurrence or conclusion of
action; period of continuance or indeterminacy.
Thus, an action or suit is “pending” from its
inception until the rendition of final judgment.
An action is “pending” after it is commenced
by either filing a complaint with the court of by
the service of a summons.
Blacks’ Law Dictionary 1134 (6th Ed. 1990).
Even if Defendants were to attempt to invoke the
continuing jurisdiction of the Lake County Court of
Common Pleas, by a motion to enforce the Merrill
settlement, the causes of action would be different.
Plaintiff Sortino commenced an action for a declaratory
judgment in Erie County as to the unconstitutional
taking of his waterfront property by ODNR.
Defendants in Lake County would be seeking a ruling
from the Lake County Court as to the scope of the
releases in the Merrill settlement, given the lack of
notice to Plaintiff and the members of the class he
seeks to represent. Sortino and his putative class
members are those land owners who were not included
in the Merrill case due to lack of proper notice of the
settlement, in a blatant action without regard to the
state and federal constitutions requirements of due
process.. Sortino and his group are a different group of
class members than those who are members of the
Merrill class who are bound by the settlement.
Therefore, the causes of action and the parties would
not be the same, even if a motion to enforce the
settlement would be filed in Lake County..

App. 219
The Lake County trial court did not resolve the
issues raised in the Sortino complaint, so Erie County
would not be revisiting the same issues. The issue as to
whether there was an unconstitutional taking of class
members’ land by ODNR is not now before the Lake
County court. The claims in Merrill were resolved by
agreement of the parties; however, due to procedural
deficiencies and the constitutional violations, the
litigation was resolved only for a subgroup of the
alleged class.
Even if an action to enforce the Merrill settlement
were to be commenced in Lake County, it would be an
error to dismiss this action based on the jurisdictional
priority rule. That rule is clearly inapplicable here.
This Court has jurisdiction over the only pending
action alleging an unconstitutional taking of lakefront
property owned by putative Class Members without
submerged land leases. There is nothing pending in
Lake County to take jurisdictional preference.
IV.

Transfer of venue to Lake County Court of
Common Pleas is not permitted by the Civil
Rules.

Defendants’ suggestion that it would be proper for
this Court to transfer this case to Judge Lucci in Lake
County is premised on faulty logic. The issue raised by
Defendants is not whether venue is proper in Erie
County (it is), but whether the claims being asserted in
this case were extinguished as part of the Merrill
settlement in Lake County.
Civ.R 3 deals with the proper venue of an action.
Venue is not jurisdictional. Civ.R. 3(C) addresses when

App. 220
and how to change the venue of a pending action.
Civ.R. 3(C)(1) states:
When an action has been commenced in a county
other than stated to be proper in division (B) of
this rule, upon timely assertion of the defense of
improper venue as provided in Civ.R. 12, the
court shall transfer the action to a county stated
to be proper in division (B) of this rule.
Venue is proper in “[a] county in which the defendant
conducted activity that gave rise to the claim for relief
(Civ.R. 3(B)(3)); [a] county in which the property, or
any part of the property, is situated if the subject of the
action is real property (Civ.R.3(B)(5)); and, [t]he county
in which all or part of the claim for relief arose * * *
(Civ.R. 3(B)(6)). Erie County is a proper venue for this
action.
A transfer of venue is authorized only if the case
has been commenced in an improper venue. Langaa,
2002-Ohio-5603 at ¶ 16. As alleged in the Complaint,
Erie County is a proper venue for this action. Because
venue is proper in this county, this case does not meet
the first requirement of improper venue to allow for a
transfer of venue to a different county.
V.

Conclusion

This Court has jurisdiction to hear the claims
asserted by Plaintiff Sortino. The jurisdictional priority
rule does not apply due to the procedural posture of
this action. This case cannot be transferred to Lake
County, as venue is appropriate in Erie County, as
stated in the Complaint. This matter should remain
and be heard in Erie County.

App. 221
Respectfully submitted by:
/s/ Margaret M Murray
Dennis E. Murray, Sr., Esq. (0008783)
dms@murrayandmurray.com
Margaret M. Murray, Esq. (0066633)
mmm@murrayandmurray.com
Donna J. Evans, Esq. (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A .
111 East Shoreline Drive
Sandusky, OH 44870
Telephone: 419-624-3000
Facsimile: 419-624-0707
Attorneys for Plaintiffs
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on the 3rd day
of May, 2018, the foregoing Response to Defendants’
Motion to Dismiss for Lack of Jurisdiction or, in the
Alternative, for Transfer of Venue was filed
electronically. Notice of this filing will be sent by
operation of the Court’s electronic filing system to all
parties indicated on the electronic filing receipt. Parties
may access this filing through the Court’s electronic
filing system.
/s/ Margaret M. Murray
Margaret M. Murray (0066633)
MURRAY & MURRAY CO., L.P.A.
Attorney for Plaintiff

App. 222
FRAZZINI EXHIBIT E
IN THE COURT OF COMMON PLEAS,
ERIE COUNTY, OHIO
Case No. 2018 CV 0074
Judge BINETTE
[Filed: May 25, 2018]
__________________________________________
STATE OF OHIO ex rel.
)
George Sortino,
)
)
Relator/Plaintiff,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Respondents/Defendants.
)
__________________________________________)
ORAL ARGUMENT REQUESTED
DEFENDANTS’ REPLY MEMORANDUM IN
SUPPORT OF THEIR MOTION TO DISMISS
FOR LACK OF JURISDICTION OR, IN THE
ALTERNATIVE, FOR TRANSFER OF VENUE
I.

INTRODUCTION

Plaintiff/Relator, State of Ohio ex rel. George
Sortino, (“Sortino”) expressly acknowledges that “[t]he
Merrill Court has retained continuing exclusive
jurisdiction to decide enforceability issues pertaining to

App. 223
[the Merrill] [S]ettlement.” Response to Defendants’
Motion to Dismiss for Lack of Jurisdiction or, in the
Alternative, for Transfer of Venue (“Sortino Resp.”) at
5. Thus, it is unclear what issue material to the present
motion to dismiss remains in dispute in light of this
acknowledgment. Sortino’s own Complaint explicitly
recognizes that the enforceability of Merrill against
him is an issue that is part and parcel of the claims he
has asserted in this Court. Complaint at ¶¶ 22-24.
While most of Sortino’s brief is dedicated to arguing
why the enforceability issues should be decided in his
favor, what he fails to provide is any legitimate reason
why this Court has the power to decide those issues at
all.
This Court should dismiss Sortino’s Complaint
without prejudice, because the enforceability of the
Merrill Settlement and Final Judgment against him is
a central element of Sortino’s claims, and because
Sortino has acknowledged that Judge Lucci expressly
reserved continuing and exclusive jurisdiction to decide
that issue. Any other result—any conclusion that
Sortino can pursue his claims in this Court, which
necessarily entails litigating the issue of the
enforceability of Merrill against him—would be
predicated upon circular reasoning, (deciding the
merits of the issue before deciding who has the power
to decide the issue), and would have the practical effect
of completely nullifying the authority of Ohio courts to
retain exclusive jurisdiction to enforce settlement
agreements in the future.1
1

Contemporaneously with this Reply Brief, Defendants have filed
a Motion to Stay Proceedings, In the Alternative. That Motion

App. 224
II.

ARGUMENT
A. The enforceability of the Merrill
Settlement and Final Judgment are not
before this Court on Defendants’ Motion

The only question that this motion presents to this
Court is whether Sortino’s Complaint should be
dismissed under Civ. R. 12(B)(1) because, pursuant to
the jurisdictional priority rule, this Court lacks the
power to adjudicate his claims. Defendants
unquestionably do not assert that dismissal is required
because Merrill is, in fact, enforceable against Sortino.
See, Sortino Resp. at 4 (erroneously describing the
“essence of Defendants’ assertion” in this motion). That
argument could be advanced only in a motion
predicated on res judicata/collateral estoppel grounds.
Instead, Defendants here have simply argued that
Sortino cannot pursue his claims in this Court, because
they are explicitly predicated on the unenforceability of
the Merrill Settlement and Final Judgment, and
because Judge Lucci has validly and exclusively
reserved jurisdiction to decide whether and in what

requests a stay of this action while the enforceability of Merrill
against Sortino is decided in Lake County, in the event this Court
is not inclined to grant Defendants’ Motion to Dismiss. However,
the reason that Defendants are entitled to dismissal of Sortino’s
Complaint, and not merely a stay, is that his claims cannot be
adjudicated at all without addressing the enforceability of Merrill
against him. As a result, it is not merely the discrete issue of
enforceability, but the very claims of which the enforceability
question is an indispensable element, that must proceed in Judge
Lucci’s Court. See, section II(B), infra.

App. 225
respect the Merrill Settlement and Final Judgment are
enforceable.
In response to Defendants’ simple and
straightforward jurisdictional challenge, Sortino
advances a number of non sequiturs. First, despite
Sortino’s suggestion, Defendants have not moved to
dismiss on the basis of Sortino’s lack of “capacity to
sue.” Sortino Resp. at 4. The present Motion simply
asserts that dismissal is required, because only Judge
Lucci has the power to decide whether Sortino has the
capacity to sue for the claims asserted. As a result,
Sortino’s first argument—asserting that this Court
possesses subject matter jurisdiction over his claims
generally, as distinct from his capacity to sue—is
immaterial.
In fact, Defendants can acknowledge, for the sake of
argument, that apart from the jurisdictional priority
rule, this Court would have subject matter jurisdiction
over Sortino’s claims. Indeed, it is only when both
courts in question do possess subject matter
jurisdiction that application of the jurisdictional
priority rule even arises. State ex rel. Racing Guild,
Local 304 v. Morgan, 17 Ohio St.3d 54, 56 (1985)
(referring to courts of “concurrent jurisdiction”). The
“lack” of subject matter jurisdiction in such cases is
solely the product of the competing and prior-invoked
jurisdiction of the first court, not a theoretical lack of
general jurisdiction over the claims or subject matter in
the second court. Id. Sortino’s first argument is a red
herring.
Second, Sortino argues that Judge Lucci’s
continuing jurisdiction cannot be used to reopen and

App. 226
modify the Merrill Final Judgment. Sortino Resp. at 5.
But Defendants aren’t seeking to reopen or modify the
Merrill Settlement or Final Judgment. Sortino simply
argues that they must do so—and legally cannot—in
order to make the outcome in Merrill validly apply to
him. Id. This argument is, once again, predicated
entirely on Sortino’s assertion that he is not bound by
the Merrill Settlement and Final Judgment in the first
place—which is the very question that Judge Lucci has
retained exclusive jurisdiction to decide.
The reason that Judge Lucci’s reservation of
jurisdiction requires dismissal of Sortino’s Complaint
is not because Sortino is bound by the Merrill
Settlement and Final Judgment—although he is—but
rather, it is because Sortino’s claims—as even he has
acknowledged—are expressly predicated upon and
inextricably intertwined with the Merrill enforceability
questions that this Court lacks jurisdiction to decide.
See, Complaint, ¶¶ 22-23. See also, section II(B), infra
(discussing the jurisdictional priority rule and the
“whole issue” doctrine). Sortino’s inability to avoid
making the enforceability argument at every turn, even
in response to a limited, jurisdictional motion, simply
illustrates the point.
However this Court ultimately decides the present
motion, it should not embrace Sortino’s
mischaracterization of Defendants’ position in order to
reach its decision. Judgment are meritless—but they
are not presently before this Court. And simply
declaring that Sortino is not bound by Merrill would
not establish this Court’s authority to answer the
enforceability question in the first place; it would

App. 227
simply beg the question of which court had the power
to decide whether Sortino is right to begin with.
B. The jurisdictional priority rule applies
and prevents this Court from
adjudicating Sortino’s claims
In addition to mischaracterizing Defendants’
position and the central issue in this motion, Sortino
appears to make three arguments against application
of the jurisdictional priority rule in this case. Each is
without merit and is addressed in turn below.
First, Sortino argues that the rule does not apply,
because the Final Judgment in Merrill means that
there are not two cases pending in different courts.
Sortino Resp. at 11, 13. But Sortino’s semantically
cramped view of a “pending” case ignores Ohio case law
and would have the practical effect of eliminating any
court’s ability to retain jurisdiction over the
enforcement of settlement agreements after final
judgment. Ohio law is clear that a pending case exists
for jurisdictional priority purposes when the firstinvoked jurisdiction has not yet been “exhausted,” and
that such jurisdiction is not exhausted unless a final
judgment is rendered that disposes of all issues and
reserves jurisdiction over none.
Indeed, while distinguishing the cases cited by
Defendants on factual grounds (see, e.g., Sortino Resp.
at 6-7), Sortino offers no response to the clear legal
principles that those cases stand for, namely that
under the jurisdictional priority rule, the first court
retains exclusive jurisdiction until it has “exhausted its
jurisdiction,” which is accomplished only by a final

App. 228
judgment that “disposes of all issues before that court,”
Brooks v. Brooks, 10th Dist. Franklin No. 87AP-980,
1988 Ohio App. LEXIS 4372, *6-7 (Nov. 1, 1988), and
that a court, therefore, exhausts its jurisdiction only by
issuing a final decree “without reservation of
jurisdiction.” Saslow v. Saslow, 104 Ohio App. 157, 166
(2d Dist. 1957)(emphasis added). See also, Hardesty v.
Hardesty, 16 Ohio App. 3d 56, 56-58 (10th Dist. 1984).
That these cases involved divorce proceedings or
custody disputes does not alter their legal conclusions
about the limits of jurisdictional priority and the
meaning of jurisdictional exhaustion.
What is more, Sortino offers no response to the
practical implications of his theory of jurisdictional
priority with respect to enforcement of post-judgment
settlement agreements. As Defendants made clear in
their motion, reservations of jurisdiction to enforce
settlement agreements are utterly meaningless if the
jurisdictional priority rule doesn’t apply to them, since
the only instance in which a reservation matters is
when more than one court might possibly exercise
jurisdiction over their enforcement. Morgan at 56.
Declining to apply the jurisdictional priority rule here,
because no case is “pending” in Lake County, requires
outright defiance of the Ohio Supreme Court’s
declaration in Infinite Sec. Solutions, LLC v. Karam
Properties II, 143 Ohio St.3d 346, 2015-Ohio-1101,
which holds that reservations of jurisdiction to enforce
settlement agreements after final judgment are fully
enforceable in Ohio.
Second, Sortino argues that the jurisdictional
priority rule does not apply here, because the

App. 229
competing jurisdictions would not be hearing the same
causes of action. Sortino Resp. at 13. That is, he argues
that his claims are distinct from and would raise
different issues than would a motion to enforce
settlement filed in Judge Lucci’s court. Id. But this
misconceives the “same claim” requirement and fails to
recognize the “whole issue” element of the
jurisdictional analysis. As Sortino acknowledges, the
very purpose of the jurisdictional priority rule is to
“prevent two courts from issuing disparate judgments
addressing the same subject matter between the same
parties.” Sortino Resp. at 11 (quoting Wellman v. Salt
Creek Valley Bank, 10 Dist. Franklin No. 06AP-177,
2006-Ohio-4718, ¶ 10).
Sortino first assumes that the jurisdiction of Lake
County can be invoked only by the filing of a motion to
enforce the Merrill settlement, when in reality, the law
is clear that its jurisdiction was invoked back in 2004
when the Merrill complaint was filed. Sortino Resp. at
13. That jurisdiction continues, i.e., has not been
“exhausted,” because Judge Lucci reserved exclusive
jurisdiction over enforcement of the Merrill
Settlement—and it continues over all of the issues and
parties in the Merrill case. See, Brooks and Saslow,
supra. Moreover, by misunderstanding the nature of
retained jurisdiction, Sortino then misapplies the
“whole issue” doctrine as well. As the Ohio Supreme
Court articulated just two weeks ago, jurisdictional
priority attaches not just when the claims are the
same, but when “the cases present part of the same
whole issue.” In re Adoption of MG.B.-E., 2018-Ohio1787, ¶ 25 (citing State ex rel. Otten v. Henderson, 129

App. 230
Ohio St.3d 453, 2011-Ohio-4082, ¶ 24, 29)(emphasis
added).
In short, no court can exercise jurisdiction over
Sortino’s claims without making a determination as to
whether his claims were released as part of the Merrill
Settlement and Final Judgment. As a result, “the cases
present part of the same whole issue” for adjudication,
and Judge Lucci’s reservation of exclusive and
continuing jurisdiction over that issue makes the
jurisdictional priority rule fully applicable here.
Third and finally, Sortino argues that the rule does
not apply, because the two actions are not with respect
to the same parties. Sortino Resp. at 11. But this
argument is merely another permutation on the same,
circular reasoning discussed above, i.e., that procedural
deficiencies mean that Sortino is not bound by the
Merrill Settlement and Final Judgment, and therefore
he could not have been a party at all to Merrill for
purposes of the jurisdictional priority rule. Id. at 11.
Not only is the argument circular, it is in direct conflict
with the clear and unmistakable record and with
Sortino’s own acknowledgment that he was, in fact, a
properly certified class member and party to the
Merrill proceedings. Complaint, ¶ 22. Specifically, it is
one thing to say that Sortino cannot be legally bound
by an allegedly flawed settlement or judgment; it is
quite another to say that “the Lake County Court
carved out” of the Merrill Settlement all class members
“who did not have submerged land leases with the
State...,” even though it plainly did not. Sortino Resp.
at 11. Sortino makes a legal argument dressed up as a
statement of fact that is transparently false.

App. 231
Indeed, it is beyond dispute that Sortino is a party
to the Settlement and Final Judgment. The Merrill
Final Judgment specifically “incorporates by reference
the definitions in the Stipulation [of Settlement]...,”
and binds all members of the Settlement Class to its
terms. FJ at ¶¶ 1, 4. The Merrill Settlement itself
defines the “Parties” to it as “Plaintiffs and
Defendants,” defines Plaintiffs as “OLG [Ohio
Lakefront Group] and the Settlement Class,” and
defines the “Settlement Class” as “all persons, as
defined in R.C. 1506.01(D), excepting the State and any
state agency as defined in R.C. 1.60, who are owners of
littoral property bordering Lake Erie (including
Sandusky Bay and other estuaries previously
determined to be a part of Lake Erie under Ohio law)
within the territorial boundaries of the State of Ohio.”
It carves out no one.2
By his own allegations, Sortino is and was at all
relevant times “an owner of record of certain real
property abutting Lake Erie...in Erie County, Ohio,”
and he seeks to represent a class of “private littoral
owners of parcels of real property abutting Lake Erie
within the State of Ohio,” whom he argues are not
subject to the Settlement on various procedural
grounds. Complaint at ¶¶ 2, 24. As a result, Sortino
clearly falls within the definition of the Merrill

2

Unlike some class settlements under Civ. R. 23(B)(3), e.g., the
Settlement Class in Merrill did not define the class according to
who received notice and/or did not opt out. While Sortino asserts
that such failure was a fatal procedural flaw, it does not alter the
reality that, as defined, the class bound by the Settlement and
Final Judgment unquestionably includes him.

App. 232
“Settlement Class” and the definition of “Plaintiffs.”
And as the Merrill Court declared in its Final
Judgment, “it is hereby determined that all members
of the Settlement Class are bound by this Judgment
entered herein,” and that “the Settlement embodied in
the Stipulation is hereby approved in all respects....”
Final Judgment at ¶¶ 4, 6 (emphases added). Whether
or not Sortino believes he has legal arguments as to
why he should not be bound, it is beyond reasonable
dispute that the Merrill Settlement and Final
Judgment purport to bind him as a party.3
This action and Merrill are both “pending”; they
involve the same claims, or at least, present “part of
the same whole issue”; and they involve the same
parties. As a result, the jurisdictional priority rule
applies, and dismissal of Sortino’s claims without
prejudice is appropriate.
III.

CONCLUSION

As Defendants observed in their motion, the
question before the Court is not whether Sortino is
right in his collateral attacks on Merrill, but rather
which court has the power to decide whether he is
right. Because Sortino acknowledges that Judge Lucci
validly retained exclusive jurisdiction over the
3

Sortino implicitly recognizes this incoherence in equating what
“is” with what “ought to be,” (see, e.g., stating the Merrill
Settlement both “could not apply” and “does not apply”), when he
waffles back and forth between asserting that he “is not attacking
or challenging the validity of the Merrill [S]ettlement” on the one
hand (p. 5), and asserting, on the other hand, that the Settlement
is “obviously defective” and “deprived [class members] of their
right to fundamental due process under the law” (p. 2).

App. 233
enforceability of the Merrill Settlement and Final
Judgment, which issue is an indispensable element of
his claims in this case, this Court should dismiss
Sortino’s Complaint without prejudice for lack of
jurisdiction. Pursuant to Local Rule 4.01, the State
Defendants respectfully request oral argument on this
Motion.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL
/s/ Daniel C. Gibson
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Lindsey A. Roberts (0096979)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
lroberts.bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural
Resources, and the Director of Ohio
Department of Natural Resources

App. 234
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on the 25th
day of May, 2018, a copy of the foregoing
DEFENDANTS’ REPLY MEMORANDUM IN
SUPPORT OF THEIR MOTION TO DISMISS FOR
LACK OF JURISDICTION OR, IN THE
ALTERNATIVE, FOR TRANSFER OF VENUE was
filed electronically. Notice of this filing will be sent to
all registered parties by operation of the Court’s
electronic filing system. Parties may access this filing
through the Court’s system.
s/ Daniel C. Gibson
Daniel C. Gibson

App. 235
FRAZZINI EXHIBIT F
IN THE COURT OF COMMON PLEAS,
ERIE COUNTY, OHIO
Case No. 2018 CV 0074
Judge BINETTE
[Filed: May 25, 2018]
__________________________________________
STATE OF OHIO ex rel.
)
George Sortino,
)
)
Relator/Plaintiff,
)
)
vs.
)
)
STATE OF OHIO, DEPARTMENT OF
)
NATURAL RESOURCES, et al.,
)
)
Respondents/Defendants.
)
__________________________________________)
DEFENDANTS’ MOTION TO STAY,
IN THE ALTERNATIVE1
Now come Respondents/Defendants State of Ohio,
Department of Natural Resources, James Zehringer,
Director of Ohio Department of Natural Resources, and
State of Ohio, (the “Defendants” or “State Defendants”),
by and through counsel and hereby move the Court for

1

Defendants seek a stay of this action only in the event this Court
declines to grant Defendants’ Motion to Dismiss the Complaint,
which motion is now fully briefed and pending a decision.

App. 236
a stay of all proceedings in this matter, pending final
resolution of the Motion to Enforce Settlement and for
Civil Contempt contemporaneously filed by the State
Defendants against Plaintiff/Relator, State of Ohio ex
rel. George Sortino, (“Sortino”) in Lake County in the
case of In re Merrill v. ODNR, et al., Lake Case No.
04CV001080. A Memorandum in Support of this
Motion is attached.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL
/s/ Daniel C. Gibson
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Lindsey A. Roberts (0096979)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
lroberts.bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural
Resources, and the Director of Ohio
Department of Natural Resources

App. 237
MEMORANDUM IN SUPPORT
Defendants request a stay of these proceedings, in
the event this Court declines to grant Defendants’
Motion to Dismiss Sortino’s Complaint, because
Defendants’ Motion to Enforce Settlement and for Civil
Contempt contemporaneously filed in Lake County
against Sortino may be fully dispositive of the claims
asserted in this action. A true and accurate copy of the
Motion to Enforce Settlement and for Civil Contempt
submitted for filing in Lake County on the same date
as this filing is attached hereto as Exhibit A, without
the attached exhibits due to size concerns.
While Defendants believe that dismissal without
prejudice of Sortino’s Complaint is the proper result, at
a minimum; a stay is appropriate under the
circumstances, particularly in light of Sortino’s
acknowledgment that the Lake County Court did,
indeed, “retain[ ] continuing exclusive jurisdiction to
decide enforceability issues pertaining to [the Merrill]
[S]ettlement.” See, Sortino Brief in Opposition to
Defendants’ Motion to Dismiss at 5 (emphasis sic). In
fact, in light of that acknowledgment, on May 14, 2018,
Defendants, by and through counsel, proposed
withdrawal of their pending Motion to Dismiss in
exchange for Sortino’s consent to a stay of these
proceedings pending final resolution of the Defendants’
motion in Lake County. Sortino declined to consent. As
a result, Defendants now move this Court for that
eminently reasonable relief.
The power to grant stays is “[i]nherent within a
court’s jurisdiction, and essential to the orderly and
efficient administration of justice[.]” State v.

App. 238
Hochhausler, 76 Ohio St. 3d 455, 464 (1996); see State
ex rel. Smith v. Friedman, 22 Ohio St. 2d 25, 26 (1970).
“This authority flows from the inherent power of the
courts to control their dockets.” Kovar v. Latosky, 11th
Dist. Lake No. 2002-L-037, 2003-Ohio-1749, ¶ 15
(citing Hochhausler, 76 Ohio St. 3d at 464). “The
determination of whether to issue a stay of proceedings
generally rests within the court’s discretion and will
not be disturbed absent a showing of an abuse of
discretion.” State ex rel. Verhovec v. Mascio, 81 Ohio St.
3d 334, 336 (1998). “Among the factors that courts have
held warrant a stay are the efficiency and judicial
economy that results from staying matters pending
resolution of potentially dispositive developments.” Id.
(citing State ex rel. Zellner v. Bd. of Educ. of Cincinnati,
34 Ohio St. 2d 199, 202, 297 (1973)).
Defendants have moved the Lake County court to
enforce the settlement and final judgment entered in In
re Merrill v. ODNR, et al., Lake Case No. 04CV001080,
as well as for an order of civil contempt, and for an
order requiring Sortino to dismiss his claims in this
action with prejudice. If Defendants’ motion to enforce
the settlement is granted, it will be entirely dispositive
of this action, and any further proceedings in this
action will have been an unnecessary and potentially
costly expenditure of the resources of this Court and of
the parties. Moreover—and especially because Judge
Lucci has the sole and exclusive power to enforce the
injunction in the Merrill Final Judgment, which
expressly prohibits the prosecution of claims released
in the Merrill Settlement by class members—allowing
Sortino to proceed with the prosecution of his claims in
this Court while Defendants’ Motion is pending in Lake

App. 239
County would license Sortino’s continuing act of
contempt while the issuing court determines the scope
and applicability of its own injunction. See, Exhibit A
at 13-14.
Finally, Sortino will not be prejudiced by the
issuance of a stay of these proceedings. The claims he
asserts are claims that were already litigated for over
a decade in the Merrill action. Further delay while the
threshold question of their legal viability is determined
is entirely appropriate, and there is neither immediacy
of need for discovery or the substantive relief that he
claims to seek. Moreover, whether or not Sortino
ultimately prevails in his collateral attacks on the
procedural adequacy of the Merrill Settlement and
Final Judgment, nothing can be gained by permitting
him to force this Court and the State Defendants into
protracted and costly re-litigation of those claims while
his very right to do so in the first place remains
pending in the one court that Sortino acknowledges
possess the jurisdiction to make that decision. Indeed,
if it were this Court, rather than Lake County, that
had exclusive jurisdiction to decide the enforceability of
Merrill against Sortino, that determination still should
be made before his claims proceed on the merits.
Defendants respectfully request a stay of this action
pending a final decision on their Motion to Enforce
Settlement and for Civil Contempt filed in Lake
County, although only in the event this Court declines
to grant Defendants’ pending Motion to Dismiss. Such
a stay would be warranted in light of this Court’s
inherent power to issue stays (Kovar, at ¶ 15) and as a
result of “the efficiency and judicial economy that

App. 240
results from staying matters pending resolution of
potentially dispositive developments.” State ex rel.
Verhovec at 336.
Respectfully Submitted,
MIKE DEWINE
OHIO ATTORNEY GENERAL
/s/ Daniel C. Gibson
Anne Marie Sferra (0030855)
Daniel C. Gibson (0080129)
Lindsey A. Roberts (0096979)
Bricker & Eckler LLP
100 South Third Street
Columbus, Ohio 43215
Phone: (614) 227-2300
Fax: (614) 227-2390
asferra@bricker.com
dgibson@bricker.com
lroberts.bricker.com
Counsel for Defendants State of Ohio,
Ohio Department of Natural
Resources, and the Director of Ohio
Department of Natural Resources

App. 241
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on the 25th
day of May, 2018, a copy of the foregoing
DEFENDANTS’ MOTION TO STAY, IN THE
ALTERNATIVE was filed electronically. Notice of this
filing will be sent to all registered parties by operation
of the Court’s electronic filing system. Parties may
access this filing through the Court’s system.
s/ Daniel C. Gibson
Daniel C. Gibson

App. 242
FRAZZINI EXHIBIT G
[Dated: December 8, 2016]
State ex rel. Robert Merrill, Trustee, et al. v. State of
Ohio, Department of Natural Resources, et al.
Lake County Court of Common Pleas,
Case No. 04CV001080

App. 243

App. 244
AKNOWLEGMENT
I hereby acknowledge receipt of the original check
imaged above.
ACCEPTANCE:
/s/
Print Name: /s/
Date: 12.08.16
Calfee, Halter & Griswold LLP
1200 Huntington Center
41 South High Street
Columbus, Ohio 43215-3465

App. 245

APPENDIX J
IN THE COURT OF COMMON PLEAS
ERIE COUNTY, OHIO
CASE NO. 2018-CVJUDGE
[Filed: January 31, 2018]
__________________________________________
STATE OF OHIO
)
ex rel. George Sortino
)
1210 Sycamore Line
)
Sandusky, OH 44870
)
)
Relator/Plaintiff,
)
)
v.
)
)
STATE OF OHIO, DEPARTMENT
)
OF NATURAL RESOURCES
)
c/o James Zehringer, Director
)
2045 Morse Road
)
Columbus, OH 43229
)
)
and
)
)
JAMES ZEHRINGER, DIRECTOR
)
Ohio Department of Natural Resources
)
2045 Morse Road
)
Columbus, OH 43229
)
)

App. 246
and

)
)
STATE OF OHIO
)
c/o John Kasich, Governor
)
77 South High Street, 30th Floor
)
Columbus, OH 43215
)
)
ALSO SERVE:
)
MIKE DEWINE
)
ATTORNEY GENERAL
)
th
30 E. Broad Street, 14 Floor
)
Columbus, OH 43215
)
)
Respondents/Defendants.
)
__________________________________________)
COMPLAINT FOR DECLARATORY
JUDGMENT, MANDAMUS
AND OTHER RELIEF
Dennis E. Murray, Sr., Esq. (0008783)
dms@murrayandmurray.com
Margaret M. Murray, Esq. (0066633)
mmm@murrayandmurray.com
Donna J. Evans, Esq. (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky, OH 44870
Telephone: 419-624-3000
Facsimile: 419-624-0707
Attorneys for Plaintiffs

App. 247
PARTIES
1. This action arises from the actions and inactions
of the Ohio Department of Natural Resources
(“ODNR”), acting on behalf of the State of Ohio, by
which they have unconstitutionally and unlawfully
asserted ownership and possession of the private
property of Ohio citizens abutting Lake Erie. In the
past ODNR had intentionally and willfully
misrepresented to property owners and to the public
that the State of Ohio owns a part of their properties,
and ODNR had persisted in this campaign of
falsehoods despite knowing that it was in conflict with
all Ohio laws, with published opinions of the Attorney
General of Ohio and the Ohio and U.S. Constitutions.
2. Relator George Sortino (“Relator”, “Plaintiff” or
“Sortino”) is, and at all times pertinent to this cause of
action, was an owner of record of certain real property
abutting Lake Erie. His property is located in Erie
County, Ohio.
3. Relator commences and will maintain this
litigation as a named relator/plaintiff on behalf of his
putative class hereinafter further set forth.
4. Respondents/Defendants are the ODNR, its
Director, James Zehringer and the State of Ohio
(collectively “ODNR”).
JURISDICTION AND VENUE
5. This Court has jurisdiction over this action on the
basis that Relator is a resident of Ohio and the sole
relief sought by Relator is a declaratory judgment and
other equitable relief.

App. 248
6. Venue is proper in this Court because the claims
of Relator arose in Erie County, Ohio. Relator resides
in Erie County, Ohio, and Erie County, Ohio is the
county in which the defendant, ODNR, conducted
activity that gave rise to the claim for relief
BACKGROUND
7. The first section of the first article of the Bill of
Rights of the Ohio Constitution proclaims the
inalienable right of people in this state to acquire,
possess, and protect property. The Ohio Constitution
further prohibits the state from taking private property
for a public use without first paying compensation to
the property owner. The United States Constitution
contains equivalent provisions. As well the 14th
Amendment to the United States Constitution
prohibits the conduct of ODNR complained of, herein.
8. Legal title to many parcels of real property
abutting Lake Erie have been held in private
ownership since before Ohio was admitted into the
Union as a state in 1803. Since that time, Ohio law has
recognized and protected the inalienable property
rights of those holding legal title to these parcels, for
purposes of this litigation known as “upland” or
“littoral” owners.
9. For over 200 years, Ohio law has recognized the
property rights of littoral owners, both with regard to
the ownership in fee simple of the upland property as
defined by the owner’s deed or original patent and also
as to the rights – known as littoral rights – such
property owners have to access and use of the adjoining
waters of Lake Erie. Ohio law also has long recognized

App. 249
that the lakeward property line of a littoral owner
whose ownership extends to Lake Erie is a “moveable
freehold” in that such property line can move either
lakeward or landward by virtue of accretion, erosion, or
reliction. The property owned by the littoral Class
Owners abuts the submerged lands of Lake Erie, title
to which, together with the waters of Lake Erie and
their contents, is held in trust for the benefit of the
people of Ohio for the public uses of navigation, water
commerce, fishing and fisheries.
10. This concept of trust ownership by the State of
the waters of Lake Erie and the soil beneath currently
is codified in Section 1506.10 of the Ohio Revised Code
and is expressly made subject to the property rights of
littoral owners. That section also designates ODNR “as
the state agency in all matters pertaining to the care,
protection, and enforcement of the state’s rights
designated in this section.”
11. Under cover of its “coastal management
program,” ODNR had abused it authority by willfully
ignoring the boundary between private and public
ownership fixed by Ohio law.
12. ODNR had asserted that the state of Ohio
owned all land lakeward of the “ordinary high water
mark,” or “OHW,” which for administrative
convenience the ODNR defined as wherever the U.S.
Army Corps of Engineers defined the Ordinary High
Water for purposes of federal law. Thus, contrary to
established Ohio law, ODNR sought to exercise all
property rights of fee ownership as to all property
lakeward of OHW, regardless of whether that property

App. 250
is submerged and regardless of whether that property
is privately owned.
13. Littoral owners are required to pay real estate
taxes based upon the whole of their privately owned
fee. Some littoral owners wishing to use their private
property located below OHW had been required by
ODNR to lease this land from the state, despite that
the land was owned in fee by the littoral owners.
ODNR had maintained that no littoral owner might
make use of their own property, nor exclude third
parties from such property, as long as that property
lies below OHW. Such conduct constituted a taking by
the State.
14. ODNR’s actions threw doubt upon the littoral
owners’ title to their properties and prevented some of
them from obtaining title insurance for their private
property located below OHW but landward of the
state’s actual fee ownership.
15. In response to ODNR’s actions, a group of
littoral landowners filed a lawsuit in the Court of
Common Pleas of Lake County challenging the
designation of OHW as the property line for all land
abutting Lake Erie. The case, State ex rel. Merrill v.
Ohio Dept. of Natural Resources, Lake Co. Case No.
04CV001080, was brought on behalf of a class of all
littoral property owners bordering Lake Erie. The
plaintiffs in Merrill sought a declaratory judgment that
the class members own fee title to the lands located
between OHW and the actual legal boundary of their
properties and to declare that the submerged land
leases were void and invalid as to any land below OHW
owned by the class. The Merrill plaintiffs also sought a

App. 251
writ of mandamus to compel ODNR to commence
appropriation proceedings for all class members to
determine the amount of compensation due to each of
them for the temporary taking of the property by the
State.
16. The Merrill trial court certified a class under
Civ.R. 23(B)(2) for Count I, the declaratory judgment.
A class may be maintained under Civ.R. 23(B)(2) when
the party opposing the class has acted or refused to act
on grounds that apply generally to the class so that
final injunctive relief or corresponding declaratory
relief is appropriate respecting the class as a whole. A
Civ.R. 23(B)(2), moreover, is a mandatory class with no
right to opt out of the certification and no requirement
of notice to class members. This class was defined as
“all persons, as defined in R.C. 1506.01(D), excepting
the State of Ohio and any state agency as defined in
R.C. 1.60, who are owners of littoral property bordering
Lake Erie (including Sandusky Bay and other estuaries
previously determined to be a part of Lake Erie under
Ohio law) within the territorial boundaries of the State
of Ohio.”
17. That Court also granted partial summary
judgment for the benefit of the Class, concluding that
the public trust neither extended to the ordinary highwater mark nor terminated at the low-water mark. The
trial court held that the boundary is “a moveable
boundary consisting of the water’s edge, which means
the most landward place where the lake water actually
touches the land at any given time.”
18. The case eventually made its way to the Ohio
Supreme Court. In State ex rel. Merrill v. Ohio

App. 252
Department of Natural Resources, 130 Ohio St.3d 30,
2011-Ohio-4612, 955 N.E.2d 935, the Supreme Court
held that “the territory of Lake Erie held in trust by
the state of Ohio for the people of Ohio extends to the
‘natural shoreline,’ which is the line at which the water
usually stands when free from disturbing causes.” Id.
at ¶4. In doing so, the Ohio Supreme Court rejected
ODNR’s assertion that the proper boundary is OHW.
The case was remanded to the trial court for further
proceedings on the pending claims consistent with the
opinion of the Ohio Supreme Court.
19. On August 27, 2012, on remand, the trial court
issued an Order clarifying and defining what
constitutes the “natural shoreline,” as that concept was
not directly addressed by the Ohio Supreme Court.
Such Order also granted the relief requested, to declare
as void and invalid any submerged land lease as to
land below the OHW and above the natural shoreline
and for ODNR to return all submerged land lease fees
collected between OHW and the natural shoreline
which were paid by the Class Members between 1998
and the present.
20. The August 27, 2012 Order also extended the
class certification to Count II, the mandamus claim.
The trial court reasoned that:
[t]o the extent Count II of the First Amended
Complaint seeks a declaration that the state’s
assertion of ownership up to the OHWM
constitutes an unconstitutional temporary
taking against all owners of littoral property
bordering Lake Erie, the class that would be
certified for resolution of that issue would have

App. 253
the exact same members as the class currently
certified to Count I, i.e., all littoral property
owners bordering Lake Erie. Thus, the class
certified for Count I could be maintained
through the conclusion of Count II of the First
Amended Complaint. The relief sought in Count
II does not change the analysis, as a writ of
mandamus is in the nature of an injunction,
albeit mandatory rather than prohibitory, and
thus subject to certification on a class-wide basis
under Civil Rule 23(B)(2).
On March 1, 2014, the Eleventh District Court of
Appeals affirmed the trial court’s Order.
21. On May 27, 2016, the parties to the Merrill
litigation entered into a proposed settlement
agreement, which was filed with the Lake County
Court. ODNR agreed to pay a set sum to and/or for a
Settlement Class. A certain amount was allocated to
the return of submerged land lease rentals and
attorneys fees with respect to Count I. The remainder
of the settlement fund was to be distributed according
to a plan of allocation, to proportionally allocate the
funds to any settlement class members, who filed
acceptable Proofs of Claims.
22. The Merrill Class as initially certified by the
trial court for Count II was properly certified under
Civ.R. 23(B)(2), because the relief sought in the First
Amended Complaint was declaratory and for
mandamus relief. Despite the certification of the
Merrill Class as a Civ.R. 23(B)(2) class, the terms of the
Settlement Agreement provided class members with
money damages, not the equitable relief that had

App. 254
originally been sought. If the Merrill case had not
settled, the Merrill court would have been required to
issue a declaration on the question of an
unconstitutional taking, and ODNR would have been
compelled to seek out each property owner to settle or
to commence appropriation proceedings, thereby
making further actual notice to each class member
unnecessary. However, with the addition of monetary
damages allocated to property owners that did not have
submerged land leases with ODNR, this class action
should have been only and appropriately certified
under Civ.R 23(B)(3). Payment of money damages
triggered the due process requirements that require the
provision of notice to class members as described in
Civ.R. 23(C)(2)(b).
23. However, instead of recognizing the due process
requirements, the parties and the trial Court continued
to treat the settlement class as certified only under
Civ.R 23(B)(2). Notice of the settlement was mailed
only to those class members with submerged land
leases. Because the Merrill Class was certified under
Civ.R. 23(B)(2), no Class Member was given notice of
the right to opt out of the settlement and all Class
Members were denied any right to opt out. Class
members who are owners of littoral property without
submerged land leases were, for the most part,
unaware of the action and the need to file a Proof of
Claim in order to claim the funds due them. The
individual named Plaintiff in this Complaint did not
receive notice of the Merrill settlement, but would have
filed a Proof of Claim had he been advised of the
settlement. He was not aware of his right to object to
the settlement. Although the settlement agreement

App. 255
provides that the class members have released all
claims, the class members who did not receive notice
are unaware of what they had purportedly
surrendered. Because of this due process violation, all
settlement class members who were denied their due
process rights when they were not provided notice, as
required under Civ.R 23(C)(2)(b), continue to be able to
seek the remedy that they were denied in the Merrill
action and which is being sought by the filing of this
cause of action.
CLASS ALLEGATIONS
24. Plaintiff brings this action as a class action
under Civ.R. 23(B)(2) on behalf of himself and all other
members of a Class defined as all of the approximately
15,500 private littoral owners of parcels of real
property abutting Lake Erie within the State of Ohio
who were not sent notice of the settlement of the case
captioned State ex rel. Robert Merrill, et al v. State of
Ohio, Department of Natural Resources, et al, Case No.
04CV001080, filed in the Court of Common Pleas, Lake
County Ohio; and who did not file a Proof of Claim with
the Settlement Administrator.
25. The members of the Class are so numerous that
the joinder of all individual members is impracticable.
26. There are common questions of law and fact as
to the unconstitutional taking of private property by
ODNR which was owned by the Plaintiff and his Class
Members in this case.
27. The claims of the Plaintiff are typical of the
claims of the Class, and ODNR’s defenses are typical of

App. 256
the defenses pertinent to all of the members of the
Class.
28. Plaintiff will fairly and adequately protect the
interests of the Class.
29. ODNR has acted or refused to act on grounds
generally applicable to the Class, thereby making
appropriate declaratory relief and associated injunctive
relief with respect to the Class as a whole.
30. Adjudication of this case as a class action will
facilitate judicial economy.
COUNT I
Declaratory Judgment
31. The facts alleged in paragraphs 1 through 30 of
this Complaint are realleged and incorporated herein
by reference.
32. Prior to the decision of the Ohio Supreme Court
in State ex rel. Merrill v. Ohio Department of Natural
Resources, 130 Ohio St.3d 30, 2011-Ohio-4612, 955
N.E.2d 935, ODNR contended that the State of Ohio
held title to all lands located below the
administratively arbitrary line of OHW.
33. ODNR contended that Plaintiffs were prohibited
from using any land located below OHW, regardless of
fee ownership of that land.
34. Pursuant to Ohio Revised Code Chapter 2721,
Plaintiffs are entitled to an order of this Court
declaring that ODNR’s arbitrary and capricious
assertion of ownership and exercise of ownership rights
over the lands owned by Plaintiffs at and below OHW

App. 257
constituted an unconstitutional temporary taking of
those lands; and the Plaintiff and Class Members
should be declared to have a clear right to receive
compensation from ODNR for such taking and de facto
appropriation pursuant to Article I, Section 19 of the
Ohio Constitution and the Fifth Amendment to the
U.S. Constitution.
COUNT II
Mandamus/Inverse Takings Compensation
35. The facts in paragraph 1 through 34 of this
Complaint are realleged and incorporated herein by
reference.
36. Plaintiff and the Class Members have no plain
and adequate remedy in the ordinary course of law
other than to require ODNR to compensate each of
them, individually, fairly for the losses and damages
that they have incurred as a result of ODNR’s
uncompensated taking of their privately owned real
property.
37. ODNR is under a clear legal duty to commence
appropriation proceedings in the Probate Court of the
respective counties in which the properties owned by
Plaintiff and Class Members are located, to determine
the amount of compensation due to each of them for the
real property temporarily taken and for damage to the
residue of their respective real properties.
PRAYER FOR RELIEF
WHEREFORE, the Plaintiff, on behalf of himself
and the Class Members, requests that this Court grant
the following relief:

App. 258
1) Pursuant to Ohio Civil Rule 23(B)(2), certify this
case as a class action and certify that the class
shall include each and every owner of a parcel of
privately owned real property abutting Lake
Erie located within the State of Ohio to whom
they received neither actual notice of the
settlement of State ex rel. Merrill v. Ohio
Department of Natural Resources, nor any
compensation related to that settlement.
2) A declaratory judgment that that ODNR’s
arbitrary and capricious assertion of ownership
and exercise of ownership rights over the lands
owned by Plaintiffs at and below OHW
constituted an unconstitutional temporary
taking of those lands and the Plaintiff, and each
member of his Class, have a clear right to
receive compensation from ODNR for such
taking by appropriation, pursuant to Article I,
Section 19 of the Ohio Constitution and the Fifth
Amendment to the U.S. Constitution.
3) A Writ of Mandamus compelling and ordering
ODNR to commence appropriation proceedings
in the Probate Court of the respective counties
in which the properties owned by the Plaintiff
and Class Members are located to determine the
amount of compensation due to each for the real
property taken and for damage to the residue of
their real properties.
4) An award of Plaintiff’s attorneys’ fees and costs.
5) Any other relief that this Court deems equitable,
proper, necessary, or just.

App. 259
Respectfully submitted,
s/ Margaret M. Murray
Dennis E. Murray, Sr. (0008783)
dms@murrayandmurray.com
Margaret M. Murray (0066633)
mmm@murrayandmurray.com
Donna J. Evans (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky, Ohio 44870
Telephone: 419-624-3000
Facsimile: 419-624-0707
Attorneys for Plaintiff

App. 260
INSTRUCTIONS TO THE CLERK:
Please cause to be served upon all Defendants a
copy of the Complaint. Said service is requested by
certified mail.
s/ Margaret M. Murray
Dennis E. Murray, Sr. (0008783)
Margaret M. Murray (0066633)
Donna Jean Evans (0072306)
MURRAY & MURRAY CO., L.P.A.
Attorneys for Plaintiff

